No. 21-5592
================================================================================================================

In The

Supreme Court of the United States
-----------------------------------------------------------------JOHN H. RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, Executive Director,
Texas Department of Criminal Justice, et al.,
Respondents.
-----------------------------------------------------------------On Writ Of Certiorari To The United States
Court Of Appeals For The Fifth Circuit
-----------------------------------------------------------------JOINT APPENDIX VOLUME I
-----------------------------------------------------------------SETH KRETZER
Counsel of Record
LAW OFFICE OF SETH KRETZER
9119 S. Gessner, Suite 105
Houston, TX 77074
(713) 775-3050
seth@kretzerfirm.com
ERIN GLENN BUSBY
LISA R. ESKOW
MICHAEL F. STURLEY

UNIVERSITY OF TEXAS
SCHOOL OF LAW
SUPREME COURT CLINIC
727 East Dean Keeton St.
Austin, TX 78705
(512) 232-1350

JUDD STONE
Counsel of Record
TEXAS ATTORNEY
GENERAL’S OFFICE
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
judd.stone@oag.texas.gov
JENNIFER WREN MORRIS
TEXAS ATTORNEY
GENERAL’S OFFICE
300 W. 15th St.
Austin, TX 78701
(512) 936-2991
Counsel for Respondents

ERIC J. ALLEN
ALLEN LAW OFFICES
4200 Regent Street; Suite 200
Columbus, Ohio 43219
Counsel for Petitioner

================================================================================================================
Petition For Certiorari Filed September 7, 2021
Certiorari Granted September 8, 2021
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
Relevant District Court Docket Entries ......................1
Relevant Court of Appeals Docket Entries ..................8
First Amended Complaint (filed Aug. 16, 2021) ........14
Motion for Stay of Execution (filed 8/18/21) ..............73
Second Amended Complaint (filed Aug. 22,
2021) ........................................................................84
Defendants’ Opposition to Plaintiff ’s Motion for
a Stay of Execution (filed August 23, 2021) .........105
Defendants’ Surreply on Plaintiff ’s Motion for a
Stay of Execution (filed Aug. 30, 2021) .................157
Affidavit for Prove-Up of Photographs (filed
Aug. 31, 2021) ........................................................170
Order Denying Stay, United States District
Court for the Southern District of Texas, Houston Division (filed Sep. 2, 2021) ..........................175
Opinion, United States Court of Appeals for the
Fifth Circuit (filed Sep. 6, 2021) ...........................184
Order Granting Petition and IFP Status, United
States Supreme Court (filed Sep. 8, 2021) ...........202
The following document appears as a separate,
sealed volume:
Ramirez’s Reply to State’s Response to Motion
for Stay of Execution (filed Aug. 26, 2021) ..... S. JA 1

1
U.S. District Court
SOUTHERN DISTRICT OF TEXAS (Houston)
CIVIL DOCKET FOR CASE #: 4:21-cv-02609
Ramirez v. Collier et al
Assigned to: Judge David Hittner
Related Case: 2:21-cv-00167
Cause: 42:1983 Prisoner Civil Rights
Date Filed
08/10/2021

08/10/2021
08/11/2021

08/11/2021

08/12/2021

08/15/2021

# Docket Text
1 Prisoner Civil Rights COMPLAINT
against All Defendants (Filing fee
$ 402) filed by John Henry Ramirez.
(vrios, 2) (Entered: 08/10/2021)
2 NOTICE of Exclusion, filed. (vrios, 2)
(Entered: 08/10/2021)
3 ORDER TO TRANSFER CASE to
Houston Division.(Sigied by Judge
Nelva Gonzales Ramos) Parties notified.(vrios, 2) (Entered: 08/11/2021)
Case transferred in from Corpus
Christi Division on 8/11/21; Case
Number 2:21-cv-167. (hien, 4) (Entered: 08/11/2021)
4 CLERKS NOTICE OF DEFICIENT
PLEADING as to John Henry Ramirez.
Parties notified Notice of Compliance
due by 9/13/2021, filed. (Attachments:
#1 Appendix) (bgoolsby, 4) (Entered:
08/12/2021)
6 ORDER that Ramirez will file any
motion for a stay of execution or for a
preliminary injunction on or before
August 18, 2021. Defendants will file

2

08/16/2021

5

08/17/2021

7

08/17/2021

8

08/17/2021

9

08/17/2021 10

any dispositive motions and any response to Ramirez’s motion to stay or
for an injunction on or before August
23, 2021. The parties will file all replies or other papers on or before August 26, 2021.(Signed by Judge David
Hittner) Parties notified.(ealexander,
4) (Entered: 08/17/2021)
First AMENDED COMPLAINT
against All Defendants filed by
John Henry Ramirez. (Kretzer,
Seth) (Entered: 08/16/2021)
NOTICE of Appearance by Jennifer
Morris on behalf of Bryan Collier,
Dennis Crowley, Bobby Lumpkin, filed.
(Morris, Jennifer) (Entered: 08/17/2021)
MOTION for Clarification by John
Henry Ramirez, filed. Motion Docket
Date 9/7/2021. (Attachments: # 1
Proposed Order)(Kretzer, Seth)
(Entered: 08/17/2021)
ADVISORY by John Henry Ramirez,
filed. (Attachments: #1 Exhibit letter
to opposing counsels dated August
17, 2021, # 2 Exhibit Rule 5 request,
# 3 Exhibit Rule 6 sent to opposing
counsels in Word format)(Kretzer,
Seth) (Entered: 08/17/2021)
ORDER regarding 8 Motion for Clarification. The Court clarifies that its
August 15 scheduling order only pertains to any anticipated motion for a
preliminary injunction or stay of execution based on Ramirez’s civil rights

3

08/18/2021 11

08/22/2021 12

08/23/2021 13

08/26/2021 14

complaint. The Court will consider
the proper schedule for the remainder of this case after resolving any
questions concerning the Ramirez’s
execution.(Signed by Judge David
Hittner) Parties notified.
(ealexander, 4) (Entered: 08/17/2021)
Opposed MOTION to Stay Execution
by John Henry Ramirez, filed. Motion
Docket Date 9/8/2021. (Attachments:
# 1 Proposed Order)(Kretzer, Seth)
(Entered: 08/18/2021)
Second AMENDED COMPLAINT
against John Henry Ramirez filed by
John Henry Ramirez.(Kretzer, Seth)
(Entered: 08/22/2021)
RESPONSE in Opposition to 11
Opposed MOTION to Stay Execution,
filed by Bobby Lumpkin. (Attachments: #1 Exhibit 1, # 2 Exhibit 2,
# 3 Exhibit 3)(Morris, Jennifer)
(Entered: 08/23/2021)
REPLY in Support of 11 Opposed
MOTION to Stay Execution, filed by
John Henry Ramirez. (Attachments:
# 1 Exhibit Pastor Dr. Moore’s CV)
(Kretzer, Seth) (Entered: 08/26/2021)

08/30/2021 15 MOTION for Leave to File Surreply
by Bryan Collier, Dennis Crowley,
Bobby Lumpkin, filed. Motion
Docket Date 9/20/2021.
(Attachments: # 1 Exhibit)(Morris,
Jennifer) (Entered: 08/30/2021)

4
08/30/2021 16 Opposed MOTION to Seal Plaintiffs
Reply by Bryan Collier, Dennis Crowley, Bobby Lumpkin, filed. Motion
Docket Date 9/20/2021. (Morris,
Jennifer) (Entered: 08/30/2021)
08/31/2021 17 ORDER granting 15 Motion for Leave
to File Sur-Reply.(Signed by Judge
David Hittner) Parties notified.
(ealexander, 4) (Entered: 08/31/2021)
08/31/2021 18 SURREPLY toll Opposed MOTION to
Stay Execution, filed by Bryan Collier,
Dennis Crowley, Bobby Lumpkin.
(ealexander, 4) (Entered: 08/31/2021)
08/31/2021 19 ORDER granting 16 Motion to Seal
Plaintiffs Reply.(Signed by Judge David Hittner) Parties notified.(ealexander, 4) (Entered: 08/31/2021)
08/31/2021 20 NOTICE OF APPEAL to US Court of
Appeals for the Fifth Circuit by John
Henry Ramirez, filed.(Kretzer, Seth)
(Entered: 08/31/2021)
08/31/2021 21 SUPPLEMENT to 18 Surreply to Motion by Bryan Collier, Dennis Crowley, Bobby Lumpkin, filed.
(Attachments: # 1 Exhibit 1A)(Morris,
Jennifer) (Entered: 08/31/2021)
09/01/2021 22 Clerks Notice of Filing of an Appeal.
The following Notice of Appeal and
related motions are pending in the
District Court: 11 Opposed MOTION
to Stay Execution, 20 Notice of
Appeal. Fee status: Not Paid, filed.
(Attachments: # 1 NOA) (scastillo, 1)

5
(Main Document 22 replaced on
9/1/2021) (scastillo, 1). (Entered:
09/01/2021)
09/01/2021
Appeal Review Notes re: 20 Notice of
Appeal. Fee status: Not Paid. The appeal filing fee has not been paid, and
the appellant is represented by counsel.No hearings were held in the case
– no transcripts. Number of DKT-13
Forms expected: 1, filed.(scastillo, 1)
(Entered: 09/01/2021)
Notice of Assignment of USCA No.
09/01/2021
21-70004 re: 20 Notice of Appeal,
filed.(scastillo, 1) (Entered: 09/01/2021)
09/02/2021 23 ORDER denying 11 Motion to Stay of
Execution.(Signed by Judge David
Hittner) Parties notified.(ealexander,
4) (Entered: 09/02/2021)
09/02/2021 24 Amended NOTICE OF APPEAL to
US Court of Appeals for the Fifth Circuit re: 23 Order on Motion to Stay by
John Henry Ramirez, filed.(Kretzer,
Seth) (Entered: 09/02/2021)
09/03/2021 25 Clerks Notice of Filing of an Appeal.
The following Notice of Appeal and
related motions are pending in the
District Court: 24 Notice of Appeal –
Amended. Fee status: Not Paid, filed.
(Attachments: # 1 NOA) (scastillo, 1)
(Entered: 09/03/2021)_
Appeal Review Notes re: 24 Notice of
09/03/2021
Appeal – Amended. Fee status: Not
Paid. The appeal filing fee has not

6
been paid, and the appellant is
represented by counsel.No hearings
were held in the case – no transcripts. Number of DKT-13 Forms
expected: 1, filed. (scastillo, 1)
(Entered: 09/03/2021)
09/06/2021 26 Order of USCA PER CURIAM; Judgment issued as mandate 9/6/2021 re:
20 Notice of Appeal, 24 Notice of
Appeal – Amended ; USCA No. 2170004. Ramirez sought a stay of his
execution and the district court denied that motion. Ramirez has appealed. We deny the motion for a stay
of execution, filed.(JenniferLongoria,
1) (Entered: 09/07/2021)
09/07/2021
Electronic record on appeal certified
to the Fifth Circuit Court of Appeals
re: 24 Notice of Appeal – Amended
USCA No. 21-7004, filed.(scastillo, 1)
(Entered: 09/07/2021)
Electronic Access to Record on Appeal
09/07/2021
Provided re: 24 Notice of Appeal –
Amended, 20 Notice of Appeal to Seth
Kretzer. Attorneys of record at the
Circuit may download the record
from the Court of Appeals. (USCA
No. 21-70004), filed.(scastillo, 1)
(Entered: 09/07/2021)
09/15/2021
Electronic Access to Record on Appeal
Provided re: 24 Notice of Appeal –
Amended to Jennifer Wren. Attorneys
of record at the Circuit may download
the record from the Court of Appeals.

7
(USCA No. 21-70004), filed.(scastillo,
1) (Entered: 09/15/2021)

8
General Docket
United States Court of Appeals
for the Fifth Circuit
Court of Appeals Docket #: 21-70004
John H. Ramirez
Plaintiff - Appellant
v.
Bryan Collier, Executive Director,
Texas Department of Criminal Justice
Defendant - Appellee
Bobby Lumpkin, Director, Texas
Department of Criminal Justice,
Correctional Institutions Division
Defendant – Appellee
Dennis Crowley, Warden, TDCJ, Huntsville, TX
Defendant – Appellee
09/01/2021

DEATH PENALTY CASE docketed.
NOA filed by Appellant Mr. John H.
Ramirez [21-70004] (MRW) [Entered:
09/01/2021 09:01 AM]

09/01/2021

INITIAL CASE CHECK by Attorney
Advisor complete. Action: Case OK to
Process. [9656368-2] Initial AA Check
Due satisfied. [21-70004] (MRW) [Entered: 09/01/2021 02:25 PM]

09/02/2021

CASE CAPTION updated. Additional
appeal filed. [9656929-2] NOA filed by
Appellant Mr. John H. Ramirez.

9
[9656929-1] [21-70004] (MRW) [Entered: 09/02/2021 02:11 PM]
09/02/2021

CJA APPOINTMENT for Attorney Mr.
Seth Kretzer for Mr. John H. Ramirez.
Counsel must use the eVoucher system
to file the voucher at disposition of the
case. Please see the attached document
for further guidance.
ORIGINATING COURT DISTRICT: STX
ORIGINATING CASE NUMBER: 4:21CV-2609
DATE OF APPOINTMENT: 08/31/2021
[21-70004] (MRW) [Entered: 09/02/2021
02:18 PM]

09/02/2021

INITIAL CASE CHECK by Attorney
Advisor complete. Action: Case OK to
Process. [9657112-2] Initial AA Check
Due satisfied.. Fee due on 09/17/2021
for Appellant John H. Ramirez [2170004] (MRW) [Entered: 09/02/2021
04:26 PM]

09/02/2021

SUFFICIENT APPELLANTS BRIEF
FILED
Sufficient Brief deadline satisfied [2170004]
REVIEWED AND/OR EDITED – The
original text prior to review appeared
as follows: APPELLANT’S BRIEF
FILED Additionally the Brief requires
caption does not match the court’s caption, correct title of Table of Contents
not (Contents), need signature on certificate of interested parties, certificate of

10
compliance and certificate of service
out of order. Instructions to Attorney:
PLEASE READ THE ATTACHED NOTICE FOR INSTRUCTIONS ON HOW
TO REMEDY THE DEFAULT. Sufficient Brief due on 09/03/2021 for Appellant John H. Ramirez. [21-70004]
REVIEWED AND/OR EDITED – The
original text prior to review appeared
as follows: APPELLANT’S BRIEF
FILED by Mr. John H. Ramirez. Date of
service: 09/02/2021 via email – Attorney
for Appellant: Kretzer; Attorney for Appellee: Morris [21-70004] (Seth Kretzer ) [Entered: 09/02/2021 11:59 PM]
09/02/2021

MOTION filed by Appellant Mr. John
H. Ramirez to stay execution (INCORPORATED IN APPELLANTS BRIEF)
[9657215-2] set for 09/08/2021.. [2170004] (MRW) [Entered: 09/03/2021
08:18 AM]

09/03/2021

PROPOSED SUFFICIENT BRIEF filed
by Appellant Mr. John H. Ramirez
[9657184-2] Date of service: 09/03/2021
via email – Attorney for Appellant:
Kretzer; Attorney for Appellee: Morris
[21-70004] (Seth Kretzer ) [Entered:
09/03/2021 09:25 AM]

09/03/2021

ELECTRONIC RECORD ON APPEAL
REQUESTED from District Court for
4:21-CV-2609. Electronic ROA due on
09/20/2021. [21-70004] (MRW) [Entered: 09/03/2021 10:47 AM]

11
09/03/2021

APPEARANCE FORM received from
Ms. Jennifer Wren Morris for Mr. Bryan
Collier, Executive Director, Texas Department of Criminal Justice, Mr. Dennis Crowley and Mr. Bobby Lumpkin,
Director, Texas Department of Criminal
Justice, Correctional Institutions Division for the court’s review. Lead Counsel? Yes. [21-70004] (Jennifer Wren )
[Entered: 09/03/2021 06:23 PM]

09/03/2021

APPELLEE’S BRIEF FILED [21-70004]
REVIEWED AND/OR EDITED – The
original text prior to review appeared
as follows: APPELLEE’S MEMORANDUM BRIEF FILED by Mr. Bryan Collier, Executive Director, Texas
Department of Criminal Justice, Mr.
Dennis Crowley and Mr. Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division. Date of service:
09/03/2021 via email – Attorney for
Appellant: Kretzer; Attorney for Appellee: Morris [21-70004] (Jennifer Wren )
[Entered: 09/03/2021 06:24 PM]

09/03/2021

ELECTRONIC RECORD ON APPEAL
FILED. Admitted Exhibits on File in
District Court? No. Video/Audio Exhibits on File in District Court? No State
Court Papers included? No. Electronic
ROA deadline satisfied. [21-70004]
(MRW) [Entered: 09/03/2021 08:25 PM]

12
09/04/2021

APPELLANT’S REPLY BRIEF FILED
[21-70004]
REVIEWED AND/OR EDITED – The
original text prior to review appeared
as follows: APPELLANT’S REPLY
BRIEF FILED by Mr. John H. Ramirez.
Date of service: 09/04/2021 via email –
Attorney for Appellant: Kretzer; Attorney for Appellee: Morris [21-70004] (Seth
Kretzer ) [Entered: 09/04/2021 05:05 PM]

09/06/2021

PUBLISHED OPINION FILED. [2170004 Affirmed ]
Judge: PRO, Judge: PEH, Judge: JLD;
denying Motion to stay execution filed
by Appellant Mr. John H. Ramirez
[9657215-2] [21-70004] (MRW) [Entered: 09/06/2021 12:59 AM]

09/06/2021

MANDATE ISSUED. [21-70004]
(MRW) [Entered: 09/06/2021 10:39 AM]

09/09/2021

SUPREME COURT NOTICE that petition for writ of certiorari [9659743-2]
was filed by Appellant Mr. John H.
Ramirez on 09/07/2021. Supreme Court
Number: 21-5592. [21-70004] (SMC)
[Entered: 09/09/2021 08:26 AM]

09/14/2021

APPEARANCE FORM FILED by
Attorney Jennifer Wren for Appellee
Dennis Crowley in 21-70004, Attorney
Jennifer Wren for Appellee Bobby
Lumpkin, Director, Texas Department
of Criminal Justice, Correctional Institutions Division in 21-70004, Attorney
Jennifer Wren for Appellee Bryan

13
Collier, Executive Director, Texas
Department of Criminal Justice in
21-70004 [21-70004] (MRW) [Entered:
09/14/2021 02:24 PM]

14
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN HENRY RAMIREZ, §
Plaintiff,
§
§
vs.
§
BRYAN COLLIER,
§
Executive Director, Texas
§
Department of Criminal
§
Justice, Huntsville, Texas,
§
§
BOBBY LUMPKIN,
§
Director, Texas Department
§
of Criminal Justice,
§
Correctional Institutions
Division, Huntsville, Texas, §
§
DENNIS CROWLEY,
§
Warden, Texas Department
§
of Criminal Justice, Huntsville,
§
Unit, Huntsville, Texas,
§
Defendants.
§

No. 4:21-cv-2609
This is a Capital
Case.
Mr. Ramirez is
scheduled to be
executed on
September 8, 2021.

FIRST AMENDED COMPLAINT
PURSUANT TO 42 U.S.C. § 1983
(Filed Aug. 16, 2021)
Seth Kretzer
Law Office of Seth Kretzer
9119 South Gessner, Suite 105
Houston, Texas 77074
Tel. (713) 775-3050
seth@kretzerfirm.com
Counsel for John Henry Ramirez, Plaintiff

15
INTRODUCTION
1.

Plaintiff John Henry Ramirez is a devout Christian. He is also incarcerated at the Polunsky Unit
of the Texas Department of Criminal Justice
(“TDCJ”) under a sentence of death.

2.

The State of Texas intends to execute Mr. Ramirez
by lethal injection on September 8, 2021, at the
Walls Unit in Huntsville, Texas, under conditions
that violate the First Amendment’s Free Exercise
Clause and substantially burden the exercise of
his religion in violation of the Religious Land
Use and Institutionalized Persons Act of 2000
(“RLUIPA”), 42 U.S.C. § 2000cc et seq.

3.

Through the requisite TDCJ administrative channels, Mr. Ramirez has requested the presence of
his spiritual advisor in the execution chamber before and during his execution, and he has requested that his spiritual advisor lay his hands
upon him at the time of his death, a long-held and
practiced tradition in Christianity in general and
in the Protestant belief system Mr. Ramirez adheres to. Mr. Ramirez’s request was denied, and he
has properly exhausted all administrative remedies available to him under institutional policy.

4.

Relief is necessary to ensure that Mr. Ramirez is
executed only in a manner that does not substantially burden the exercise of his religious beliefs
and does not violate his rights under the Free Exercise Clause or RLUIPA.

16
JURISDICTION
5.

This Court has jurisdiction under 42 U.S.C.
§§ 2000cc-1, 28 U.S.C. §§ 1343, 1651, 2201, and
2202, and under 42 U.S.C. § 1983.
VENUE

6.

Venue lies in this Court under 28 U.S.C. § 1391 because Defendants maintain offices in the Southern
District of Texas. Venue is also proper because the
execution will occur in this district.
PARTIES

7.

Plaintiff John Henry Ramirez is incarcerated under a sentence of death at the Polunsky Unit of
TCDJ in Livingston, Texas. He is scheduled to be
executed on September 8, 2021.

8.

Defendant Bryan Collier is the Executive Director
of TDCJ. He is being sued in his official capacity.

9.

Defendant Bobby Lumpkin is the director of the
Correctional Institutions Division of TDCJ. He is
being sued in his official capacity. Mr. Lumpkin is
the individual the trial court ordered to carry out
the execution.

10. Defendant Dennis Crowley is the senior warden of
the Huntsville Unit, which is the unit where executions take place. He is being sued in his official
capacity. Because Mr. Crowley is the warden of
the Huntsville Unit, he supervises executions in
Texas.

17
FACTUAL BACKGROUND
11. For approximately five years, since 2016, Pastor
Dana Moore has ministered to Plaintiff Ramirez.
Pastor Moore is an ordained minister who leads a
congregation of roughly 200 people at Second Baptist in Corpus Christi, Texas. Pastor Moore and
Plaintiff Ramirez have corresponded and visited
over the years and Pastor Moore has guided Mr.
Ramirez in his practice of his religious faith. See
Exhibit 2; affidavit of Pastor Moore.
12. Until April 2019, and consistent with longstanding tradition nationwide, TDCJ allowed TDCJ-approved chaplains in the execution chamber to
guide persons being executed into the afterlife according to their religious beliefs. Between 1982
and March 2019, Texas conducted 560 executions
pursuant to this policy.
13. In March 2019, TDCJ refused inmate Patrick Murphy’s request that his Buddhist spiritual advisor
accompany him in the chamber during the scheduled execution. See Murphy v. Collier, 139 S. Ct.
1475 (2019) (mem.). After TDCJ refused Murphy’s
request, Murphy filed a request for a stay of execution in the Supreme Court and sought to challenge TDCJ’s decision on equal protection and
First Amendment grounds. See id.
14. On March 28, 2019, the Supreme Court granted
a stay of execution and issued an order prohibiting TDCJ from carrying out the execution “pending the timely filing and disposition of a petition
for a writ of certiorari unless the State permits
Murphy’s Buddhist spiritual advisor or another
Buddhist reverend of the State’s choosing to

18
accompany Murphy in the execution chamber during the execution.” Murphy, 139 S. Ct. at 1475.
Justice Kavanaugh wrote a concurring opinion
in which he expressed the view that “the Constitution prohibits [the]denominational discrimination” of the then-existing TDCJ policy. Id. at
1475-76. Justice Kavanaugh observed that a potential remedy for this denominational discrimination would be to ban all spiritual advisors of any
denomination from the chamber.
15. On April 2, 2019, TDCJ adopted another, revised
execution procedure to provide that “TDCJ Chaplains and Ministers/Spiritual Advisors designated
by the offender may observe the execution only
from the witness rooms.” Ex. 1, Tex. Dep’t Crim.
Just., Execution Procedure at 8 (Apr. 2019).
16. On April 21, 2021 TDCJ adopted a new protocol.
Under this new protocol, the condemned may be
accompanied into the execution chamber by their
personal religious advisor, who may minister to
the condemned prisoner during the execution.
TDCJ also requires that the advisors be verified
and pass a background check.
17. For the past five years, since approximately 2016,
Plaintiff Ramirez has received religious counseling and spiritual advice from his spiritual advisor,
Pastor Dana Moore. Mr. Ramirez has asked Pastor
Moore to be present at the time of his execution to
pray with him and provide spiritual comfort and
guidance in the final moments of his life. Pastor
Moore has agreed to accompany Mr. Ramirez in
the execution chamber when he is executed, to
pray with him and to help guide him into the

19
afterlife. Pastor Moore needs to lay his hands on
Mr. Ramirez in accordance with his and Mr.
Ramirez’s faith tradition. This belief is set forth in
the affidavit of Pastor Moore. Ex. 2, Declaration of
Pastor Dana Moore.
18. The laying on of hands is a symbolic act in which
religious leaders place their hands on a person in
order to confer a spiritual blessing. This contact is
necessary to bless Mr. Ramirez at the moment of
his death.
19. This practice has its basis in Christian scripture.
The Apostle Philip’s preaching in Samaria where
a mass of people “listened eagerly . . . believed . . .
[and] were baptized” (Acts 8:11, 12) Yet these new
converts did not “receive the Holy Spirit” until after “Peter and John” came to Samaria from Jerusalem and “laid their hands on them” (8:17).
Similarly, when Paul later baptized a group of
Ephesian disciples, it was not until he “had laid
his hands on them” that “the Holy Spirit came
upon them” (Paul 19:1–6).
20. Already, TDCJ has in place specific protocols to
take place prior to Pastor Moore’s entry into the
Walls Unit. Pastor Moore will undergo a rigorous
screening process including being screened by a
metal detector and having any items he carries
with him screened by an x-ray. He will be required
to remove his shoes and belt for inspection. Pastor
Moore also is willing to undergo additional security screening, if necessary, in order to be present
in the execution chamber and to have physical
contact necessary to confer a blessing on Mr.
Ramirez at the time of his death.

20
21. On June 8, 2021, a lawyer contacted Kristen
Worman, general counsel of TDCJ, through email.
That email inquired about whether Ms. Worman
and TDCJ had made a decision regarding the presence of Plaintiff Ramirez’s minister in the execution chamber and direct personal contact between
the condemned and the pastor. Ex. 3, E-mail correspondence with Kristen Worman, General Counsel
for TDCJ.
22. On June 17, 2021, Ms. Worman responded via email, stating that Pastor Moore would not be allowed to have direct, personal contact with Plaintiff Ramirez in the execution chamber. See Ex. 3.
23. Plaintiff Ramirez submitted an Offender Form I60 “Offender Request to Official” to TDCJ on or
about July 15, 2020. In the grievance, he requested
that TDCJ allow Pastor Moore to be present in the
execution chamber. He further requested that Pastor Moore be allowed to have direct, personal contact with him during the execution. See Ex. 4.
24. Mr. Ramirez’s grievance was denied, and he filed
an appeal of that denial. The appeal has yet to be
decided. See Ex. 4.
PROCEDURAL HISTORY
25. John Henry Ramirez was convicted and sentenced
to death in 2008 for the 2004 killing of Pablo Castro in Nueces County, Texas. The Texas Court of
Criminal Appeals (“TCCA”) affirmed the conviction and death sentence on direct appeal. Ramirez
v. State, No. AP-76,100 (Tex. Crim. App., March 16,

21
2011). In 2012, the TCCA denied state post-conviction relief, after evidentiary hearing and upon the
trial court’s report and recommendation. Ex parte
Ramirez, No. WR-72,735-03 (Tex. Crim. App., October 10, 2012). Mr. Ramirez timely filed a petition
for writ of habeas corpus in the federal district
court. The district court denied relief and a certificate of appealability. Ramirez v. Stephens, No. 212-CV-410 (S.D. Tex., June 10, 2015).
26. Mr. Ramirez filed a timely notice of appeal to the
United States Court of Appeals for the Fifth Circuit. That court denied a request for certificate of
appealability on February 4, 2016. The Supreme
Court denied a request for certiorari review on October 3, 2016.
27. The State of Texas set an execution date on February 2, 2017. On January 27, 2017, Mr. Ramirez
moved to substitute counsel and stay the execution date. This Court granted Mr. Ramirez’s motion on January 31, 2017. On August 20, 2018, Mr.
Ramirez filed a motion for relief from judgment in
the United States District Court. The Court denied this motion on January 3, 2019. Mr. Ramirez
appealed to the Fifth Circuit, which denied the request for a certificate of appealability on June 26,
2019. The Supreme Court again denied certiorari
review, on March 2, 2020, and it denied rehearing
on May 18, 2020.
28. The State of Texas set another execution date of
September 9, 2020. In August 2020, Mr. Ramirez
filed a ‘spiritual advisor’ claim under Section
1983. This was assigned Southern District cause

22
number 2:20-cv-205. A copy of this previous 1983
complaint is attached Exhibit 5.
29. Thereafter, a bilateral ‘deal’ was struck between
Rodrigeuz and the Attorney General’s Office to
withdraw the death warrant in exchange for Rodriguez’s withdrawal of then-pending civil litigation.
30. More specifically, the Attorney General’s Office
and Rodriguez reached bargain in which the state
agreed to withdraw the execution date in exchange for Rodriguez’s agreement to non-suit
without prejudice his 1983 case- and to dismiss a
funding request under 18 U.S.C. § 3599(f ).
31. The August 12, 2020 filing in the underlying habeas case is attached as Exhibit 6, and reads in
relevant part:
On August 11, 2020, Ramirez’s counsel and AAG
Morris reached agreement to 1) file an agreed motion to withdraw execution date and recall death
warrant in the 94th Judicial District of Nueces
County in exchange for 2) Ramirez filing a motion
to non-suit without prejudice his recently filed
Section 1983 suit in this Court; 2:20-cv-00205
Ramirez v. Collier.
32. On August 14, 2020, Nueces County District Court
Judge Bobby Galvan of the 94th Criminal District
Court withdrew the September execution date in
an order in accord with the joint motion to cancel
the execution. Subsequently, Rodriguez withdrew
his funding motion and filed a motion to non-suit
with prejudice his matters pending in federal
court.

23
33. On February 3, 2021 the State moved to set a new
execution date, and on February 5, 2021, Judge
Galvan signed an order setting an execution date
for Mr. Ramirez of September 8, 2021.
34. As envisaged under the August 11, 2020 agreement, Ramirez filed a new funding request, and on
July 13, 2021, Judge Ramos granted in part this
motion for funding under 18 U.S.C. § 3599(f ).
35. Similarly, the instant (new) 1983 lawsuit fits the
August 11, 2020 agreement that Ramirez would
not be prejudiced to resurrecting his federal civil
rights lawsuit on religious grounds.
CLAIMS FOR RELIEF
36. Mr. Ramirez re-alleges and incorporates by reference and the allegations contained in the previous
paragraphs of this Complaint.
CLAIM ONE: FIRST AMENDMENT
FREE EXERCISE OF RELIGION
37. The First Amendment requires that “Congress
shall make no law . . . prohibiting the free exercise
of ” religion. U.S. Const., amend. I. Like the Establishment Clause, the Free Exercise Clause is binding on the states. See Cantwell v. Connecticut, 310
U.S. 296, 303 (1940) (holding that the protections
of the Free Exercise Clause are incorporated by
the Fourteenth Amendment against the States).
38. According to its April 2021 revised protocol, TDCJ
no longer precludes TDCJ-approved spiritual
advisors from entering the execution chamber.

24
Further, in spite of this protocol, which does not
address whether or not the spiritual advisor can
have direct, personal contact with the condemned,
Defendants have informed Mr. Ramirez that his
spiritual advisor will not be allowed to be present
at the moment of his execution and to confer a
spiritual blessing at the moment of his death via
the laying on of hands. In fact, the TDCJ has not
indicated it will accede to Mr. Ramirez’s request
that his requested spiritual advisor be allowed to
be present at all in the execution chamber.
39. Many Baptist ministers see the laying on of hands
as a vitally important affirmation by God’s people
of their calling. This laying on of hands at the time
of death is the affirmation of faith at the time between life and afterlife.
40. TDCJ’s intent to deny Mr. Ramirez access spiritual counseling during the moments leading up to
and including his execution as well as the direct
personal contact violates his First Amendment
rights under the Free Exercise clause and cannot
be justified by a vague citation to illusory security
concerns. Furthermore, TDCJ cannot demonstrate
that its current security and screening protocols
are inadequate, or that it could not address security concerns with further screening measures, to
which Pastor Moore has indicated he is willing to
submit.
41. TDCJ’s current policy with regard to the presence
of spiritual advisors in the execution chamber burdens Mr. Ramirez’s free exercise of his Christian
faith in the moments just prior to and including
his execution. It burdens his free exercise of faith

25
at his exact time of death, when most Christians
believe they will either ascend to heaven or descend to hell – in other words, when religious instruction and practice is most needed. See, 2
Timothy 1:6, “For this reason I remind you to kindle afresh the gift of God which is in you through
the laying on of my hands.” (2 Timothy 1:6). This
is the most important at the moment of his death.
42. When a state hinders a prisoner’s ability to freely
exercise his religion, reviewing courts must determine whether the law or policy is neutral and generally applicable. Church of the Lukumi Balbao
Aye, Inc. v. Hialeah, 508 U.S. 520, 531 (1993). If it
is neutral and generally applicable, it can have
an “incidental effect of burdening a particular
religious practice.” Ibid. If it is not neutral and
generally applicable, it must show a “compelling
governmental interest” that is “narrowly tailored
to advance that interest.” Ibid.
43. Here, TDCJ’s policy is not neutral. It is hostile toward religion, denying religious exercise at the
precise moment it is most needed: when someone
is transitioning from this life to the next. The policy is thus permissible only if it can survive strict
scrutiny, which it could not. Any argument that security concerns constitute a “compelling governmental interest” necessitating the exclusion of Mr.
Ramirez’s spiritual advisor from the execution
chamber and preventing him from touching the
condemned withers when subjected to strict scrutiny, as the Constitution requires.
44. As a federal judge in this district recently noted,
when making fact-findings relevant to a recent

26
challenge to TDCJ’s previous execution policy excluding all religious advisors from the execution
chamber, “Speculative hypotheticals without evidentiary support do not create an unmanageable
security risk.” Gutierrez v. Saenz, No. 1:19-cv00185 (S.D. Tex. Nov. 24,2020), ECF Doc. 124 at
*29.
45. For these reasons, TDCJ’s amended policy precluding Mr. Ramirez’s spiritual advisor from being
present at the moment of his execution and administering a final blessing via the laying on of
hands, in accordance with Mr. Ramirez’s faith tradition, violates his rights under the First Amendment’s Free Exercise Clause.
CLAIM TWO: THE RELIGIOUS
LAND USE AND INSTITUTIONALIZED
PERSONS ACT (“RLUIPA”)
46. Mr. Ramirez incorporates paragraphs 1-39, above.
47. Even if this Court finds that TDCJ’s policy does
not violate Plaintiff Ramirez’s First Amendment
rights, it should find that the policy violates
RLUIPA. RLUIPA provides in part, “No government shall impose a substantial burden on the religious exercise of a person residing in or confined
to an institution,” unless the burden furthers “a
compelling governmental interest,” and does so by
“the least restrictive means.” RLUIPA “alleviates
exceptional government-created burdens on private religious exercise.” Cutter v. Wilkinson, 544
U.S. 709, 720 (2005).

27
48. Specifically, RLUIPA states:
No government shall impose a substantial burden on the religious exercise of a
person residing in or confined to an institution, as defined in section 1997 of this
title, even if the burden results from a
rule of general applicability, unless the
government demonstrates that imposition of the burden on the person-(1) is in
furtherance of a compelling governmental interest; and (2) is the least restrictive
means of furthering that compelling interest.41 U.S.C. 2000cc-1 (a)RLUIPA
thus “alleviates exceptional governmentcreated burdens on private religious
exercise,” without “elevat[ing] accommodation of religious observances over an
institution’s need to maintain order and
safety.
Cutter, 544 U.S. at 720.
49. “In RLUIPA, in an obvious effort to effect a complete separation from the First Amendment case
law, Congress deleted reference to the First
Amendment and defined the ‘exercise of religion’
to include ‘any exercise of religion, whether or not
compelled by, or central to, a system of religious
belief.’ ” Burwell v. Hobby Lobby Stores, 573 U.S.
682, 696 (quoting 42 U.S.C. § 2000cc-5(7)(A)).
RLUIPA thus provides more “expansive protection” for religious liberty than the United States
Supreme Court case law. Holt v. Hobbs, 574 U.S.
352, 358 (2015).

28
50. Prohibiting Mr. Ramirez from engaging in vitally
important religious practices with a chaplain at
the end of his life and including the moment of his
death substantially burdens his practice of religion. See, e.g., id, 135 S. Ct. at 862 (2015) (determining that where a prisoner shows the exercise
of religion “grounded in a sincerely held religious
belief,” enforced prohibition “substantially burdens his religious exercise”).
51. Under RLUIPA, a prison may not impose a substantial burden on a prisoner’s religious exercise
unless doing so satisfies the Supreme Court’s
“strict scrutiny” test; the challenged policy must be
“the least restrictive means of furthering [a] compelling governmental interest.” 42 U.S.C. §2000cc1(a).
52. The strict scrutiny standard is “exceptionally demanding.” Holt, 574 U.S. 352, 353, quoting Burwell
v. Hobby Lobby Stores, Inc., 573 U.S. at 728.
53. Defendants have not employed the least restrictive means to further a compelling interest. Defendants have the burden to prove this defense.
See, Holt, 574 U.S. at 357, 362.
54. As a federal judge in this district recently noted,
when making fact-findings relevant to a recent
challenge to TDCJ’s execution policy excluding all
religious advisors from the execution chamber,
“Speculative hypotheticals without evidentiary
support do not create an unmanageable security
risk.” Gutierrez v. Saenz, supra, ECF Doc. 124 at
*29.

29
55. TDCJ’s amended policy places a substantial burden on Mr. Ramirez’s practice of a sincerely-held
religious belief in the “spiritually charged final
moments of life,” leading up to and including his
execution, when religious observance and spiritual guidance are most critical. No compelling security interest justifies the burden on his religious
exercise.
56. Accordingly, if the Court concludes that TDCJ’s
revised policy does not violate the First Amendment, it should decide that the policy violates
RLUIPA.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff John Henry Ramirez
prays that this Court provide relief as follows:
1. A declaratory judgment that TDCJ’s amended
policy violates Mr. Ramirez’s First Amendment rights
under the Free Exercise Clause;
2. A declaratory judgment that TDCJ’s amended
policy violates Mr. Ramirez’s rights under RLUIPA;
and
3. A preliminary and permanent injunction
prohibiting Defendants from executing Mr. Ramirez

30
until they can do so in a way that does not violate his
rights.
Respectfully submitted,
/s/ Seth Kretzer
Seth Kretzer
TBN: 24043764
LAW OFFICE OF
SETH KRETZER
9119 South Gessner, Suite 105
Houston, Texas 77074
Tel. (713) 775-3050
seth@kretzerfirm.com

VERIFICATION
I, Seth Kretzer, attorney for the Plaintiff in the
above-titled action, state that to the best of my knowledge and belief, the facts set forth in this Complaint
are true.
Dated: August 16, 2021.
/s/ Seth Kretzer
Seth Kretzer
[Certificate Of Service Omitted]

31
EXHIBIT 1
TEXAS DEPARTMENT
OF CRIMINAL JUSTICE
Correctional Institutions Division
[SEAL]
EXECUTION PROCEDURE
April 2019
ADOPTION OF EXECUTION PROCEDURE
In my duties as Division Director of the Correctional
Institutions Division, I hereby adopt the attached Execution Procedure for use in the operation of the Texas
Department of Criminal Justice Death Row housing
units and perimeter functions. This Procedure is in
compliance with Texas Board of Criminal Justice Rule
§152.51; §§492.013(a), 493.004, Texas Government
Code, and Article 43.14 – 43.20, Code of Criminal Procedure.
/s/ Lorie Davis
Lorie Davis
Director, Correctional
Institutions Division

4-2-19
Date

32
EXECUTION PROCEDURES
PROCEDURES
I.

II.

Procedures Upon Notification of Execution Date
A.

The clerk of the trial court pursuant to
Tex Code of Criminal Procedure art.
43.15 shall officially notify the Correctional Institutions Division (CID) Director, who shall then notify the Death Row
Unit Warden, and the Huntsville Unit
Warden of an offender’s execution date.
Once an execution date is received, the
Death Row Unit Warden’s office shall notify the Unit Classification Chief, and the
Death Row Supervisor.

B.

The Death Row Supervisor shall schedule
an interview with the condemned offender and provide him with the Notification of Execution Date (Form 1). This
form provides the offender with a list of
the information that shall be requested
from him (2) two weeks prior to the scheduled execution.

C.

The condemned offender may be moved to
a designated cell. Any keep-on-person
(KOP) medication shall be confiscated
and administered to the offender as needed
by Unit Health Services staff.

Stays of Execution
A. Official notification of a stay of execution
shall be delivered to the CID Director, the

33
Death Row Unit Warden, and the Huntsville Unit Warden through the Huntsville
Unit Warden’s Office. Staff must not accept a stay of execution from the offender’s attorney. After the official stay is
received, the Death Row Unit Warden’s
office shall notify the Unit Classification
Chief and Death Row Supervisor.
B.

III.

Designated staff on the Death Row Unit
shall notify the offender that a stay of execution has been received.

Preparation of the Execution Summary
and Packet
A. Two Weeks (14 days) Prior to the Execution
1.

The Death Row Unit shall begin preparation of the Execution Summary.
The Execution Summary (Form 2)
and the Religious Orientation Statement (Form 3) shall be forwarded to
the Death Row Supervisor or Warden’s designee for completion. A copy
of the offender’s current visitation
list and recent commissary activity
shall also be provided.

2.

The Death Row Supervisor shall
arrange an interview with the condemned offender to gather the information necessary to complete the
Execution Summary and Religious
Orientation Statement.

34
3.

An offender may request to have his
body donated to the Texas State Anatomical Board for medical education
and research. The appropriate paperwork shall be supplied to the offender
upon request.

4.

The Execution Summary must be
completed and returned by the Death
Row Supervisor or Warden’s designee in sufficient time to be forwarded to the CID Director’s Office
by noon of the 14th day. After approval by the CID Director, the summary shall be forwarded to the Death
Row Unit Chaplain, the Huntsville
Unit Warden’s Office, and the Communications Department.

5.

If the offender wishes to change
the names of his witnesses, and it is
less than fourteen (14) days prior to
the scheduled execution, the offender
shall submit a request in writing to
the CID Director through the Death
Row Unit Warden, who shall approve
or disapprove the changes.

6.

The Death Row Unit is responsible
for completion of the Execution Packet
which shall include:
a.

Execution Summary;

b.

Religious Orientation Statement;

c.

Copy of the Offender Travel Card;

35
d.

Current Visitation List;

e.

Execution Watch Notification;

f.

Execution Watch Logs;

g.

1-25 Offender’s Request for Trust
Fund Withdrawal;

h.

Offender Property Documentation (PROP-05 and PROP-08);
and

i.

Other documents as necessary.

7.

The Death Row Supervisor or the
Warden’s designee shall notify staff
(Form 4) to begin the Execution
Watch Log (Form 5).

8.

The Execution Watch Log shall begin
at 6:00 a.m. seven (7) days prior to
the scheduled execution. The seven
(7) day timeframe shall not include
the day of the execution. The offender
shall be observed, logging his activities every 30 minutes for the first six
(6) days and every 15 minutes for the
remaining 36 hours. The Communications Department may request information from the Execution Watch
Log on the day of execution.

9.

The original Execution Packet and
the offender’s medical file shall be
sent with the condemned offender in
the transport vehicle to the Huntsville Unit or the Goree Unit for a female offender. The Death Row Unit

36
Warden shall maintain a copy of the
Execution Packet on the Death Row
Unit.
10. If there are any changes necessary to
the Execution Packet, staff shall notify the CID Director’s Office and the
Huntsville Unit Warden’s Office.
B.

The Day of Execution
1.

On the morning of the day of the execution prior to final visitation, all of
the offender’s personal property shall
be packed and inventoried. The property officer shall complete an “Offender Property Inventory” (PROP05) detailing each item of the offender’s property. The property officer
shall also complete a “Disposition
of Confiscated Offender Property”
(PROP-08) indicating the offender’s
choice of disposition of personal property.
a.

If disposition is to be made from
the Huntsville Unit a copy of the
property forms should be maintained by the Death Row Unit
Property Officer and the originals forwarded to the Huntsville
Unit with the property.

b.

If disposition is to be made from
the Death Row Unit a copy of the
property forms will be placed in
the Execution Packet and the

37
original forms maintained on
the Death Row Unit through
the completion of the disposition
process.
c.

2.

The Mountain View Unit Warden shall ensure that a female
offender brings personal hygiene
and gender-specific items to the
Huntsville Unit as appropriate.

Designated staff shall obtain the offender’s current Trust Fund balance
and prepare the Offender’s Request
for Trust Fund Withdrawal (1-25) for
completion by the offender.
a.

The following statement should
be written or typed on the reverse side of the 1-25, “In the
event of my execution, please distribute the balance of my Inmate
Trust Fund account as directed
by this Request for Withdrawal.”
The offender’s name, number, signature, thumbprint, date, and
time should be below this statement. Two (2) employees’ names
and signatures should be below
the offender’s signature as witnesses that the offender authorized the form.

b.

This Request for Withdrawal
form shall be delivered to the Inmate Trust Fund for processing

38
by 10:00 a.m. CST the next business day following the execution.
3.

A female offender may be transported to the Goree unit prior to the
day of the execution. The Execution
Transport Log for Female Offenders
(Form 7) shall be initiated at the
Mountain View Unit. The Goree Unit
staff will initiate the Execution Watch
Log upon arrival on the Goree Unit,
permit visitation as appropriate and
transport the offender to the Huntsville Unit. The Transport Log shall
resume when the offender departs
the Goree Unit.

4.

The condemned offender shall be permitted visits with family and friends
on the morning of the day of the
scheduled execution. No media visits
shall be allowed at the Goree Unit.
NOTE: Special visits (minister, relatives not on the visitation list, attorney, and other similar circumstances)
shall be approved by the Death Row
or Goree Unit Warden or designee.
Exceptions may be made to schedule
as many family members to visit
prior to the offender’s scheduled day
of execution. These are considered to
be special visits. No changes shall be
made to the offender’s visitation list.

5.

The Execution Watch Log shall be
discontinued when the Execution

39
Transport Log for Male Offenders
(Form 6) is initiated.
6.

When appropriate the offender shall
be escorted to 12 building at the
Polunsky or the designated area at
the Mountain View or Goree Unit
and placed in a holding cell. The appropriate Execution Transport Log
shall be initiated and the offender
shall be prepared for transport to the
Huntsville Unit. The offender shall
be removed from the transport vehicle at the Huntsville Unit and escorted by Huntsville Unit security
staff into the execution holding area:

7.

Any transportation arrangements
for the condemned offender between
units shall be known only to the Wardens involved, the CID Director, as
well as those persons they designate
as having a need to know. No public
announcement shall be made concerning the exact time, method, or
route of transfer. The CID Director’s
Office and the Communications Department shall be notified immediately after the offender arrives at the
Huntsville Unit

8.

When the offender enters the execution holding area the Execution
Watch Log shall immediately resume.
The restraints shall be removed and
the offender strip-searched.

40
9.

The offender shall be fingerprinted,
placed in a holding cell, and issued a
clean set of TDCJ clothing.

10. The Warden shall be notified after
the offender has been secured in the
holding cell. The Warden or designee
shall interview the offender and review the information in the Execution Packet.
11. Staff from the Communications Department shall also visit with the offender to determine if he wishes to
make a media statement and to obtain authorization, if necessary, to release the statement.
12. The offender may have visits with a
TDCJ Chaplain(s), a Minister/Spiritual Advisor who has the appropriate credentials and his attorney(s) on
the day of execution at the Huntsville
Unit; however, the Huntsville Unit
Warden must approve all visits.
13. There shall be no family or media visits allowed at the Huntsville Unit.
IV.

Drug Team Qualifications and Training
A. The drug team shall have at least one
medically trained individual. Each medically trained individual shall at least be
certified or licensed as a certified medical
assistant, phlebotomist, emergency medical technician, paramedic, or military corpsman. Each medically trained individual

41
shall have one year of professional experience before participating as part of a
drug team, shall retain current licensure,
and shall fulfill continuing education requirements commensurate with licensure.
Neither medically trained individuals nor
any other members of the drug team shall
be identified.

V.

B.

Each new member of the drug team shall
receive training before participating in
an execution without direct supervision.
The training shall consist of following the
drug team through at least two executions, receiving step-by-step instruction
from existing team members. The new
team member will then participate in at
least two executions under the direct supervision of existing team members.
Thereafter, the new team member may
participate in executions without the direct supervision of existing team members.

C.

The Huntsville Unit Warden shall review
annually the training and current licensure, as appropriate, of each team member to ensure compliance with the
required qualifications and training.

Pre-execution Procedures
A.

The Huntsville Unit Warden’s Office shall
serve as the communication command
post and entry to this area shall be restricted.

42
B.

C.

Inventory and Equipment Check
1.

Designated staff on the Huntsville
Unit are responsible for ensuring the
purchase, storage, and control of all
chemicals used in lethal injection executions for the State of Texas.

2.

The drug team shall obtain all of the
equipment and supplies necessary to
perform the lethal injection from the
designated storage area.

3.

An inventory and equipment check
shall be conducted.

4.

Expiration dates of all applicable
items are to be checked on each individual item. Outdated items shall be
replaced immediately.

Minister/Spiritual Advisor and attorney
visits shall occur between 3:00 and 4:00
p.m. CST unless exceptional circumstances
exist. Exceptions may be granted under
unusual circumstances as approved by
the Huntsville Unit Warden.

D. The offender shall be served his last meal
at approximately 4:00 p.m. CST.
E. The offender shall be afforded an opportunity to shower and shall be provided
with clean clothes at some time prior to
6:00 p.m. CST.
F.

Only TDCJ security personnel shall be
permitted in the execution chamber.
The CID Director or designee and the

43
Huntsville Unit Warden or designee shall
accompany the offender while in the Execution Chamber. TDCJ Chaplains and
Ministers/Spiritual Advisors designated
by the offender may observe the execution only from the witness rooms.
VI.

Set up Preparations for the Lethal Injection
A. One (I) syringe of normal saline shall be
prepared by members of the drug team.
B.

The lethal injection drug shall be mixed
and syringes shall be prepared by members of the drug team as follows:
Pentobarbital 100 milliliters of solution
containing 5 grams of Pentobarbital.

C.

VII.

The drug team shall have available a
back-up set of the normal saline syringe
and the lethal injection drug in case unforeseen events make their use necessary.

Execution Procedures
A. After 6:00 p.m. CST and after confirming
with the Office of the Attorney General
and the Governor’s Office that no further
stays, if any, will be imposed and that imposition of the court’s order should proceed, the CID Director or designee shall
give the order to escort the offender into
the execution chamber.
B.

The offender shall be escorted from the
holding cell into the Execution Chamber
and secured to the gurney.

44
C.

A medically trained individual shall insert intravenous (IV) catheters into a
suitable vein of the condemned person. If
a suitable vein cannot be discovered in an
arm, the medically trained individual
shall substitute a suitable vein in another
part of the body, but shall not use a “cutdown” procedure to access a suitable vein.
The medically trained individual shall
take as much time as is needed to
properly insert the IV lines. The medically trained individual shall connect an
IV administration set, and start a normal
saline solution to flow at a slow rate
through one of the lines. The second line
is started as a precaution and is used only
if a potential problem is identified with
the primary line. The CID Director or
designee, the Huntsville Unit Warden or
designee, and the medically trained individual shall observe the IV to ensure that
the rate of flow is uninterrupted.

D. Witnesses to the execution shall be brought
into the appropriate viewing area ONLY
AFTER the Saline IV has been started
and is running properly, as instructed by
the Huntsville Unit Warden or designee.
E. The CID Director or designee shall give
the order to commence with the execution.
F.

The Huntsville Unit Warden or designee
shall allow the condemned person to
make a brief, last statement.

45
G. The Huntsville Unit Warden or designee
shall instruct the drug team to induce, by
syringe, substances necessary to cause
death.
H. The flow of normal saline through the IV
shall be discontinued.
I.

The lethal dose of Pentobarbital shall be
commenced. When the entire contents of
the syringe have been injected, the line
shall be flushed with an injection of normal saline.

J.

The CID Director or designee and the
Huntsville Unit Warden or designee shall
observe the appearance of the condemned
individual during application of the Pentobarbital. If, after a sufficient time for
death to have occurred, the condemned
individual exhibits visible signs of life,
the CID Director or designee shall instruct the drug team to administer an additional 5 grams of Pentobarbital
followed with a saline flush.

K. At the completion of the process and after
a sufficient time for death to have occurred, the Warden shall direct the physician to enter the Execution Chamber to
examine the offender, pronounce the offender’s death, and designate the official
time of death.
L.

The body shall be immediately removed
from the Execution Chamber and transported by a coordinating funeral home.

46
Arrangements for the body should be concluded prior to execution.
VIII. Employee participants in the Execution Process
shall not be identified or their names released to
the public. They shall receive an orientation
with the Huntsville, Goree, Polansky, or Mountain View Unit Wardens, who shall inform the
employees of the TDCJ ED-06.63, “Crisis Response Intervention Support Program” (CRISP).
The employees shall be encouraged to contact
the Regional CRISP Team Leader following the
initial participation in the execution process.

EXHIBIT 2
AFFIDAVIT OF DANA MOORE
State of Texas
SS:
County of Nueces
Now comes the Affiant being first duly sworn and
warned of the penalties of perjury and states the following is true and accurate to the best of his knowledge
and understanding
1.

I am a Baptist minister who was ordained in
1983 by Long Point Baptist Church in Houston, Texas. I am currently the pastor of the
Second Baptist Church in Corpus Christi,
Texas and have been in this position since
2007. This is a congregation of some two hundred members.

47
2.

John Henry Ramirez, is a member of this
church despite being on death row in Livingston, Texas. He was welcomed by all members
of the church and is a member in good standing.

3.

I have visited John Ramirez for the past four
years at Livingston, Texas as his spiritual advisor. He has asked that I be his spiritual advisor in the execution chamber on September
8, 2021. I have accepted this request from Mr.
Ramirez. He has further requested that I
touch him while he is being executed.

4.

As the spiritual advisor for John Ramirez, I
understand that I will be able to stand in the
same room with John during his execution,
but I will not be able to physically touch him.
Human touch has significance and power.
Many miracles of Jesus were performed by
touching such as found in Matthew 8:3. The
Bible teaches to anoint the sick with oil which
is done via touch (James 5:14). In Mark 10:1416 Jesus touched and blessed the children.
Whenever I pray with others in a crisis situation I hold their hand or put my hand on their
shoulder. In other words, I touch them. That is
a significant part of our faith tradition as Baptists. I need to be in physical contact with
John Ramirez during the most stressful and
difficult time of his life in order to give him
comfort.

5.

I would request that I be allowed to touch Mr.
Ramirez as he is executed as his spiritual advisor.

48
AFFIANT FURTHER SAYETH NAUGHT
/s/ Dana Moore
Dana Moore

NOTARY CERTIFICATION
I hereby swear and affirm that Affiant appeared
before me, was sworn and stated the above is true and
accurate to the best of his understanding and knowledge.
/s/ Deborah Guerrero
Notary Public
DEBORAH GUERRERO
Notary Public, State of Texas
[SEAL]
Comm. Expires 03-21-2025
Notary ID 10752241

EXHIBIT 3
From: Amy Lee <Amy.Lee@tdcj.texas.gov>
Date: March 12, 2021 at 4:56:03 PM EST
To: Eric Allen <eric@eallenlaw.com>
Cc: Kristen Worman <Kristen.Worman@tdcj.texas.gov>
Subject: RE: John Ramirez 999544
Mr. Allen,
TDCJ policy does not currently permit a non-TDCJ
employee to be present in the execution chamber during an execution procedure. The only persons allowed
inside the execution chamber during an execution are

49
the TDCJ Correctional Institutions Division Director
and the Huntsville Unit Warden. If Mr. Ramirez adds
his spiritual advisor to his execution witness list,
TDCJ will permit his spiritual advisor to observe the
execution from the witness room. If Mr. Ramirez would
like to visit with his spiritual advisor prior to the execution, the TDCJ will allow for visitation to take
place at the Huntsville Unit beginning at 3:00 p.m.
and ending no later than 4:00 p.m. on the day of the
execution.
Amy Lee
Project Coordinator
Office of the General Counsel – TDCJ
The information contained in this email and any attachments is intended for the exclusive use of the addressee(s) and may contain confidential, privileged, or
proprietary information. Any other use of these materials is strictly prohibited. This email shall not be forwarded outside the Texas Department of Criminal
Justice, Office of the General Counsel, without the permission of the original sender If you have received this
material in error, please notify me immediately by telephone and destroy all electronic, paper, or other versions.

50
EXHIBIT 4

51

52

53

54

55

56
EXHIBIT 5
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
JOHN HENRY RAMIREZ, §
Plaintiff,
§
§
vs.
§
BRYAN COLLIER,
§
Executive Director, Texas
§
Department of Criminal
§
Justice, Huntsville, Texas,
§
LORIE DAVIS, Director,
§
Texas Department of
§
Criminal Justice,
§
Correctional Institutions
Division, Huntsville, Texas, §
§
BILLY LEWIS, Warden,
§
Texas Department of
Criminal Justice, Huntsville, §
§
Unit, Huntsville, Texas,
§
Defendants.

No. 2:20-cv-205
This is a Capital
Case.
Mr. Ramirez is
scheduled to be
executed on
September 9, 2020.

RELATED CASE: Civil Action No. 2:12-CV-410;
The Honorable Judge v. Nelva Gonzalez Ramos
COMPLAINT PURSUANT TO 42 U.S.C. § 1983
Eric J. Allen
Seth Kretzer
ALLEN LAW OFFICES
LAW OFFICE OF
4200 Regent Street; Suite 200
SETH KRETZER
Columbus, Ohio 43219
440 Louisiana; Suite 1440
tel. (614) 443-4840
Houston, Texas 77002
eric@eallenlaw.com
Tel. (713) 775-3050
seth@kretzerfirm.com
Appointed Counsel for John Henry Ramirez, Plaintiff

57
INTRODUCTION
1. On September 9, 2020, Plaintiff John Henry
Ramirez is scheduled to be executed by lethal injection.
2. For approximately four years, Pastor Dana
Moore has ministered to Plaintiff Ramirez. Pastor
Moore is an ordained Christian minister. He is the
minister at Second Baptist Church in Corpus Christi,
Texas.
3. Plaintiff Ramirez wants Pastor Moore to be
present in the execution chamber before and during
his execution and has submitted grievance forms to
posit this request.
4. According to its stated, recently amended policy regarding the presence of spiritual advisors in the
execution chamber, the Texas Department of Criminal
Justice (“TDCJ”) intends to deny Plaintiff Ramirez’s
request to have a chaplain present in the execution
chamber at his execution. The execution violates the
Free Exercise and Establishment Clauses of the First
Amendment to the United States Constitution and
substantially burdens the exercise of his religious beliefs protected by the Religious Land Use and Institutionalized Persons Act of 2000 (“RLUIPA”), 42 U.S.C.
§ 2000cc et seq.
5. Plaintiff Ramirez respectfully asks this Court
to provide preliminary and permanent injunctive relief, barring TDCJ from executing Mr. Ramirez until
that execution comports with the First Amendment
and RLUIPA.

58
JURISDICTION
6. This Court has jurisdiction under 28 U.S.C.
§§ 1331, 1343, 1651, 2201, and 2202, and under 42
U.S.C. § 1983.
VENUE
7. Venue is proper under 28 U.S.C. § 1391 because Defendants Collier, Davis, and Jones maintain
offices in Huntsville, Texas.
8. Defendants are being sued in their official capacities.
9. Venue is also proper because Plaintiff Ramirez’s
execution will occur in Huntsville, Texas.
PARTIES
10. Plaintiff John Henry Ramirez is incarcerated
under a sentence of death at the Polunsky Unit of
TCDJ in Livingston, Texas. He is scheduled to be executed on September 9, 2020.
11. Defendant Bryan Collier is the Executive Director of TDCJ. He is being sued in his official capacity.
12. Defendant Lorie Davis is the Director of
the Correctional Institutions Division of TDCJ. She
is being sued in her official capacity. Ms. Davis is the
individual the trial court ordered to carry out the execution.
13. Defendant Billy Lewis is the Senior Warden
of the Huntsville Unit, which is the unit where

59
executions take place. He is being sued in his official
capacity. Because Mr. Lewis is the Warden of the
Huntsville Unit, he supervises executions in Texas.
PROCEDURAL HISTORY
14. Plaintiff Ramirez was indicted for capital
murder, convicted, and sentenced to death. The Texas
Court of Criminal Appeals affirmed the conviction and
sentence on direct appeal. Ramirez v. State, No. AP76,100 (Tex. Crim. App., March 16, 2011). A state writ
was filed, a hearing was held, and the TCCA denied relief. Ex parte Ramirez, No. WR-72,735-03 (Tex. Crim.
App., October 10, 2012).
15. A federal writ was timely filed, and the district court denied relief and a certificate of appealability. Ramirez v. Stephens, No. 2-12-CV-410 (S.D. Tex.,
June 10, 2015).
16. Plaintiff Ramirez filed a timely notice of appeal to the United States Court of Appeals for the Fifth
Circuit. That court denied Mr. Ramirez’s request for a
certificate of appealability on February 4, 2016. Mr.
Ramirez then requested a writ of certiorari from the
Supreme Court on May 4, 2016. It denied that request
on October 3, 2016.
17. The State of Texas set an execution date on
February 2, 2017.
18. On January 27, 2017, Plaintiff Ramirez
moved to substitute counsel and stay the execution
date. This Court granted Mr. Ramirez’s motion on

60
January 31, 2017. Mr. Ramirez requested counsel and
was given a briefing schedule on February 12, 2018. On
August 20, 2018, Mr. Ramirez filed a motion for relief
from judgment in the United States District Court.
19. The District Court denied this motion on
January 3, 2019. Plaintiff Ramirez timely filed a notice
of appeal to the Fifth Circuit. The Fifth Circuit denied
the request on June 26, 2019. Mr. Ramirez requested
and was granted an extension to file a petition for
a writ of certiorari no later than October 24, 2019.
That request was granted. But the Court denied Mr.
Ramirez’s request to grant certiorari.
20. The State of Texas subsequently set an execution date of September 9, 2020.
FACTUAL BACKGROUND
21. On April 2, 2019, TDCJ adopted a revised execution procedure prohibiting any religious or spiritual advisors from entering the execution chamber
at the time of the execution: “TDCJ Chaplains and
Ministers/Spiritual Advisors designated by the offender may observe the execution only from the witness rooms.” Ex. 1 at 8.
22. The previous execution policy had allowed
TDCJ-approved chaplains in the execution chamber,
consistent with longstanding tradition in Texas and
nationwide. The amendment appears to be in response
to the Supreme Court’s order staying an execution in
Murphy v. Collier, 139 S. Ct. 1475 (2019). In Murphy,

61
the Supreme Court halted an execution after finding
the TDCJ policy discriminate by denomination. In response, TDCJ changed its stated policy, not to approve
spiritual advisors of all faiths but to bar all spiritual
advisors.
23. Since approximately 2016, Plaintiff Ramirez
has received religious counseling and spiritual advice
from his spiritual advisor, Pastor Dana Moore. Mr.
Ramirez wants Pastor Moore to be present at the time
of his execution to pray with him and provide spiritual
comfort and guidance in his final moments. Pastor
Moore is willing to be in the execution chamber with
Plaintiff Ramirez when he is executed.
24. When Plaintiff Ramirez is executed, Pastor
Moore will pray with him. Pastor Moore need not touch
Mr. Ramirez at any time in the execution chamber.
25. TDCJ previously cleared Pastor Moore to be
in its execution chamber when another condemned
prisoner, Joseph Christopher Garcia, was executed in
December 2018.
26. Pastor Moore is willing to undergo additional
security screening, if necessary, in order to be present
in the execution chamber.
27. On July 13, 2020, undersigned counsel contacted Kristen Worman, General Counsel of TDCJ,
through email. That email inquired about whether Ms.
Worman and TDCJ had made a decision regarding the
presence of Plaintiff Ramirez’s minister in the execution chamber. Ex. 2.

62
28. On July 31, 2020, undersigned counsel followed up on his previous email. Through follow-up
email, counsel informed Ms. Worman that Plaintiff
Ramirez requested the presence of his Christian chaplain, Pastor Dana Moore and that Pastor Moore has
ministered to Mr. Ramirez for approximately four years.
The email informed Ms. Worman that TDCJ previously
allowed Pastor Moore to be present in the death chamber for another condemned prisoner, Joseph Garcia. Finally, counsel informed Ms. Worman that Pastor Moore
is willing to undergo additional security screening if
necessary to enter the death chamber. Ex. 3.
29. At the time of filing, General Counsel Worman had not responded to undersigned counsel’s
emails.
30. Plaintiff Ramirez submitted a grievance to
TDCJ on or about July 15, 2020. In the grievance, he
requested that TDCJ allow Pastor Moore to be present
in the execution chamber. TDCJ had not processed the
grievance at the time of filing. It eventually should be
returned to Plaintiff Ramirez with a response. Until
then, Mr. Ramirez has no copy to present as an exhibit.
If TDCJ responds, Mr. Ramirez can supplement this
pleading.
31. Plaintiff Ramirez also submitted an I-60 Offender Request to Official on or about August 7, 2020.
He directed this request to the Warden of the Polunsky
Unit. In that form, Mr. Ramirez again requested the
presence of Pastor Moore in the execution chamber.
The Warden has not responded to Mr. Ramirez’s

63
request. If he does, Mr. Ramirez can supplement this
pleading.
CLAIMS FOR RELIEF
32. Plaintiff Ramirez re-alleges and incorporates
by reference and the allegations contained in the previous paragraphs of this Complaint.
CLAIM ONE: FIRST AMENDMENT
ESTABLISHMENT CLAUSE
33. The First Amendment to the United States
Constitution commands that “Congress shall make no
law respecting an establishment of religion.” U.S. Const.,
amend. I. This command also is binding on the states.
See Cantwell v. Connecticut, 310 U.S. 296, 303 (1940).
34. The Establishment Clause also forbids governmental entities from passing laws that prefer one
religion over another, and it also forbids them from
demonstrating hostility toward a religion. See Larson
v. Valente, 456 U.S. 228, 246 (1982); Zorach v. Clauson,
343 U.S. 306, 313-15 (1952); Everson v. Bd. of Ed. of
Ewing Twp., 330 U.S. 1, 15 (1947) (“Neither a State nor
the Federal Government . . . can force nor influence a
person to go to or to remain away from church against
his will or force him to profess a belief or disbelief in
any religion.”)
35. TDCJ’s amended policy precluding chaplains
and spiritual advisors from the execution chamber violates the Establishment Clause, because the policy

64
gives preference to non-religion while inhibiting the
practice of religion. See Comm. for Public Ed. & Religious Liberty v. Nyquist, 413 U.S. 756. 788 (1973)
(noting that neutrality toward religion forbids the government from inhibiting religion).
36. Laws or policies that are not neutral between
religion and non-religion are inherently suspect. See
Larson, 456 U.S. at 246. These types of laws or policies
are upheld only if they survive strict scrutiny. And
strict scrutiny requires the law or policy to be narrowly
tailored to achieve a compelling interest. Id. at 246-47.
37. In Murphy v. Collier, 139 S. Ct. 1475 (2019),
the Supreme Court stayed an execution under TDCJ’s
previous execution policy. Under that policy, TDCJ followed a procedure to approve chaplains to be present
in the execution chamber if they were not deemed a
security threat. The Court stayed Murphy’s execution,
determining that the policy discriminated based on religious denomination. Afterward, TDCJ did not create
a policy that applied the same clearance rules to all
spiritual advisors. Instead, it chose to bar all spiritual
advisors from the execution chambers. Ex. 1 at 8.
38. This amended protocol denying all spiritual
advisors favors nonreligious prisoners who do not want
or require spiritual advisors present in the chamber at
their executions.
39. The Supreme Court previously has stayed an
execution under TDCJ’s current execution policy. In
Gutierrez v. Saenz, 590 U.S. ___ (2020), Gutierrez attacked TDCJ policy of not allowing any spiritual

65
advisors into the execution chamber. He challenged
that policy on First Amendment and RLUIPA grounds.
The Court stayed the execution “pending the disposition of his writ of certiorari” and ordered the district
court to promptly conduct fact finding on “whether serious security problems” would result from allowing a
spiritual advisor of the prisoner’s choice in the execution chamber.
40. Plaintiff Ramirez raises the same challenge
to the execution protocol that Mr. Gutierrez did. Because the United States Supreme Court stayed Mr.
Gutierrez's execution and ordered the district court to
conduct further fact-finding about his challenge to the
execution protocol, this Court must grant the injunctive relief Plaintiff Ramirez seeks.
41. TDCJ’s intent to deny Mr. Ramirez access
spiritual counseling during the moments leading up to
and including his execution cannot be justified by a citation to security concerns. Any argument that security concerns justify such a burden on Mr. Ramirez’s
religious observance is belied by the fact that TDCJ
has previously allowed Mr. Ramirez’s spiritual advisor—Pastor Moore--to be in the execution chamber
during the execution of another prisoner, Joseph Garcia, in December 2018. Furthermore, TDCJ cannot
demonstrate that its current security and screening
protocols are inadequate, or that it could not address
security concerns with further screening measures, to
which Pastor Moore has indicated he is willing to submit.

66
CLAIM TWO: FIRST AMENDMENT
FREE EXERCISE OF RELIGION
42. The First Amendment also requires that
“Congress shall make no law . . . prohibiting the free
exercise of ” religion. U.S. Const., amend. I. Like the
Establishment Clause, the Free Exercise Clause
is binding on the states. See Cantwell, 310 U.S. at
303.
43. TDCJ’s policy burdens Plaintiff Ramirez’s
free exercise of his Christian faith in the moments just
prior to and including his execution.
44. When a state hinders a prisoner’s ability to
freely exercise his religion, reviewing courts must determine whether the law or policy is neutral and generally applicable. Church of the Lukumi Balbao Aye,
Inc. v. Hialeah, 508 U.S. 520, 531 (1993). If it is neutral and generally applicable, it can have an “incidental effect of burdening a particular religious
practice.” Ibid. If it is not neutral and generally applicable, it must show a “compelling governmental
interest” that is “narrowly tailored to advance that interest.” Ibid.
45. Here, TDCJ’s policy is not neutral. It is hostile toward religion, favoring non-religious prisoners
over religious prisoners. If Plaintiff Ramirez was nonreligious, TDCJ would grant his request to not have a
religious advisor in the execution chamber. And no
compelling governmental interest justifies the exclusion of Mr. Ramirez’s spiritual advisor from the execution chamber, as demonstrated by the fact that TDCJ

67
previously allowed Pastor Moore into the chamber during Joseph Garcia’s execution.
46. Any argument that security concerns constitute a “compelling governmental interest” necessitating the exclusion of Mr. Ramirez’s spiritual advisor
from the execution chamber withers when subjected to
strict scrutiny, as the Constitution requires. This is especially true in Plaintiff Ramirez’s case. Here security
concerns are less than compelling in light of the fact
that in 2018, TDCJ allowed Pastor Moore to be present
the execution chamber during the execution of Joseph
Garcia’s execution. TDCJ also has previously allowed
prison chaplains who have served as spiritual advisors
to be present in the chamber during executions. See
Murphy, 139 S. Ct. at 1475.
47. For these reasons, TDCJ’s amended policy it
violates the First Amendment’s Free Exercise Clause
cannot survive strict scrutiny.
CLAIM THREE: RLUIPA
48. If this Court finds TDCJ’s policy does not violate Plaintiff Ramirez’s First Amendment rights, it
should rule that the policy violates RLUIPA.
49. Separate and apart from the First Amendment, the Religion Land Use protects the rights of
those who are incarcerated to worship as they please.
does not follow First Amendment caselaw. Instead of
referring to the First Amendment, the RLUIPA it defines the “exercise of religion” to include “any exercise

68
of religion, whether or not compelled by, or central to,
a system of religious belief.” Burwell v. Hobby Lobby
Stores, 573 U.S. 682, 696 (quoting 42 U.S.C. § 2000cc5(7)(A)).
50. Even if TDCJ’s amended policy does not violate the First Amendment, it violates RLUIPA because
it burdens Mr. Ramirez’s right to religious worship in
the final moments leading up to and including his execution. Preventing Plaintiff Ramirez from religious
worship with a chaplain at the end of his life and including the moment of his death substantially burdens
his practice of religion. See, e.g., Holt v. Hobbs, 135 S.
Ct. 853, 862 (2015) (determining that where a prisoner
shows the exercise of religion “grounded in a sincerely
held religious belief,” enforced prohibition “substantially burdens his religious exercise”).
51. TDCJ has not employed the least restrictive means to further a compelling interest. TDCJ
has the burden to show this defense. See id. at 859. In
Gutierrez, the Supreme Court remanded for fact finding about the security issues of allowing a spiritual advisor in the execution chamber. This directive requires
TDCJ to demonstrate that it has a “serious security
problem” if the advisors are present. Here, TDCJ has
allowed Plaintiff Ramirez’s spiritual advisor into the
execution chamber recently. Because it did so, TDCJ
cannot plausibly claim to have such a compelling security interest when they remove a security-cleared spiritual advisor in this manner. In either event, fact
finding is occurring at the Supreme Court’s direction.
This Court should stay Mr. Ramirez’s execution and

69
allow this fact finding to occur. Then it can factor Mr.
Ramirez’s potentially unique circumstances into its
finding.
52. TDCJ’s amended policy places a substantial
burden on Plaintiff Ramirez’s practice of a sincerely
held religious belief at the moment of his death, when
religious observance and spiritual guidance are most
critical; therefore, it violates his rights under the
RLUIPA.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff John Henry Ramirez
prays that this Court provide relief as follows:
1. A declaratory judgment that TDCJ’s amended
policy violates Mr. Ramirez’s First Amendment rights
under the Establishment Clause;
2. A declaratory judgment that TDCJ’s amended
policy violates Mr. Ramirez’s First Amendment rights
under the Free Exercise Clause;
3. A declaratory judgment that TDCJ’s amended
policy violates Mr. Ramirez’s rights under RLUIPA;
and
4. A preliminary and permanent injunction prohibiting Defendants from executing Mr. Ramirez

70
until they can do so in a way that does not violate his
rights.
/s/ Seth Kretzer
Seth Kretzer
seth@kretzerfirm.com
440 Louisiana, Suite 1440
(713) 775-3050 (Direct)
(713) 929-2019 (Fax)

VERIFICATION
I, Seth Kretzer, attorney for the Plaintiff in the
above-titled action, state that to the best of my knowledge and belief, the facts set forth in this Complaint
are true.
Executed on August 7, 2020.
/s/ Seth Kretzer
Seth Kretzer
[Certificate Of Service Omitted]

71
EXHIBIT 6
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
JOHN HENRY RAMIREZ, *
Petitioner,
*
*Civil Action No.
v.
*2:12-CV-410
LORIE DAVIS, Director,
*
Texas Department
The Honorable Judge
*Nelva Gonzalez Ramos
of Corrections,
Correctional Institutions *
*
Respondent.
CAPITAL CASE
PENDING EXECUTION DATE:
September 9, 2020
ADVISORY TO THE COURT
COMES NOW, Petitioner Ramirez, and files this
Advisory concerning developments in state court pertaining to his scheduled execution.
On August 11, 2020, Ramirez’s counsel and AAG
Morris reached agreement to 1) file an agreed motion
to withdraw execution date and recall death warrant
in the 94th Judicial District of Nueces County in exchange for 2) Ramirez filing a motion to non-suit without prejudice his recently filed Section 1983 suit in this
Court; 2:20-cv-00205 Ramirez v. Collier.
The Agreed Motion is attached as exhibit 1; the
proposed order is attached as Exhibit 2.

72
Judge Galvan has set this agreed motion for hearing on Friday, August 14 at 10:00 a.m. In the COVID
paradigm, this hearing will be conducted on Zoom and
it would not be practicable to transport Ramirez. See
Exhibit 3.
A court-reporter has been requested along with
immediate transcription.
If the ruling is adverse, the undersigned will file
mandamus with the Court of Criminal Appeals (likely
also to be filed Friday) and will submit a copy to this
Court also by way of Advisory.
/s/ Seth Kretzer
Seth Kretzer
seth@kretzerfirm.com
TBN: 240437694
440 Louisiana, Suite 1440
Ph: 713 775 3050
Fax: 713 929 2019
[Certificate Of Service Omitted]

73
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN HENRY RAMIREZ,
Petitioner,
v.
BRIAN COLLIER, et al.
Respondent.

*
*

Civil Action No.
4:21-cv-2609

*
*

CAPITAL CASE
PENDING EXECUTION DATE:
September 8, 2021
MOTION FOR STAY OF EXECUTION PENDING
DISPOSITION OF PLAINTIFF’S COMPLAINT
FILED PURSUANT TO 42 U.S.C. § 1983
(Filed Aug. 18, 2021)
Plaintiff Ramirez respectfully requests that this
Court grant him a stay of execution pending the resolution of his complaint filed pursuant to 42 U.S.C.
§ 1983. Defendants have denied Ramirez’s request to
have his pastor, Dana Moore, lay his hands on him as
he is executed, see Exhibit 2 to First Amended Complaint, even though Pastor Moore will be allowed in the
execution chamber under the policy revised by the
TDCJ in response to the Supreme Court’s opinion in
Murphy v. Collier, 139 S. Ct. 1475 (2019).

74
I.

LEGAL STANDARDS

“[A] stay of execution is an equitable remedy, and
an inmate is not entitled to a stay of execution as a
matter of course.” Hill v. McDonough, 547 U.S. 573
(2006). In deciding whether to issue a stay of execution,
a court must consider: (1) whether the stay applicant
has made a strong showing that he is likely to succeed
on the merits; (2) whether the applicant will be irreparably injured absent a stay; (3) whether issuance of
the stay will substantially injure the other party interested in the proceeding; and (4) where the public interest lies. See Nken v. Holder, 556 U.S. 418 (2009). A
motion for a stay, however, depends on the operation of
equity. See Hill, 547 U.S. at 584, 126 S. Ct. at 2104. In
the balance of equity, “dilatory behavior” may weigh
heavily against a plaintiff. Ramirez v. McCraw, 715 F.
App’x 347, 351 (5th Cir. 2017).
In a capital case, the likelihood of success factor is
satisfied when the plaintiff makes a “substantial showing of the denial of a federal right.” Barefoot v. Estelle,
463 U.S. 880, 893 (1983) (citation and quotation marks
omitted). That showing is made if the plaintiff shows
that the “issues are debatable among jurists of reason;
that a court could resolve the issues in a different
manner; or that the questions are adequate to deserve encouragement to proceed further.” Id. at 893 n.4
(citation and quotation marks omitted).

75
II.
A.

ARGUMENT

Ramirez Shows Irreparable Injury

Ramirez will be irreparably injured if he is executed before this case can be litigated. As the Fifth Circuit has recognized, “In a capital case, the possibility
of irreparable injury weighs heavily in the movant’s
favor.” O’Bryan v. Estelle, 691 F.2d 706, 708 (5th Cir.
1982) (per curiam). In a capital case, the movant “must
present a substantial case on the merits when a serious legal question is involved and show that the balance of equities weighs heavily in favor of granting the
stay.” Celestine v. Butler, 823 F.2d 74, 77 (5th Cir. 1987)
(per curiam).
B. Ramirez Has Assertively Litigated
His Claim
Ramirez first filed a 1983 “spiritual advisor’ case
in August 2020, when his execution was scheduled for
September 2020. This case was assigned Southern District cause number 2:20-cv-205. Thereafter, the State
and Ramirez reached a reciprocal agreement by which
the former agreed to withdraw the death warrant and
the latter agreed to nonsuit his section 1983 case along
with a motion for funding under 18 U.S.C. § 3599(f ).
This agreement was made known to the presiding federal district court in a public filing on August 12, 2020:
On August 11, 2020, Ramirez’s counsel and
AAG Morris reached agreement to 1) file an
agreed motion to withdraw execution date
and recall death warrant in the 94th Judicial

76
District of Nueces County in exchange for 2)
Ramirez filing a motion to non-suit without
prejudice his recently filed Section 1983 suit
in this Court; 2:20-cv-00205
Ramirez v. Collier.
See Amended Petition, Exhibit 6.
Ramirez cannot be said to be dilatory when he
filed a section 1983 case, 2:20-cv-205, thirteen months
before the current execution date and only non-suited
that case once he made an agreement with the State to
do so in exchange for its agreement to withdraw the
death warrant.
Even looking only at the window in which the section 1983 case has been on file in anticipation of the
September 2021 date, it must be said that Ramirez has
been trying to push fast-forward while the State is trying to slow things down. Counsel for the Attorney General’s Office contacted Ramirez’s counsel promptly
when the new section 1983 case was filed August 10.
Yet the attorney refused to accept service on behalf of
her clients, or even enter an appearance in the case sub
judice. Below is Ms. O’Leary’s first email dated August
12, 2021:

O’Leary, Leah <Leah.OLeary@oag.texas.gov
>
Thu 8/12/2021 10:18 AM
To: Seth Kretzer

77
Cc: Wren, Jennifer <Jennifer.Morris@oag.texas.gov>;
Schmidt, Jenna <Jenna.Schmidt@
I don’t think that’s necessary. You will receive signed
waivers of service for each defendant for defendants’
side of the agreement. An email confirmation from you
for plaintiff ’s part of the agreement should be sufficient. Plaintiff is merely agreeing to what the rules
already entitle Defendants-60 days to answer or otherwise engage in litigation (other than the stay issue)
when they waive service. Thank you.
Leah O’Leary
Deputy Chief-Law Enforcement Defense Division
Office of the Attorney General of Texas
Leah.Oleary@oag.texas.gov
Phone: 512 936 1292
[SEAL]

From: Seth Kretzer <Seth@kretzerfirm.com>
Sent: Thursday, August 12, 2021 10:11 AM
To: O’Leary, Leah <Leah.OLeary@oag.texas.gov>
Cc: Wren, Jennifer <Jennifer.Morris@oag.texas.gov>;
Schmidt, Jenna <Jenna.Schmidt@oag.texas.gov>
Subject: Re: Ramirez v. Collier-4:21-cv-02609
Leah:
Once you confirm with your clients, should be file a
Rule 11 agreement with Judge Hittner?
Thanks!
Seth

78
Here is Ms. O’Leary’s second email dated August 17:
O’Leary, Leah <Leah.OLeary@oag.texas.gov
>
Tue 8/17/2021 9:14 AM
To: Seth Kretzer; Wren, Jennifer <Jennifer.Morris@
oag.texas.gov>
Thank you Seth. We are unable to appear on behalf of
any named defendant until (1) you serve requests for
waivers of service for each named defendant, and (2)
you agree in an email to the conditions we previously
discussed in exchange for our agreement to waiver service (see August 12th email exchange). As of right now,
my office does not have authority to waive service on
behalf of any of the officials you have named as defendants.
Thank you.
Leah O’Leary
Deputy Chief-Law Enforcement Defense Division
Office of the Attorney General of Texas
Leah.Oleary@oag.texas.gov
Phone: 512 936 1292
[SEAL]
Another email from Ms. O’Leary arrived later August
17:

O’Leary, Leah <Leah.OLeary@oag.texas.gov
>
Tue 8/17/2021 3:57 PM

79
To: Seth Kretzer; Wren, Jennifer <Jennifer.Morris@
oag.texas.gov>
Cc: Schmidt, Jenna <Jenna.Schmidt@oag.texas.gov>
Seth:
Your request asks that Defendants answer the complaint by August 20th. As I explained on the phone and
in my previous emails, Defendants only benefit to
waiving service is to get 60 days before we have to answer or otherwise respond to plaintiff ’s complaint. So
we will not agree to any shorter time line. The proposed “notice” that you sent for me to sign states that
we would have the full 60 days. So I am not clear what
you are requesting—an expedited answer by August
20th or 60 days out.
Regardless, we will comply with Judge Hittner’s scheduling order, as it relates only to the stay briefing.
Should the litigation proceed beyond the stay briefing,
defendants agreement to waive service will set out answer or responsive pleading deadline 60 days from today.
Thank you.
Leah O’Leary
Deputy Chief-Law Enforcement Defense Division
Office of the Attorney General of Texas
Leah.Oleary@oag.texas.gov
Phone: 512-936-1292
Indicating, “We are unable to appear on behalf of
any named defendant,” Ms. O’Leary, Deputy Chief with
the Attorney’s General’s Office, indicates she speaks

80
for the three defendants and her clients seek the full
sixty-days to respond to Ramirez’s suit, by which time
he will be executed unless this Court grants the instant motion for stay.
A few hours later yesterday, however, the Assistant Attorney General who has long handled Ramirez’s
habeas proceedings, Ms. Jennifer Morris, filed a notice
of appearance for all the Defendants- which are referred to below in the plural as “Respondents”:
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN HENRY RAMIREZ, §
Petitioner,
§ Civil Action No.
4:21-cv-2609
v.
§
BRIAN COLLIER, et al. §
§
Respondent.
RESPONDENT’S NOTICE OF
APPEARANCE OF COUNSEL
This is a habeas corpus case brought by a
Texas state prisoner, John Henry Ramirez,
under 28 U.S.C. §§ 2241, 2254. The undersigned attorney hereby enters this appearance of counsel on behalf of Respondents and
respectfully requests that a copy of all future
pleadings, orders, and other correspondence
be served at the address below.
Meanwhile, Ramirez has pressed steadily ahead
on his claim during the past week since filing his

81
August 10 section 1983 suit. He has therefore demonstrated he has not been dilatory.
C. Issuance of a Stay Will Not be Detrimental to the State
Ramirez’s execution was stayed by Judge Ramos
in 2017, and then again incident to the State’s own
agreement in 2020 so that section 1983 doctrine in the
spiritual advisory context could develop. Therefore,
one may conclude that a stay in 2021 will not be detrimental to the State when it agreed to one in 2020.
D.

Analysis

The State will contend that Ramirez cannot
demonstrate likelihood of success on the merits of his
spiritual advisor claim. As an initial matter, one should
note that the State made the same contention in Murphy, which resulted in an opinion by Justice Kavanaugh against TDCJ’s blatantly unconstitutional
policy in force at the time.
Further, given that the Rule 12(b)(6) standard precludes dismissal if the plaintiff presents a facially
plausible claim, the Barefoot standard is satisfied
when the complaint survives a motion to dismiss.
Where that standard is met, courts have granted stays
of execution. See, e.g., Bartee v. Reed, No. SA-12-CA420-FB, Order Granting Motion for Stay of Execution
(W.D. Tex. May 2, 2012) (granting stay in § 1983 action alleging unconstitutional denial of access to DNA

82
testing); see also Skinner v. Switzer, 559 U.S. 1033
(2010) (granting stay pending disposition of petition
for writ of certiorari). Had the State taken up Ramirez’s
entreaty earlier in August, waived service, filed an answer, and commenced litigation immediately, the State
could have already filed a 12(b)(6) motion.
Finally, the public interest is “in having a just
judgment,” Arizona v. Washington, 434 U.S. 497, 512
(1978), not simply in having an execution.
III.

CONCLUSION

There is a likelihood that this Court will find that
Ramirez’s execution on September 9, 2021, pursuant
to Defendants’ policy, would violate both the First
Amendment and the RLUIPA. If a stay is not granted,
Ramirez will suffer an irreparable injury. He will be
executed while being denied his right to exercise his
religion. This injury outweighs the costs, if any, incurred by the Defendants if they are forced to reschedule Ramirez’s execution for a later date, just as they
did last year. Accordingly, Ramirez is entitled to a stay
of execution so this Court can consider his complaint
filed pursuant to 42 U.S.C. § 1983; Ramirez is also entitled to a stay until the Defendants are able to and
agree to carry out his execution in a manner consistent
with the U.S. Constitution and federal law.

83
Respectfully submitted this August 18, 2021,
/s/ Seth Kretzer
Seth Kretzer
seth@kretzerfirm.com
TBN: 24043764
9119 South Gessner, Suite 105
Houston, Texas 77054
Ph. 713 775 3050
Fax: 713 929 2019

CERTIFICATE OF SERVICE
I certify that I have served the foregoing Motion
via the Court’s CM/ECF system on Counsel for Respondent, Ms. Leah O’Leary and Ms. Jennifer Morris,
on this the 18th day of August 2021.
/s/ Seth Kretzer
Seth Kretzer

CERTIFICATE OF CONFERENCE
Counsel for Attorney General have indicated they
oppose stay of Mr. Ramirez’s execution on the grounds
sought.
/s/ Seth Kretzer
Seth Kretzer

84
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN HENRY RAMIREZ, §
Plaintiff,
§
§
vs.
§
BRYAN COLLIER,
§
Executive Director, Texas
§
Department of Criminal
§
Justice, Huntsville, Texas,
§
§
BOBBY LUMPKIN,
§
Director, Texas Department
§
of Criminal Justice,
§
Correctional Institutions
Division, Huntsville, Texas, §
§
DENNIS CROWLEY,
§
Warden, Texas Department
§
of Criminal Justice, Huntsville,
§
Unit, Huntsville, Texas,
§
Defendants.
§

No. 4:21-cv-2609
This is a Capital
Case.
Mr. Ramirez is
scheduled to be
executed on
September 8, 2021.

SECOND AMENDED COMPLAINT
PURSUANT TO 42 U.S.C. § 1983
(Filed Aug. 22, 2021)
Seth Kretzer
LAW OFFICE OF SETH KRETZER
9119 South Gessner, Suite 105
Houston, Texas 77074
Tel. (713) 775-3050
seth@kretzerfirm.com
Counsel for John Henry Ramirez, Plaintiff

85
INTRODUCTION
1.

Plaintiff John Henry Ramirez is a devout Christian. He is also incarcerated at the Polunsky Unit
of the Texas Department of Criminal Justice
(“TDCJ”) under a sentence of death.

2.

The State of Texas intends to execute Mr. Ramirez
by lethal injection on September 8, 2021, at the
Walls Unit in Huntsville, Texas, under conditions
that violate the First Amendment’s Free Exercise
Clause and substantially burden the exercise of
his religion in violation of the Religious Land
Use and Institutionalized Persons Act of 2000
(“RLUIPA”), 42 U.S.C. § 2000cc, et seq.

3.

Through the requisite TDCJ administrative channels, Mr. Ramirez has requested the presence of
his spiritual advisor, Pastor Dr. Dana Moore, in the
execution chamber before and during his execution, and he has requested that Pastor More lay
his hands upon him at the time of his death and
pray verbally.

4.

The verbalization of prayer is a long-held and
practiced tradition in Christianity in general. The
vocalization of Scripture is also specific to the
Protestant belief system to which Mr. Ramirez adheres.

5.

Mr. Ramirez’s request was denied. He has properly
exhausted all administrative remedies available
to him under institutional policy.

6.

On August 19, 2021, General Counsel for TDCJ,
Ms. Kristen Worman, delivered a letter stating
that the approved spiritual advisor will be prohibited from touching Ramirez or vocalizing during

86
the execution. That means that Pastor Moore will
not be able to pray aloud. Pastor Moore will not be
able to read or quote Scripture verbally. Because
of this spiritual “gag order” that TDCJ is placing
on Pastor Moore’s voice, Ramirez will not be able
to hear the liturgy- or the Word- or the prayers- of
his spiritual minister as he dies and departs this
world.
7.

In other words, TDCJ is imposing an unholy Trinity of Constitutional violations; 1) vocal prayer by
a spiritual minister is prohibited as a member of
his Church and his flock is dying; 2) a pastor may
not read Scripture from the Bible aloud to his dying parishioner, and 3) Ramirez will not be able to
hear any of the spiritual words of comfort by his
Church and minister, or the Word of God, or the
Holy Scriptures, all banned by the Defendants.

8.

Relief is necessary to ensure that Mr. Ramirez is
executed only in a manner that does not substantially burden the exercise of his religious beliefs
and does not violate his rights under the Free Exercise Clause or RLUIPA.
JURISDICTION

9.

This Court has jurisdiction under 42 U.S.C.
§§ 2000cc-1, 28 U.S.C. §§ 1343, 1651, 2201, and
2202, and under 42 U.S.C. § 1983.
VENUE

10. Venue lies in this Court under 28 U.S.C. § 1391 because Defendants maintain offices in the Southern

87
District of Texas. Venue is also proper because the
execution will occur in this district.
PARTIES
11. Plaintiff John Henry Ramirez is incarcerated under a sentence of death at the Polunsky Unit of
TCDJ in Livingston, Texas. He is scheduled to be
executed September 8, 2021.
12. Defendant Bryan Collier is the Executive Director
of TDCJ. He is being sued in his official capacity.
13. Defendant Bobby Lumpkin is the director of the
Correctional Institutions Division of TDCJ. He is
being sued in his official capacity. Mr. Lumpkin is
the individual the trial court ordered to carry out
the execution.
14. Defendant Dennis Crowley is the senior warden of
the Huntsville Unit, which is the unit where executions take place. He is being sued in his official
capacity. Because Mr. Crowley is the warden of
the Huntsville Unit, he supervises executions in
Texas.
FACTUAL BACKGROUND
15. For approximately five years, since 2016, Pastor
Dr. Dana Moore has ministered to Plaintiff
Ramirez. Pastor Moore is an ordained minister
who leads a congregation of roughly 200 people at
Second Baptist Church in Corpus Christi, Texas.
See https://2bc.org/about-us/. Dr. Moore is a graduate of Baylor University (B.A. in religion and
history) and Southwestern Baptist Theological

88
Seminary (Masters of Divinity and Ph.D. in Old
Testament).
16. Pastor Moore and Plaintiff Ramirez have corresponded and visited over the years. Pastor Moore
has guided Mr. Ramirez in his practice of his religious faith. See Exhibit 2, Affidavit of Pastor
Moore. Ramirez is a member of Second Baptist
Church. See Sillman, Daniel, “Can This Texas Pastor Lay Hands on an Inmate During Execution,”
Christianity Today, (August 23, 2021) (online)
(https://www.christianitytoday.com/news/2021/august/
ramirez-execution-death-row-dana-moore-prayerhands-touch.html).
17. Until April 2019, and consistent with longstanding tradition nationwide, TDCJ allowed TDCJapproved chaplains in the execution chamber to
guide persons being executed into the afterlife according to their religious beliefs. Between 1982
and March 2019, Texas conducted 560 executions
pursuant to this policy.
18. In March 2019, TDCJ refused inmate Patrick Murphy’s request that his Buddhist spiritual advisor
accompany him in the chamber during the scheduled execution. See Murphy v. Collier, 139 S. Ct.
1475 (2019) (mem.). After TDCJ refused Murphy’s
request, Murphy filed a request for a stay of execution in the Supreme Court and sought to challenge TDCJ’s decision on equal protection and
First Amendment grounds. See id.
19. On March 28, 2019, the Supreme Court granted a
stay of execution and issued an order prohibiting
TDCJ from carrying out the execution “pending
the timely filing and disposition of a petition for a

89
writ of certiorari unless the State permits Murphy’s
Buddhist spiritual advisor or another Buddhist
reverend of the State’s choosing to accompany
Murphy in the execution chamber during the execution.” Murphy, 139 S. Ct. at 1475. Justice Kavanaugh wrote a concurring opinion in which he
expressed the view that “the Constitution prohibits [the] denominational discrimination” of the
then-existing TDCJ policy. Id. at 1475-76. Justice
Kavanaugh observed that a potential remedy for
this denominational discrimination would be to
ban all spiritual advisors of any denomination
from the chamber.
20. On April 2, 2019, TDCJ adopted another, revised
execution procedure to provide that “TDCJ Chaplains and Ministers/Spiritual Advisors designated
by the offender may observe the execution only
from the witness rooms.” Ex. 1, Tex. Dep’t Crim.
Just., Execution Procedure at 8 (Apr. 2019).
21. On April 21, 2021 TDCJ adopted a new protocol.
Under this new protocol, the condemned may be
accompanied into the execution chamber by their
personal religious advisor, who may minister to
the condemned prisoner during the execution.
TDCJ also requires that the advisors be verified
and pass a background check.
22. For the past five years, since approximately 2016,
Plaintiff Ramirez has received religious counseling and spiritual advice from his spiritual advisor,
Pastor Dana Moore. Mr. Ramirez has asked Pastor
Moore to be present at the time of his execution to
pray with him and provide spiritual comfort and
guidance in the final moments of his life. Pastor

90
Moore has agreed to accompany Mr. Ramirez in
the execution chamber when he is executed, to
pray with him, and to help guide him into the afterlife. Pastor Moore needs to lay his hands on Mr.
Ramirez in accordance with his and Mr. Ramirez’s
faith tradition. This belief is set forth in the affidavit of Pastor Moore. Ex. 2, Declaration of Pastor
Dana Moore.
23. Every minister of every faith in the world vocalizes his or her liturgy and prayers. But TDCJ has
apparently amended its policies so as to impose a
spiritual ‘gag order’ on religious advisors in the execution chamber.
24. The laying on of hands is a symbolic act in which
religious leaders place their hands on a person in
order to confer a spiritual blessing. This contact is
necessary to bless and guide Mr. Ramirez at the
moment of his death.
25. This practice has its basis in Christian scripture.
The Apostle Philip’s preaching in Samaria where
a mass of people “listened eagerly . . . believed . . .
[and] were baptized” (Acts 8:11, 12) Yet these new
converts did not “receive the Holy Spirit” until after “Peter and John” came to Samaria from Jerusalem and “laid their hands on them” (8:17).
Similarly, when Paul later baptized a group of
Ephesian disciples, it was not until he “had laid
his hands on them” that “the Holy Spirit came
upon them” (Paul 19:1–6).
26. Already, TDCJ has in place specific protocols to
take place prior to Pastor Moore’s entry into the
Walls Unit. On August 26, 2021, Pastor Moore is
scheduled to drive from his home in Corpus

91
Christi to Huntsville to receive a nebulous “spiritual advisor training” at an office maintained by
the Defendants at a shopping mall in that city.
27. On August 19, 2021, an attorney with the Texas
Attorney General’s Office who has not made an appearance in the case sub judice (Ms. Leah O’Leary)
sent an email to the undersigned counsel which
reads:
This email is to advise you that only Mr. Ramirez’s
spiritual advisor will be permitted to attend the
orientation. The orientation is not an open forum
and attorneys will not be permitted to attend.
Obviously, the undersigned was appointed to represent Ramirez, not Pastor Moore. But the State
has made its point clearly: the security around this
“orientation” is so strict that this citizen could not
be accompanied by a lawyer even if requested to
do so.
28. Pastor Moore will undergo a rigorous screening
process including being screened by a metal detector and having any items he carries with him
screened by an X-ray. He will be required to remove his shoes and belt for inspection. Pastor
Moore also is willing to undergo additional security screening, if necessary, in order to be present
in the execution chamber and to have physical
contact necessary to confer a spiritual blessing
and offer audible prayers that Mr. Ramirez will
hear, as Mr. Ramirez is executed.
29. On June 8, 2021, inquiry was made to Ms. Kristen
Worman, TDCJ General Counsel, through email
whether Ms. Worman and TDCJ had made a

92
decision regarding the presence of Ramirez’s minister in the execution chamber and direct personal
contact between the condemned and the pastor.
See Ex. 3, Email correspondence with Ms. Kristen
Worman, General Counsel for TDCJ.
30. On June 17, 2021, Ms. Worman responded via email, stating that, pursuant to TDCJ policy, Pastor
Moore would not be allowed to have direct, personal contact with Plaintiff Ramirez in the execution chamber. See Ex. 3.
31. Plaintiff Ramirez submitted an Offender Form I60 “Offender Request to Official” to TDCJ on or
about July 15, 2020. In the grievance, he requested
that TDCJ allow Pastor Moore to be present in the
execution chamber. He further requested that Pastor Moore be allowed to have direct, personal contact with him during the execution. See Ex. 4.
32. Mr. Ramirez’s grievance was denied, and he filed
an appeal of that denial. The appeal has yet to be
decided, as best as anyone can tell. See Ex. 4.
33. More recently, on August 19, 2021, Ms. Worman
sent a letter on official TDCJ letterhead. Pursuant
TDCJ policy, the approved spiritual advisor will
additionally be prohibited from vocalizing any audible spiritual prayers or scriptures during the execution. See Ex. 7.
PROCEDURAL HISTORY
34. John Henry Ramirez was convicted and sentenced
to death in 2008 for the 2004 killing of Pablo Castro in Nueces County, Texas. The Texas Court of
Criminal Appeals (“TCCA”) affirmed the conviction

93
and death sentence on direct appeal. Ramirez v.
State, No. AP-76,100 (Tex. Crim. App., March 16,
2011). In 2012, the TCCA denied state post-conviction relief, after evidentiary hearing and upon the
trial court’s report and recommendation. Ex parte
Ramirez, No. WR-72,735-03 (Tex. Crim. App., October 10, 2012). Mr. Ramirez timely filed a petition
for writ of habeas corpus in the federal district
court. The district court denied relief and a certificate of appealability. Ramirez v. Stephens, No. 212-CV-410 (S.D. Tex., June 10, 2015).
35. Mr. Ramirez filed a timely notice of appeal to the
United States Court of Appeals for the Fifth Circuit. That court denied a request for certificate of
appealability on February 4, 2016. The Supreme
Court denied a request for certiorari review on October 3, 2016.
36. The State of Texas set an execution date on February 2, 2017. On January 27, 2017, Mr. Ramirez
moved to substitute counsel and stay the execution date. This Court granted Mr. Ramirez’s motion on January 31, 2017. On August 20, 2018, Mr.
Ramirez filed a motion for relief from judgment in
the United States District Court. The Court denied this motion on January 3, 2019. Mr. Ramirez
appealed to the Fifth Circuit, which denied the request for a certificate of appealability on June 26,
2019. The Supreme Court again denied certiorari
review, on March 2, 2020, and it denied rehearing
on May 18, 2020.
37. The State of Texas set another execution date of
September 9, 2020. In August 2020, Mr. Ramirez
filed a ‘spiritual advisor’ claim under Section 1983.

94
This was assigned Southern District cause number 2:20-cv-205. A copy of this previous 1983 complaint is attached Exhibit 5.
38. Thereafter, Ramirez and the Texas Attorney General’s Office agreed to withdraw the death warrant
in exchange for Ramirez’s withdrawal of thenpending civil litigation.
39. More specifically, the Attorney General’s Office
and Ramirez reached bargain in which the state
agreed to withdraw the execution date in exchange for Ramirez’s agreement to non-suit without prejudice his section 1983 case and to dismiss
a funding request under 18 U.S.C. § 3599(f ).
40. The August 12, 2020 filing in the underlying habeas case is attached as Exhibit 6, and reads in
relevant part:
On August 11, 2020, Ramirez’s counsel and AAG
Morris reached agreement to 1) file an agreed motion to withdraw execution date and recall death
warrant in the 94th Judicial District of Nueces
County in exchange for 2) Ramirez filing a motion
to non-suit without prejudice his recently filed
Section 1983 suit in this Court; 2:20-cv-00205
Ramirez v. Collier.
41. On August 14, 2020, Nueces County District Court
Judge Bobby Galvan of the 94th Criminal District
Court withdrew the September execution date in
an order in accord with the joint motion to cancel
the execution. Subsequently, Ramirez withdrew
his funding motion and filed a motion to non-suit
with prejudice his matters pending in federal
court.

95
42. On February 3, 2021 the State moved to set a new
execution date, and on February 5, 2021, Judge
Galvan signed an order setting an execution date
for Mr. Ramirez of September 8, 2021.
43. As envisaged under the August 11, 2020 agreement, Ramirez filed a new funding request, and on
July 13, 2021, Judge Ramos granted in part this
motion for funding under 18 U.S.C. § 3599(f ).
44. Similarly, the current 1983 lawsuit is concordant
with the August 11, 2020 agreement that Ramirez
would not be prejudiced to resurrecting his federal
civil rights lawsuit on religious grounds.
CLAIMS FOR RELIEF
45. Mr. Ramirez re-alleges and incorporates by reference and the allegations contained in the previous
paragraphs of this Complaint.
CLAIM ONE: FIRST AMENDMENT
FREE EXERCISE OF RELIGION
46. The First Amendment requires that “Congress
shall make no law . . . prohibiting the free exercise
of ” religion. U.S. Const., amend. I. Like the Establishment Clause, the Free Exercise Clause is binding on the states. See Cantwell v. Connecticut, 310
U.S. 296, 303 (1940) (holding that the protections
of the Free Exercise Clause are incorporated by
the Fourteenth Amendment against the States).
47. According to its April 2021 revised protocol, TDCJ
no longer precludes TDCJ-approved spiritual advisors from entering the execution chamber. Further,

96
in spite of this protocol, which does not address
whether or not the spiritual advisor can have direct, personal contact with the condemned, Defendants have informed Mr. Ramirez that his
spiritual advisor will not be allowed to be present
at the moment of his execution and to confer a verbal spiritual blessing or consolation by prayer at
the moment of his death via the laying on of hands
and praying audibly. In fact, the TDCJ has not indicated it will accede to Mr. Ramirez’s request that
his requested spiritual advisor be allowed to be
present at all in the execution chamber.
48. Many Baptist ministers see the laying on of hands
as a vitally important affirmation by God’s people
of their calling. This laying on of hands at the time
of death is the affirmation of faith at the time between life and afterlife.
49. TDCJ s intent to deny Mr. Ramirez access spiritual counseling during the moments leading up to
and including his execution as well as the direct
personal contact and verbal audible praying violates his First Amendment rights under the Free
Exercise clause and cannot be justified by a vague
citation to illusory security concerns. Furthermore, TDCJ cannot demonstrate that its current
security and screening protocols are inadequate,
or that it could not address security concerns
with further screening measures, to which Pastor
Moore has indicated he is willing to submit.
50. TDCJ’s current policy with regard to the presence
of spiritual advisors in the execution chamber burdens Mr. Ramirez’s free exercise of his Christian
faith in the moments just prior to and including

97
his execution. It burdens his free exercise of faith
at his exact time of death, when most Christians
believe they will either ascend to heaven or descend to hell – in other words, when religious instruction and practice are most needed. See, e.g., 2
Timothy 1:6, “For this reason I remind you to kindle afresh the gift of God which is in you through
the laying on of my hands.” This is the most important at the moment of his death. To Christians,
the messages conveyed by God are known as the
Word. The Word is God. (See John 1:1 “In the beginning was the Word, and the Word was with God,
and the Word was God.” (King James).) The vocalization of prayers and exhortations are integral to
the Christian faith. (See, e.g., John 1:23 (“He [John
the Baptist] said, I am the voice of one crying in
the wilderness, Make straight the way of the Lord,
as said the prophet Esaias.” (King James).)
51. When a state hinders a prisoner’s ability to freely
exercise his religion, reviewing courts must determine whether the law or policy is neutral and generally applicable. Church of the Lukumi Balbao
Aye, Inc. v. Hialeah, 508 U.S. 520, 531 (1993). If it
is neutral and generally applicable, it can have
an “incidental effect of burdening a particular religious practice.” Ibid. If it is not neutral and
generally applicable, it must show a “compelling
governmental interest” that is “narrowly tailored
to advance that interest.” Ibid.
52. Here, TDCJ’s policy is not neutral. It is hostile toward religion, denying religious exercise at the
precise moment it is most needed: when someone
is transitioning from this life to the next. The policy is thus permissible only if it can survive strict

98
scrutiny, which it cannot. Any argument that security concerns constitute a “compelling governmental interest” necessitating the exclusion of Mr.
Ramirez’s spiritual advisor from the execution
chamber and preventing him from touching the
condemned or praying audibly withers when subjected to strict scrutiny, as the Constitution requires.
53. As a federal judge in this district recently noted,
when making fact-findings relevant to a recent
challenge to TDCJ’s previous execution policy excluding all religious advisors from the execution
chamber, “Speculative hypotheticals without evidentiary support do not create an unmanageable
security risk.” Gutierrez v. Saenz, No. 1:19-cv-00185
(S.D. Tex. Nov. 24,2020), ECF Doc. 124 at *29.
54. For these reasons, TDCJ’s amended policy precluding Mr. Ramirez’s spiritual advisor from being
present at the moment of his execution and administering a final blessing via the laying on of
hands and praying audibly, in accordance with Mr.
Ramirez’s faith tradition, violates his rights under
the First Amendment’s Free Exercise Clause.
CLAIM TWO: THE RELIGIOUS LAND
USE AND INSTITUTIONALIZED
PERSONS ACT (“RLUIPA”)
55. Mr. Ramirez incorporates paragraphs 1-54, above.
56. Even if this Court finds that TDCJ’s policy does not
violate Plaintiff Ramirez’s First Amendment rights,
it should find that the policy violates RLUIPA.
RLUIPA provides in part, “No government shall

99
impose a substantial burden on the religious exercise of a person residing in or confined to an institution,” unless the burden furthers “a compelling
governmental interest,” and does so by “the least
restrictive means.” RLUIPA “alleviates exceptional government-created burdens on private religious exercise.” Cutter v. Wilkinson, 544 U.S. 709,
720 (2005).
57. Specifically, RLUIPA states:
No government shall impose a substantial burden
on the religious exercise of a person residing in or
confined to an institution, as defined in section
1997 of this title, even if the burden results from a
rule of general applicability, unless the government demonstrates that imposition of the burden
on the person-(1) is in furtherance of a compelling
governmental interest; and (2) is the least restrictive means of furthering that compelling interest.41 U.S.C. 2000cc-1(a)RLUIPA thus “alleviates
exceptional government-created burdens on private religious exercise,” without “elevat[ing] accommodation of religious observances over an
institution’s need to maintain order and safety.
Cutter, 544 U.S. at 720.
58. “In RLUIPA, in an obvious effort to effect a complete separation from the First Amendment case
law, Congress deleted reference to the First Amendment and defined the ‘exercise of religion’ to include
‘any exercise of religion, whether or not compelled
by, or central to, a system of religious belief.’ ” Burwell v. Hobby Lobby Stores, 573 U.S. 682, 696
(quoting 42 U.S.C. § 2000cc-5(7)(A)). RLUIPA thus
provides more “expansive protection” for religious

100
liberty than the United States Supreme Court
case law. Holt v. Hobbs, 574 U.S. 352, 358 (2015).
59. Prohibiting Mr. Ramirez from engaging in vitally
important religious practices with a chaplain at
the end of his life and including the moment of his
death substantially burdens his practice of religion. See, e.g., id, 135 S. Ct. at 862 (2015) (determining that where a prisoner shows the exercise
of religion “grounded in a sincerely held religious
belief,” enforced prohibition “substantially burdens his religious exercise”).
60. Under RLUIPA, a prison may not impose a substantial burden on a prisoner’s religious exercise
unless doing so satisfies the Supreme Court’s
“strict scrutiny” test; the challenged policy must be
“the least restrictive means of furthering [a] compelling governmental interest.” 42 U.S.C. §2000cc1(a).
61. The strict scrutiny standard is “exceptionally demanding.” Holt, 574 U.S. 352, 353, quoting Burwell
v. Hobby Lobby Stores, Inc., 573 U.S. at 728.
62. Defendants have not employed the least restrictive means to further a compelling interest. Defendants have the burden to prove this defense.
See, Holt, 574 U.S. at 357, 362.
63. As a federal judge in this district recently noted,
when making fact-findings relevant to a recent
challenge to TDCJ’s execution policy excluding all
religious advisors from the execution chamber,
“Speculative hypotheticals without evidentiary
support do not create an unmanageable security

101
risk.” Gutierrez v. Saenz, supra, ECF Doc. 124 at
*29.
64. TDCJ’s amended policy, including as stated by Ms.
Worman’s, General Counsel’s August 19, 2021 letter, places a substantial burden on Mr. Ramirez’s
practice of a sincerely-held religious belief in the
“spiritually charged final moments of life,” leading
up to and including his execution, when religious
observance and spiritual guidance are most critical. No compelling security interest justifies the
burden on his religious exercise.
65. Accordingly, if the Court concludes that TDCJ’s revised policy does not violate the First Amendment,
it should decide that the policy violates RLUIPA.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff John Henry Ramirez
prays that this Court provide relief as follows:
1. A declaratory judgment that TDCJ’s amended
policy, including as stated by Ms. Worman’s, General
Counsel’s August 19, 2021 letter, violates Mr. Ramirez’s
First Amendment rights under the Free Exercise
Clause;
2. A declaratory judgment that TDCJ’s amended
policy violates Mr. Ramirez’s rights under RLUIPA;
and
3. A permanent injunction prohibiting Defendants from executing Mr. Ramirez until they can do so
in a way that does not violate his rights.

102
4. More specifically, such injunction must require the TDCJ to allow the approved spiritual advisor
to both lay his hands on Ramirez’s body and vocalize
any prayers or scriptures, during the execution.
Respectfully submitted,
/s/ Seth Kretzer
Seth Kretzer
TBN: 24043764
LAW OFFICE OF
SETH KRETZER
9119 South Gessner, Suite 105
Houston, Texas 77074
Tel. (713) 775-3050
seth@kretzerfirm.com

VERIFICATION
I, Seth Kretzer, attorney for the Plaintiff in the
above-titled action, state that to the best of my knowledge and belief, the facts set forth in this Complaint
are true.
Dated: August 22, 2021.
/s/ Seth Kretzer
Seth Kretzer
[Certificate Of Service Omitted]
[Exhibits 1-6 were included previously at pages 31-72.]

103
EXHIBIT 7
[SEAL]

Texas Department of Criminal Justice
Bryan Collier
Executive Director
Via: eric@eallenlaw.com

August 19, 2021
Eric Allen
Eric Allen Law
4200 Regent, Suite 200
Columbus, OH 473219
RE: John Henry Ramirez, TDCJ# 00999544
Mr. Allen:
The Texas Department of Criminal Justice (TDCJ) received your correspondence dated August 16, 2021,
asking whether Mr. Ramirez’s spiritual advisor is to
remain silent upon entering the execution chamber
and where the spiritual advisor will be standing
throughout the procedure.
At this time, the TDCJ does not allow the spiritual advisor to pray out loud with the inmate once inside the
execution chamber. In accordance with the TDCJ Execution Procedure policy, visitation with Mr. Ramirez’s
spiritual advisor may take place the morning of the
scheduled execution at the Polunsky Unit. Mr. Ramirez
may also request visitation with his spiritual advisor
from 3:00 to 5:00 p.m. at the Huntsville Unit. During
these times, the spiritual advisor will be permitted to
pray out loud and provide spiritual guidance to Mr.
Ramirez.

104
Once inside the execution chamber, the spiritual advisor will be positioned in a corner of the room where the
individual must remain for the entirety of the procedure. Due to security concerns, the TDCJ will not disclose the precise distance of the spiritual advisor from
the inmate while inside the execution chamber.
If you have further questions, please do not hesitate to
contact this office.
Sincerely,
/s/ Kristen Worman
Kristen Worman
General Counsel
KLW/AML

105
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
§
§
CIVIL ACTION
§
NO. 4:21-cv-2609
v.
§ *DEATH PENALTY
BRYAN COLLIER, et al.,
§
CASE*
Defendants. §
JOHN HENRY RAMIREZ,
Plaintiff,

----------------------------------------------------------------------------------------------------------------------------------

DEFENDANTS’ OPPOSITION TO PLAINTIFF’S
MOTION FOR A STAY OF EXECUTION
----------------------------------------------------------------------------------------------------------------------------------

(Filed Aug. 23, 2021)
KEN PAXTON
Attorney General
of Texas
BRENT WEBSTER
First Assistant
Attorney General
JOSH RENO
Deputy Attorney General
For Criminal Justice
EDWARD L. MARSHALL
Chief, Criminal
Appeals Division

JENNIFER WREN MORRIS
Assistant Attorney
General State
Bar No. 24088680
Counsel of Record
P.O. Box 12548,
Capitol Station
Austin, Texas 78711
Tel.: (512) 936-1400
Fax: (512) 320-8132
Email: jennifer.wren@
oag.texas.gov

Counsel for Defendants

106
TABLE OF CONTENTS
TABLE OF CONTENTS ......................................

i

TABLE OF AUTHORITIES .................................

ii

DEFENDANTS’ OPPOSITION TO PLAINTIFF’S
MOTION FOR A STAY OF EXECUTION .........

1

I.

II.

TDCJ’s Execution Procedures ...................

2

A. Post-Murphy policy ..............................

3

B. Current policy ......................................

4

C. Ramirez’s requests for TDCJ’s accommodations ............................................

5

The Court Should Deny Plaintiff ’s Motion
for a Stay of Execution ..............................

7

A. Standard of review ..............................

8

B. Ramirez fails to show likely success or
make a substantial case on their merits of his claims ....................................

9

1. RLUIPA claim ................................. 10
2. The Free Exercise Clause claim ..... 16
C. The balance of the equities weighs
heavily in the State’s favor .................. 17
1. Delay, opportunism, and a presumption against a stay ................. 18
5. The parties’ respective interests .... 21
CONCLUSION..................................................... 23
CERTIFICATE OF SERVICE ............................. 24

107
TABLE OF AUTHORITIES
Cases

Page

Adkins v. Kaspar, 393 F.3d 559 (5th Cir. 2004) ... 10, 11
Barefoot v. Estelle, 463 U.S. 880 (1983) ........................8
Board of Educ. of Kiryas Joel Village School
Dist. v. Grumet, et al., 512 U.S. 687 (1994) .............16
Brown v. Collier, 929 F.3d 218 (5th Cir. 2019)10, 12, 17
Cutter v. Wilkinson, 544 U.S. 709 (2005) .. 12, 13, 14, 16
Dunn v. Smith, 141 S. Ct. 725 (2021) ...........................3
Garcia v. Castillo, 431 F. App’x 350 (5th Cir.
2011) ..........................................................................8
Gates v. Cook, 376 F.3d 323 (5th Cir. 2004) ................14
Gutierrez v. Saenz, 141 S. Ct. 127 (2020) ........... passim
Harris v. Johnson, 376 F.3d 414 (5th Cir. 2004) ..........7
Hill v. McDonough, 547 U.S. 573 (2006) ................ 8, 22
Hilton v. Braunskill, 481 U.S. 770 (1987) ....................8
Holt v. Hobbs, 574 U.S. 352 (2015) ....................... 11, 14
Lewis v. Casey, 518 U.S. 343 (1996) ............................14
Lyng v. Nw. Indian Cemetery Protective Assoc.,
485 U.S. 439 (1988) ........................................... 11, 12
Murphy v. Collier, 139 S. Ct. 1475 (2019) .......... passim
Nelson v. Campbell, 541 U.S. 637 (2004) ...... 8, 9, 21, 22
Nken v. Holder, 556 U.S. 418 (2009).............................8
O’Bryan v. Estelle, 691 F.2d 706 (5th Cir. 1982) ........21
O’Bryan v. McKaskle, 729 F.2d 991 (5th Cir.
1984) ........................................................................18

108
Ochoa v. Collier, 802 Fed. App’x 101 (5th Cir.
2020) ........................................................................21
Odneal v. Pierce, 2009 WL 2982781 (S.D. Tex.
Aug. 27, 2009) ..........................................................14
O’Lone v. Estate of Shabazz, 482 U.S. 342 (1987) .........16
Sells v. Livingston, 561 F. App’x 342 (5th Cir.
2014) ..........................................................................8
Sherbert v. Verner, 374 U.S. 398 (1963) ......................10
Turner v. Safley, 482 U.S. 78 (1987) ..................... 16, 17
Udey v. Kastner, 805 F.2d 1218 (5th Cir. 1986) ..........14
United States v. Emerson, 270 F.3d 203 (5th Cir.
2001) ........................................................................22
Walker v. Epps, 287 Fed. App’x 317 (5th Cir.
2008) .................................................................. 21, 22
Walker v. Epps, 287 Fed. App’x 371 (5th Cir.
2008) .................................................................... 7, 20
Waters v. Texas, 747 F. App’x 259 (5th Cir. 2019) .........9
Whitley v. Albers, 475 U.S. 312 (1986) ........................14
Statutes
18 U.S.C. § 3626(a)(1)(A) ............................................15
42 U.S.C. § 2000cc .........................................................1
42 U.S.C. § 2000cc-1(a) ...............................................10

109
[1] IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
§
§
CIVIL ACTION
§
NO.
2:21-cv-167
v.
§ *DEATH PENALTY
BRYAN COLLIER, et al.,
§
CASE*
Defendants. §
JOHN HENRY RAMIREZ,
Plaintiff,

DEFENDANTS’ OPPOSITION TO PLAINTIFF’S
MOTION FOR A STAY OF EXECUTION
Plaintiff John Henry Ramirez is a Texas death row
inmate who is currently scheduled to be executed after
6:00 p.m. (CDT) on September 8, 2021. Ramirez filed
an amended civil-rights complaint1 asserting a denial
of his rights under the First and Fourteenth Amendments and the Religious Land Use and Institutionalized Persons Act of 2000 (RLUIPA).2 Docket Entry
(DE) 5. Thereafter, Ramirez filed the instant motion for
stay of execution pending disposition of his § 1983
complaint.3 DE 11. Defendants’ opposition to Plaintiff ’s motion for stay follows.

1

On Sunday, August 22, 2021, Plaintiff filed a Second
Amended Complaint. DE 12. Plaintiff, however, has not sought or
been granted leave to amend his complaint as required under Fed.
R. Civ. P. 15(a)(2). Plaintiff’s third attempt to plead his case without leave should be stricken.
2
42 U.S.C. § 2000cc et seq.
3
Ramirez filed an Advisory relating to communications with
the Office of the Attorney General regarding waiver of service. DE

110
[2] I.

TDCJ’s Execution Procedures

The Supreme Court stayed TDCJ Inmate Patrick
Murphy’s execution based on his claims challenging
TDCJ’s refusal to permit a Buddhist spiritual advisor
in the execution chamber while permitting Christian
or Muslim chaplains to be present during an execution.
Murphy v. Collier, 139 S. Ct. 1475 (2019). Finding
TDCJ’s former policy unconstitutional for its denominational discrimination, Justice Kavanaugh provided
two potential solutions: TDCJ could allow all inmates
to have an advisor of their religion in the execution
chamber, or it could exclude all such advisors from the
9. Plaintiff served requests for waiver on August 17, 2021, a week
after filing his lawsuit on August 10, 2021. Plaintiff ’s calculation
of 60 days is incorrect and inconsistent. In one “notice,” Plaintiff
acknowledges that Defendants have 60 days from August 17,
2021. See DE 9-3 at 1. But see DE 9-1 at 3 (asserting that Defendants’ 60 day began to run on August 10, 2021). It is also unclear
whether Plaintiff demands that Defendants waive their entitlement to 60 days before answering. In one “notice,” Plaintiff
acknowledges that Defendants shall have 60 days to answer pursuant to Rule 4. DE 9-3 at 1–2. But in another “notice,” Plaintiff
asks Defendants to answer the complaint within 3 days of receiving requests for waiver of service. DE 9-2 at 2 (“I respectfully ask
that you answer the complaint by August 20, 2021).
Regardless, Defendants have not acted to delay litigation by
adhering to the Rules of Civil Procedure. Defendants notified
Plaintiff that (1) the Office of the Attorney General would accept
waivers of service on defendants’ behalf and would waive service
in exchange for 60 days to answer as they are entitled under Rule
15; and (2) they would comply with the Court’s scheduling order
as it relates to expedited briefing on Plaintiff ’s motion for a stay
of execution. Should this litigation proceed, Defendants reserve
the right to file an answer or 12b motion, asserting their entitlement to applicable immunities and affirmative defenses by October 16, 2021.

111
chamber, allowing them in the witness viewing room
instead. Murphy v. Collier, 139 S. Ct. at 1475–76 (Kavanaugh, J., concurring).
[3] A.

Post-Murphy policy

Shortly after Murphy’s execution was stayed,
TDCJ changed its protocol such that no religious advisors were permitted in the execution chamber. DE 1-1
at 8. To accommodate inmates’ religious practices,
TDCJ facilitated visitation on execution day with a
TDCJ chaplain or an outside spiritual advisor (subject
to restrictions). DE 1-1 at 8. During the execution, the
advisor was allowed to be present in the witness viewing room. DE 1-1 at 8.
TDCJ’s post-Murphy policy formed the basis of
several § 1983 complaints—including Ramirez’s in August last year—alleging that their spiritual advisor’s
exclusion from the chamber violated RLUIPA and
the First Amendment. DE 1; Complaint, Gutierrez v.
Saenz, et al., No. 1:19-cv-185, DE 1 (S.D. Tex. Sept. 26,
2019); Complaint, Busby v. Collier, et al., No. 4:21-cv297, DE 1 (S.D. Tex. Jan. 29, 2021) (with intervenor
plaintiffs Quintin Jones and Ramiro Ibarra); Complaint, Gonzales v. Collier, No. 4:21-cv-828, DE 1 (S.D.
Mar. 12, 2021).4 Gutierrez obtained a stay of execution
based on his § 1983 complaint. Gutierrez v. Saenz, 141
4

Relevant to the instant proceedings, Ramirez explicitly disavowed any need for his pastor to touch him in the execution
chamber. Complaint at 5, Ramirez v. Collier, No. 2:20-cv-205, DE
1 (S.D. Tex. Aug. 7, 2020).

112
S. Ct. 127 (2020). And after the Supreme Court declined to vacate a stay based on Alabama’s similar policy,5 the State agreed to withdraw Ramirez’s previous
execution date in exchange for his [4] nonsuit of his
§ 1983 complaint. TDCJ’s adoption of its current execution policy followed.
B. Current policy
TDCJ released a revised Execution Procedure on
April 21, 2021, which delineates a process for the approval of an inmate’s spiritual advisor to be present in
the execution chamber at the time of the execution.
Def. Exhibit 1. The following process applies:

5

•

“Upon the inmate’s receipt of the Notification of Execution Date . . . , the inmate
shall have thirty (30) days to submit a request in writing to the Death Row Unit
Warden to have a TDCJ Chaplain or the
inmate’s spiritual advisor present inside
the execution chamber during the inmate’s scheduled execution.”

•

“The inmate’s spiritual advisor must be
included on the inmate’s visitation list
and have previously established an ongoing spiritual relationship with the inmate
demonstrated by regular communications or in-person visits with the inmate
before the inmate’s scheduled execution
date.”

See Dunn v. Smith, 141 S. Ct. 725 (2021).

113
•

The death-row inmate must provide the
Death Row Unit Warden with contact information for the spiritual advisor, after
which the warden will contact the spiritual advisor.

•

Within fourteen (14) days of being contacted by the Death Row Unit Warden,
the spiritual advisor will provide specific
credentials demonstrating his official status as a spiritual advisor.

•

TDCJ will perform a background check
on the spiritual advisor.

•

Before approval to be in the execution
chamber, “the spiritual advisor must satisfactorily complete a two (2) hour, inperson orientation with a staff member of
the Rehabilitation Programs [5] Division
a minimum of ten (10) days before the inmate’s scheduled execution date.”

If denied the presence of his requested spiritual advisor, the inmate may appeal to the Director of the TDCJ
Criminal Institutions Division. Id. at 4.
C. Ramirez’s requests for TDCJ’s accommodations
On February 5, 2021, the 94th District Court of
Nueces County issued an order setting Ramirez’s execution for September 8, 2021. The court’s order released Ramirez from any obligation he had pursuant
to his agreement with the State:

114
On August 12, 2020, Judge Tagle entered an
order granting discovery in Gutierrez v. Saenz
et al., 1:19-cv-00185. The state of law regarding § 1983 actions alleging . . . RLUIPA violations will certainly be in a different place by
the time any future death warrant is entered
against Ramirez; at that point, Ramirez will
re-calibrate any new 1983 petition he seeks to
bring.
Notice of Non-Suit Without Prejudice at 2, Ramirez v.
Collier et al., No. 2:20- cv-205, DE 2 (S.D. Tex. Aug. 14,
2020).
On April 12, 2021, Ramirez submitted a step 1
grievance to TDCJ, in which he complained as he did
in preparation for his previous § 1983 complaint about
his pastor’s exclusion from the execution chamber. Pl.
Exhibit 4 at 1. While this policy necessarily prohibits
Ramirez’s pastor’s physical contact with him during
the execution, Ramirez said nothing about a need for
physical contact. On April 14, 2021, TDCJ denied his
step 1 grievance. Pl. Exhibit 4 at 2. On April 16,
Ramirez filed a step 2 grievance. Pl. Exhibit 4 at 5. And
on May [6] 4, 2021, TDCJ responded, providing him
with instructions on how to proceed to ensure his spiritual advisor’s presence in the chamber with him. Pl.
Exhibit 4 at 6.
On June 8, 2021, Ramirez’s counsel emailed TDCJ
General Counsel, Kristen Worman, requesting that
Pastor Moore be allowed to make physical contact with
Ramirez during his execution. Def. Exhibit 2. Nine
days later, Ms. Worman responded that TDCJ does not

115
allow an inmate’s spiritual advisor to touch him after
they enter the execution chamber. Def. Exhibit 2.
On June 14, 2021, Ramirez filed a step 1 grievance
complaining that his advisor would not be able to make
physical contact with him during his execution, and, on
July 2, 2021, TDCJ denied it. Pl. Exhibit 4 at 3–4.
Thereafter, Ramirez filed a step 2 grievance and filed
the instant § 1983 complaint in this Court. See Def. Exhibit 3; DE 1.
On June 17, 2021, Ramirez submitted a written
request to the warden for his spiritual advisor, Pastor
Dana Moore, to be present with him in the chamber
during his execution. After verifying Pastor Moore’s
credentials and completing his background check,
TDCJ approved his presence in the execution chamber,
subject only to Pastor Moore’s attendance of TDCJ’s
two-hour orientation on August 26, 2021. Upon completion, Pastor Moore will be cleared to go into the
chamber with Ramirez during his execution. See DE
11 at 1.
[7] II. The Court Should Deny Plaintiff ’s Motion for a Stay of Execution.
Ramirez requests a stay of execution. He begins
with the wrong standard of review6 and ends with
6

On the second page of his motion, Plaintiff argues incorrectly that the Court may stay his execution if he satisfies the
COA standard, i.e., that jurists of reason could debate his claims.
See DE 11 at 2; Walker v. Epps, 287 F. App’x 371, 374 (5th Cir.
2008) (stating that COA standard is not stay standard). Then, he

116
conclusory allegations, which he takes to balance the
equities in his favor. See DE 11 at 2, 9–10. In between,
he cuts and pastes emails showing the State’s expression of its expectation of his compliance with the governing rules and of its intention to take the time it is
statutorily entitled to file a motion to dismiss. Interpreting the emails to be damning to the State or somehow supportive of his motion for a stay of execution,
Ramirez reveals more of his own confusion about the
suit he filed in this Court. In the few paragraphs he
dedicates to relevant stay considerations, he claims he
will be irreparably harmed if his spiritual advisor, who
will be present in the execution chamber, is not allowed
to make physical contact with him during his execution and that the equities weigh in favor of a stay. See
DE 11 at 10. Wrong about both, Ramirez fails to establish an entitlement to a stay of execution.
[8] A.

Standard of review

“Filing an action that can proceed under § 1983
does not entitle the [plaintiff ] to an order staying an
execution as a matter of course.” Hill v. McDonough,
547 U.S. 573, 584 (2006). A request for a stay “is not
available as a matter of right, and equity must be
argues incorrectly that the Court may stay his execution if he presents a facially plausible claim sufficient to survive a Rule 12(b)(6)
motion. See DE 11 at 9. The cases he cites do not support his contention, and the applicable standard refutes it. Part II.A infra (requiring a petitioner to establish likely success or a substantial
case on the merits of his claim); see also Harris v. Johnson, 376
F.3d 414, 416–17 (5th Cir. 2004).

117
sensitive to the State’s strong interest in enforcing its
criminal judgments without undue interference from
the federal courts.” Id. (citing Nelson v. Campbell, 541
U.S. 637, 649–50 (2004)). Rather, Plaintiff must satisfy
all the requirements for a stay, including a showing of
a significant possibility of success on the merits. Id.
(citing Barefoot v. Estelle, 463 U.S. 880, 895–96 (1983)).
When the requested relief is a stay of execution, a court
must consider:
(1) whether the stay applicant has made a
strong showing that he is likely to succeed on
the merits; (2) whether the applicant will be
irreparably injured absent a stay; (3) whether
issuance of the stay will substantially injure
the other parties interested in the proceeding;
and (4) where the public interest lies.
Nken v. Holder, 556 U.S. 418, 434 (2009) (quoting Hilton v. Braunskill, 481 U.S. 770, 776 (1987)). “In a capital case, the movant is not always required to show a
probability of success on the merits, but he must present a substantial case on the merits when a serious
legal question is involved and show that the balance of
the equities[,] i.e., the other three factors[,] weighs
heavily in favor of granting a stay.” Garcia v. Castillo,
431 F. App’x 350, 355 (5th Cir. 2011) (cleaned up); see
Sells v. Livingston, 561 F. App’x 342, 344 (5th Cir.
2014).
[9] A federal court must also consider “the State’s
strong interest in proceeding with its judgment” and
“attempt[s] at manipulation,” as well as “the extent
to which the inmate has delayed unnecessarily in

118
bringing the claim.” Nelson, 541 U.S. at 649–50. Indeed, “there is a strong presumption against the grant
of a stay where a claim could have been brought at
such a time as to allow consideration of the merits
without requiring entry of a stay.” Id. at 650.
B. Ramirez fails to show likely success or
make a substantial case on their merits
of his claims.
Ramirez correctly anticipates Defendants’ argument regarding his failure to demonstrate a likelihood of success or a substantial case on the merits of
his First Amendment and RLUPIA claims.7 Notably,
though, he does not say Defendants are wrong about
that in his analysis of the issue. See DE 9. Nor does he
acknowledge the elements his claims require for such
a showing. Instead, he poses to the Court the possibility that he might meet the substantial-case burden because Murphy did. See DE 11 at 9. But Plaintiff ’s
claims are not Murphy’s.
The current TDCJ protocol, which allows inmates’
spiritual advisors’ presence in the execution chamber,
is what Murphy asked for. It remedies the [10] denominational discrimination of the pre-Murphy protocol,
while also accommodating inmate requests that the
7

Defendants note that Plaintiff does not specifically address
whether his claims call for mandamus relief beyond this Court’s
jurisdiction. See Waters v. Texas, 747 F. App’x 259, 260 (5th Cir.
2019). Consequently, Plaintiff cannot establish he is likely to succeed on the merits of his claims.

119
post-Murphy protocol did not. Yet Plaintiff complains
that the neutral and accommodating protocol is not accommodating enough, as it does not allow the handson Protestant blessing (that he recently decided his
religious beliefs require). If any court has ever found
a prison’s prohibition of spiritual advisors’ physical
contact with inmates during executions violative of
RLUIPA or the First Amendment, Ramirez has not
found it. And the Defendants have not either.
1. RLUIPA claim
To establish a claim under RLUIPA, Plaintiff must
show that the challenged government conduct substantially burdens his religious exercise. 42 U.S.C.
§ 2000cc-1(a); see also Brown v. Collier, 929 F.3d 218,
228–29 (5th Cir. 2019). A substantial burden is one
that forces a person to choose between following the
precepts of his religion or receiving some otherwise
available benefit and truly pressures him to substantially modify his religious behavior. Adkins v. Kaspar,
393 F.3d 559, 569–70 (5th Cir. 2004) (citing Sherbert v.
Verner, 374 U.S. 398 (1963)). But a policy “does not rise
to the level of a substantial burden on religious exercise if it merely prevents the adherent from either enjoying some benefit . . . not . . . generally available or
acting in a way that is not otherwise generally allowed.” Adkins, 393 F.3d at 570. “Incidental effects” of
policies, “which may make it more difficult to practice
[11] certain religions, but which have no tendency to
coerce individuals into acting contrary to their religious beliefs” are not a substantial burden within the

120
meaning of RLUIPA. Lyng v. Nw. Indian Cemetery Protective Assoc., 485 U.S. 439, 450–51 (1988).
As in the Federal Bureau of Prisons (BOP),8 TDCJ
allows outside spiritual advisors into the execution
chamber but does not allow their physical contact with
inmates therein. Without a word on the BOP’s policy,
Ramirez argues that TDCJ’s policy prohibits him from
“engaging in vitally important religious practices . . .
at the end of his life” that “substantially burden[ ] his
practice of religion.” DE 1 at 13. Likening his instant
claim to unrelated religious challenges to an Arkansas
prison’s grooming policy, Ramirez alleges a substantial
burden. See DE 5 at 13 (citing Holt v. Hobbs, 574 U.S.
352, 358 (2015)). But TDCJ’s limitation of accommodations believed to enhance an inmate’s blessing is different than forcing an inmate to do what his religious
tenants forbid. The former does not impose a substantial burden on religious practice. See Adkins, 393 F.3d
at 570 (stating that policy that prevents adherent from
enjoying some benefit that is not generally available is
not a substantial burden). The latter does. Hobbs, 574
U.S. at 358.
[12] TDCJ is not forcing or enticing Ramirez to do
anything. In fact, the current protocol accommodates
his religious needs by allowing his pastor to visit and
pray out loud with him for up to two hours immediately prior to his execution. But when they both enter
8

See Order Finding TDCJ’s Security Concerns Insufficient
to Exclude Outside Spiritual Advisors from Chamber at 12–13,
Gutierrez v. Saenz et al., No. 1:19-cv-185, DE 124 (citing BOP
memorandum outlining its execution procedure).

121
the chamber, security concerns require restrictions.
Strapped to a gurney in restraints, Ramirez’s religious
behavior before he passes will be the same wherever
his pastor’s hands may fall. Nor does Ramirez allege
that passing without spiritual hands upon him violates
his religion. Absent TDCJ imposed pressure or coercion to behave in a manner that violates his religious
beliefs, Ramirez cannot establish the substantial burden that he must. See Brown, 929 F.3d at 229; Lyng,
485 U.S. at 450–51. Such is futile to his RLUIPA claim
and his stay motion as it relates to same, as the likelihood of a futile claim’s success on the merits is low, to
say the least.
Even if Ramirez demonstrates that TDCJ’s current protocol imposes a substantial burden on his religious exercise, he cannot make a strong showing that
it is not the “least restrictive means” of furthering its
compelling security interest. See Cutter v. Wilkinson,
544 U.S. 709, 720 (2005). RLUIPA is particularly sensitive to prison security concerns. Id. at 723. And courts
must apply its provisions “with due deference to the
experience and expertise of prison administrators in
establishing necessary regulations and procedures to
maintain good order, security and discipline, consistent
with consideration of costs and limited resources.” Id.
at 723.
[13] Plaintiff suggests that the security interests
that inform TDCJ’s current execution protocol are
speculative and hypothetical because a district court
found that the interests informing its previous policy
were. DE 5 at 12–13, 15 (citing Order Finding TDCJ’s

122
Security Concerns Insufficient to Exclude Outside
Spiritual Advisors from Chamber at 29, Gutierrez v.
Saenz et al., No. 1:19-cv-185, DE 124). But the previous
court’s assessment of the risks associated with an outside spiritual advisor’s presence in the chamber hinged
upon TDCJ’s ability to mitigate those risks, as the BOP
had done with its no-contact policy and other restrictions. See Order at 12–13, 15, Gutierrez v. Saenz et
al., No. 1:19-cv-185. Now that TDCJ has revised its policy to accommodate an outside spiritual advisor’s presence in the chamber and used its resources to mitigate
the associated risks, Ramirez calls TDCJ’s concerns “illusory.” DE 5 at 11. The BOP’s policy, however, underscores that experienced prison officials believe the risk
associated with an outsider’s physical contact with an
inmate in the chamber is real. See Order at 13,
Gutierrez v. Saenz et al., No. 1:19-cv-185.
In any event, deference is owed to TDCJ’s administrators, not to a district court’s assessment of TDCJ’s
security risks or opinions on how TDCJ should allocate
its resources to mitigate same. See Cutter, 544 U.S. at
723. And RLUIPA allows prison administrators to take
prophylactic measures to [14] prevent or reduce security breaches before they occur. See, e.g., Whitley v. Albers, 475 U.S. 312, 322 (1986).
Consistent with the Supreme Court’s guidance,
TDCJ has designed the least restrictive means of furthering its compelling security interest. Plaintiff fails
to identify any other state that allows outside spiritual advisors to enter and make physical contact
with inmates in the execution chamber, whereas the

123
Defendants demonstrate that the federal government
does not. See Holt, 574 U.S. at 368 (comparing complained-of practice to practice of other jurisdictions). If
the Court overrides TDCJ prison administrators’ execution policy, it is sure to entangle itself and its sister
courts in the execution process. But see Cutter, 544 U.S.
at 726 (“Should inmate requests for religious accommodations . . . jeopardize the effective functioning of an
institution, the facility would be free to resist the imposition.”); Lewis v. Casey, 518 U.S. 343, 362 (1996)
(noting that federal courts are not to become “enmeshed in the minutiae of prison operations”); Odneal
v. Pierce, 2009 WL 2982781, at *5 (S.D. Tex. Aug. 27,
2009) (“The Fifth Circuit has explained that federal
courts ‘are not to micromanage state prisons.’ ”) (quoting Gates v. Cook, 376 F.3d 323, 338 (5th Cir. 2004)); cf.
Udey v. Kastner, 805 F.2d 1218, 1221 (5th Cir. 1986)
(“We believe that the probable proliferation of claims,
and the concomitant entanglement with religion that
processing multiple claims would require, does constitute a problem that the state has a good reason to
avoid.”) (emphasis [15] in original).9 More inmate

9

For the same reason, Plaintiff is not entitled under the
PLRA to the relief he seeks because “[p]rospective relief in any
civil action with respect to prison conditions shall extend no further than necessary to correct the violation of the Federal right of
a particular plaintiff or plaintiffs.” 18 U.S.C. § 3626(a)(1)(A). “The
Court shall not grant or approve any prospective relief unless the
court finds such relief is narrowly drawn, extends no further than
necessary to correct the violation of the Federal right, and is the
least intrusive means necessary to correct the violation of the
Federal right.” Id. Moreover, “[t]he Court shall give substantial

124
accommodation requests would be sure to follow, in
which federal courts would be asked to micromanage
the details of where a spiritual advisor may stand,
what they may say, what they may touch, and how they
may be guarded. Courts should not become entangled
in the minutia of a highly sensitive and secure process
that requires elevated control and precision by prison
administrators.10
Finally, the relief Plaintiff seeks will require TDCJ
to accommodate blessing rituals from other religions,
too. Where a Protestant may request his pastor’s hands
upon him as he passes, a Muslim may prefer for his
body to be washed and shrouded immediately upon his
passing, and a Buddhist, that his body be untouched
for seven days after his death. True, the nonProtestant blessings above are likely to involve different security risks and/or costs. But also true is that
TDCJ’s accommodation of one religion’s blessing in the
chamber, to the exclusion of others, effectively reintroduces the denominational discrimination that the Supreme Court required TDCJ to remove. See Murphy,
139 S. Ct. at 1475; see also Cutter, 544 U.S. at 709 (citing Board of Educ. of Kiryas Joel Village School Dist. v.
Grumet et al., 512 U.S. 687 (1994)) (indicating that

weight to any adverse impact on public safety or the operation of
a criminal justice system caused by the relief.” Id.
10
See, e.g., Order at 3, Gutierrez v. Saenz, et al., No. 1:19-cv185, DE 172 (addressing Gutierrez’s request for his advisor to
pray uninterrupted for several minutes while touching his shoulder before the lethal injection is administered until he is pronounced dead).

125
RLUIPA’s prescriptions must “be administered neutrally among different faiths”).
Plaintiff fails to make a substantial case on the
merits of his RLUIPA claim because TDCJ’s execution
protocol does not substantially burden his exercise of
religion. And even if it did, the policy is the least restrictive means of furthering TDCJ’s compelling interest in prison security. See Cutter, 544 U.S. at 720.
Consequently, Plaintiff is not entitled to a stay of execution for his RLUIPA claim.
2. The Free Exercise Clause claim
Plaintiff also claims that TDCJ’s policy violates
the First Amendment’s Free Exercise Clause. DE 5
at 10–12. And again, he applies the wrong standard
to prove it. See DE 5 at 12 (asserting strict scrutiny
standard applies). The reasons RLUIPA requires courts
to defer to prison-administrator-authored prison policies apply equally in the context of Free Exercise
claims. See O’Lone v. Estate of Shabazz, 482 U.S. 342,
349 (1987). Where a prison regulation forms the basis
of such a claim, “the regulation is valid if it is reasonably related to legitimate penological interests.” O’Lone,
482 U.S. at 349 (citing Turner v. [17] Safley, 482 U.S.
78, 89 (1987)); Brown v. Collier, 929 F.3d 218, 232 (5th
Cir. 2019).
Ramirez’s claim plainly fails to satisfy Turner’s
test. First, Ramirez cannot show that TDCJ’s revised
protocol is not rationally connected to its security interest. See Turner, 482 U.S. at 89. Second, he cannot

126
show there are no alternative means for him to exercise his religion, as TDCJ is allowing his pastor to enter the chamber to pray with him.11 Third, Ramirez is
not likely to succeed on the merits of his claim considering the impact the accommodation—i.e., the “ripple
effect”—would have on prison resources. Turner, 482
U.S. at 90. Lastly, Plaintiff is not likely to succeed in
showing the existence of a readily available alternative, where he offers none, and the only alternative policy before the Court is the BOP’s, which imposes the
same no-contact restriction for outside advisors. Because Ramirez fails to make a substantial case on the
merits of his Free Exercise Claim, he is not entitled to
a stay of execution to pursue it.
C. The balance of the equities weighs
heavily in the State’s favor.
If Ramirez manages to make a substantial case of
his futile claims, he must also show that the balance of
the equities weighs heavily in favor of a [18] stay.
O’Bryan v. McKaskle, 729 F.2d 991, 993 (5th Cir. 1984).
He tries by plugging his conclusory allegations into the
conclusory paragraph of his motion. DE 11 at 10. Defendants offer evidence for their side of the scale.

11

As noted above, TDCJ’s revised protocol also allows
Ramirez’s spiritual advisor to visit and pray with him for up to
two hours immediately prior to his execution from 3:00 to 5:00
p.m.

127
1. Delay, opportunism, and a presumption against a stay
Plaintiff proclaims his diligence in filing his instant § 1983 complaint based on the § 1983 complaint
he nonsuited last year. DE 11 at 3–4. Defendants agree
that the nonsuited suit bears on the equities before the
Court today, but they interpret its impact to the balance differently.
Perhaps if Ramirez’s previous and now-pending
§ 1983 complaints raised the same claims, he could
make his recycled-diligence argument with some level
of credibility. But his claims in the respective complaints are different in a way that undermines his
credibility and evinces a dilatory motive rather than
a sincere one. Indeed, his asserted religious beliefs
change when TDCJ accommodates them. Last year, his
religious beliefs required only Pastor Moore’s presence
in the execution chamber for prayer and spiritual guidance during his execution. In fact, he explicitly stated,
“Pastor Moore need not touch [him] at any time in the
execution chamber.” Complaint at 5, Ramirez v. Collier,
No. 2:20-cv-205, DE 1 (S.D. Tex. Aug. 7, 2020). When
TDCJ adopted its current protocol to accommodate
Ramirez’s request, it also mooted claims like those
in his 2020 complaint. See Order Dismissing Spiritual Advisor Claim as Moot and Denying Leave to
Amend at 8–9, Gutierrez v. Saenz, et al., No. [19] 1:19cv-185, DE 172 (“The 2021 Execution Procedure moots
Gutierrez’s . . . claims” regarding the exclusion of his
chaplain from the chamber). Having been accommodated as to his earlier claims, Ramirez’s “sincerely-held

128
religious beliefs” changed to require the physical touch
he previously claimed was not required. Compare
Complaint at 5, Ramirez v. Collier, No. 2:20-cv-205, DE
1 (S.D. Tex. Aug. 7, 2020) (“Pastor Moore need not touch
[him] at any time in the execution chamber.”), with
Complaint at 5, Ramirez v. Collier, No. 2:20-cv-205, DE
1 (S.D. Tex. Aug. 7, 2020), with DE 5 at 5 (“Pastor Moore
needs to lay his hands on Mr. Ramirez in accordance
with his and Mr. Ramirez’s faith tradition.”).
Disregarding his disavowal of any need for physical contact, Ramirez directs the Court to the Bible and
the historical practice of “[t]he laying on of hands” at
the time of death. See, e.g., DE 5 at 1, 3, 5, 11. A “longheld and practiced tradition . . . in the Protestant belief
system . . . Ramirez adheres to,” one would expect
Ramirez to seek accommodations for it under the
previous policy that necessarily precluded it. With no
explanation from Ramirez, his change in religious
needs reflects dilatory opportunism. If the Court stays
Ramirez’s execution so that TDCJ may once again
amend its policy to allow physical contact, Defendants
can reasonably expect that Ramirez would move the
goalposts yet again. “The onus is not on the [ ] Defendants to guess or assume what claims [Ramirez] will ultimately seek. The onus was on [Ramirez] [20] to
request the specific relief he needed from the beginning.” See Order Dismissing Spiritual Advisor Claim
as Moot and Denying Leave to Amend at 10, Gutierrez
v. Saenz, et al., No. 1:19-cv-185, DE 172.
Turning now to Ramirez’s filing of his nowpending § 1983 complaint, Defendants acknowledge

129
that he did not wait until the eleventh hour or the eve
of his execution to file. But he also did not file in time
for the pre-execution resolution he seems to believe he
is entitled to. Shifting the blame, Plaintiff suggests
that his agreement to nonsuit his previous complaint
somehow absolves him of his future obligation to file
any subsequent complaint to allow sufficient time for
its resolution without a stay. See DE 5 at 4. But that
was not part of the agreement (nor does it make sense
standing alone). See Notice of Non-Suit Without Prejudice at 2, Ramirez v. Collier et al., No. 2:20-cv-205, DE
2.
The state court’s February 5, 2021, order resetting
Ramirez’s execution terminated any obligation he may
have had to the State. Yet Ramirez waited four months
before requesting from TDCJ the accommodation he
now seeks. For Ramirez’s delay, he expects the Defendants to make up for his lost time by waiving their entitlement to service and time to answer or plead in
exchange for waiver. See DE 11 at 5–7. Additionally, on
the eve of Defendant’s deadline to file a response to
Plaintiff ’s motion to stay execution, Ramirez files a
second amended complaint, without seeking or receiving leave as required under Rule [21] 15. Ramirez—not
the State—is responsible for the timing of his suit,
along with the briefing schedule and resolution that
follows. And because he failed to file his complaint in
time to “allow [for] consideration of the merits without
. . . a stay,” he invokes the “strong presumption against
the grant of a stay.” Nelson, 541 U.S. at 649–50.

130
2. The parties’ respective interests
Ramirez claims he will be irreparably injured if a
stay does not issue because his is a capital case. See DE
11 at 3 (citing O’Bryan v. Estelle, 691 F.2d 706, 708 (5th
Cir. 1982). While this factor is initially weighted in his
favor, it is not the freebie he needs it to be. DE 11 at 3.
It applies to every capitally sentenced inmate seeking
a stay of execution, but most do not meet it. So where
Ramirez’s analysis ends, the irreparable injury inquiry
begins. See DE 11 at 3. He cannot show that he will
suffer irreparable injury if his case is not stayed because his claims will undoubtedly fail. See, e.g., Ochoa
v. Collier, 802 Fed. App’x 101, 106 (5th Cir. 2020);
Walker v. Epps, 287 F. App’x at 375.
Further, Ramirez will not be irreparably injured,
as TDCJ is providing him with precisely what he asked
for just one year ago—Pastor Moore’s presence in the
execution chamber. However long-standing the religious tradition, such is insufficient to establish a harm
personal to Ramirez, who only began to prioritize the
practice when it provided a basis for stalling his execution. And even if the sincerity of Ramirez’s request
were not undermined [22] by his dilatoriness in making it, TDCJ’s accommodations adequately mitigate
whatever speculative harm he may claim based on his
unfulfilled request for physical touch. See Walker v.
Epps, 287 Fed. App’x 317, 376 (5th Cir. 2008) (quoting
United States v. Emerson, 270 F.3d 203, 262 (5th Cir.
2001) (stating that “[s]peculative injury is not sufficient” to demonstrate irreparable harm).

131
Any potential harm that may result from TDCJ’s
refusal to accommodate Ramirez’s opportunism is not
substantial enough to overcome the State’s and victims’ interest “in the timely enforcement of [Plaintiff ’s] sentence.” Hill, 547 U.S. at 548; Nelson, 541
U.S. at 649–50. Controlling caselaw notwithstanding,
Ramirez argues the State has no such interest because it agreed last year to withdraw his execution
date. DE 11 at 9. The suggestion that the State’s
agreement in this case one year ago dissolves its interest today (or perhaps forever) is as untenable as it
is conclusory.
The State’s agreement in this case last year was
based on TDCJ’s previous policy that was under constitutional scrutiny. While the State maintains its
general interest in the timely enforcement of its sentences, that interest yields to a case that raises an
apparently valid constitutional claim. Defendants
are confident that TDCJ’s current policy will withstand Ramirez’s constitutional and statutory challenges and maintain their interest in enforcing
Ramirez’s sentence.

132
[23] CONCLUSION
For these reasons, Plaintiff ’s request for a stay
should be denied.
Respectfully submitted,
KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant
Attorney General
JOSH RENO
Deputy Attorney General
For Criminal Justice
EDWARD L. MARSHALL
Chief, Criminal
Appeals Division
s/ Jennifer Wren Morris
JENNIFER WREN MORRIS
Assistant Attorney General
State Bar No. 24088680
Southern District No. 2237541
P.O. Box 12548,
Capitol Station
Austin, Texas 78711
Tel.: (512) 936-1400
Fax: (512) 320-8132
email: jennifer.wren@
oag.texas.gov
Counsel for Defendants
[Certificate Of Service Omitted]

133
EXHIBIT 1
===========================================================================================
TEXAS DEPARTMENT OF CRIMINAL JUSTICE
Correctional Institutions Division
[SEAL]
EXECUTION PROCEDURE
April 2021
===========================================================================================
ADOPTION OF EXECUTION PROCEDURE
In my duties as Division Director of the Correctional
Institutions Division, I hereby adopt the attached Execution Procedure for use in the operation of the Texas
Department of Criminal Justice Death Row housing
units and perimeter functions. This Procedure complies with Texas Board of Criminal Justice Rule
§152.51; §§492.013(a), 493.004, Texas Government
Code; and Articles 43.14 – 43.20, Texas Code of Criminal Procedure.
/s/ Bobby Lumpkin
Bobby Lumpkin
Director, Correctional
Institutions Division

4.21.2021
Date

134
EXECUTION PROCEDURES
I.

Notification of a Scheduled Execution
Date
A.

Pursuant to Article 43.15, Texas Code of
Criminal Procedure, the clerk of the trial
court shall officially notify the Correctional
Institutions Division (CID) Director, who
shall then notify the Death Row Unit Warden and the Huntsville Unit Warden, of an
inmate’s scheduled execution date. Once a
scheduled execution date is received, the
Death Row Unit Warden’s office shall notify
the unit’s Chief of Classification and the
Death Row Supervisor.

B.

The Death Row Supervisor shall schedule
an interview with the inmate and provide
the inmate with the Notification of Execution Date (Form 1). This form provides the
inmate with a list of the information that
shall be requested from the inmate two (2)
weeks before the scheduled execution.

C.

The inmate may be moved to a designated
cell. Any keep-on-person (KOP) medication
shall be confiscated and administered to the
inmate as needed by medical staff on the
unit.

D. Upon the inmate’s receipt of the Notification of Execution Date (Form 1), the inmate
shall have thirty (30) days to submit a request in writing to the Death Row Unit
Warden to have a TDCJ Chaplain or the inmate’s spiritual advisor present inside the

135
execution chamber during the inmate’s
scheduled execution.
E. The inmate’s requested spiritual advisor
must be included on the inmate’s visitation
list and have previously established an ongoing spiritual relationship with the inmate
demonstrated by regular communications
or in-person visits with the inmate before
the inmate’s scheduled execution date.
F.

If an inmate requests to have a spiritual advisor present inside the execution chamber
during the inmate’s scheduled execution,
the inmate will provide the Death Row Unit
Warden with contact information for the
spiritual advisor. Upon receipt of the spiritual advisor’s contact information, the
Death Row Unit Warden shall contact the
spiritual advisor.
1.

The spiritual advisor shall have fourteen (14) days from the date of contact
with the Death Row Unit Warden to
provide credentials to the Death Row
Unit Warden verifying the individual’s official status as a spiritual advisor. As required in TDCJ Chaplaincy
Manual Policy 11.09, “Inmate Ministerial and Spiritual Advisor Visits,”
the credentials shall be at least one of
the following:
a.

Minister Identification Card supplied by the authorizing denomination or religious group;

136
b.

License or ordination certificate;

c.

Official letter from an organized
religious body or congregation indicating the status of the letter
holder as an official representative of the religious body or congregation
for
all
religious
functions or for specific prison-related religious functions; or

d.

A current listing as a clergy person in an official listing of ministers and clergy from an organized
religious body.

2.

The TDCJ will perform a background
check, including but not limited to a
criminal background check, on the
spiritual advisor.

3.

If the spiritual advisor is approved to
be present inside the execution chamber during the inmate’s scheduled execution, the spiritual advisor must
satisfactorily complete a two (2) hour,
in-person orientation with a staff
member of the Rehabilitation Programs Division a minimum of ten (10)
days before the inmate’s scheduled execution date.

4.

If the spiritual advisor is determined
to be a security risk, the Huntsville
Unit Warden or designee may deny
the inmate’s request for the spiritual
advisor to be present inside the

137
execution chamber during the inmate’s scheduled execution.
5.

II.

The inmate or spiritual advisor may
appeal the denial of the inmate’s request to have the spiritual advisor
present inside the execution chamber
during the inmate’s scheduled execution by submitting a request in writing to the CID Director. The decision
of the CID Director is final.

Preparation of the Execution Summary
and Packet
A.

Two Weeks (14 days) Before the Scheduled
Execution
1.

The Death Row Unit is responsible for
completion of the Execution Packet
which shall include:
a.

Execution Summary;

b.

Religious Orientation Statement;

c.

Current Visitation List;

d.

Execution Watch Notification;

e.

Execution Watch Log;

f.

Inmate Request for Withdrawal
(1-25);

g.

Inmate Property Documentation
(PROP-05 and PROP-08); and

h.

Other documents as necessary.

138
2.

The Execution Summary (Form 2) and
the Religious Orientation Statement
(Form 3) shall be forwarded to the
Death Row Supervisor or the Death
Row Unit Warden’s designee for completion. A copy of the inmate’s current
visitation list and recent commissary
activity shall also be provided.

3.

The Death Row Supervisor shall arrange an interview with the inmate to
gather the information necessary to
complete the Execution Summary and
Religious Orientation Statement.

4.

The Execution Summary must be
completed and returned by the Death
Row Supervisor or the Death Row
Unit Warden’s designee in sufficient
time to be forwarded to the CID Director’s Office by noon of the fourteenth
(14th) day. After approval by the CID
Director, the Execution Summary
shall be forwarded to the Death Row
Unit Chaplain, the Huntsville Unit
Warden’s Office, and the Communications Department.

5.

If the inmate wishes to change the
names of the inmate’s witnesses, and
it is less than fourteen (14) days before
the scheduled execution date, the inmate shall submit a request in writing
to the CID Director, through the
Death Row Unit Warden, who shall
approve or disapprove the changes.

139

B.

6.

While completing the Religious Orientation Statement, staff shall confirm if
the inmate still requests the presence
of a TDCJ Chaplain or the inmate’s
approved spiritual advisor in the execution chamber during the inmate’s
scheduled execution.

7.

An inmate may request to have the inmate’s body donated to the Texas
State Anatomical Board for medical
education and research. The appropriate paperwork shall be supplied to the
inmate upon request.

One Week (7 days) Before the Scheduled
Execution
1.

The Death Row Supervisor or the
Death Row Unit Warden’s designee
shall notify staff (Form 4) to begin the
Execution Watch Log (Form 5).

2.

The Execution Watch Log shall begin
at 6:00 a.m. Central Time seven (7)
days before the inmate’s scheduled execution. The seven (7) day timeframe
shall not include the day of the inmate’s scheduled execution. The inmate shall be observed, logging the
inmate’s activities every 30 minutes
for the first six (6) days and every 15
minutes for the remaining 36 hours.

3.

The Communications Department
may request information from the

140
Execution Watch Log on the day of the
inmate’s scheduled execution.
4.

C.

The original Execution Packet and the
inmate’s medical file shall be sent
with the inmate in the transport vehicle to the Huntsville Unit or the Goree
Unit for a female inmate.
a.

The Death Row Unit Warden
shall maintain a copy of the Execution Packet on the Death Row
Unit.

b.

If there are any changes necessary to the Execution Packet, staff
shall notify the CID Director’s Office and the Huntsville Unit Warden’s Office.

The Day of the Scheduled Execution
1.

On the morning of the day of the
scheduled execution, before final visitation, all the inmate’s personal property shall be packed and inventoried.
The property officer shall complete an
“Inmate Property Inventory” (PROP05) detailing each item of the inmate’s
property. The property officer shall
also complete a “Disposition of Confiscated Inmate Property” (PROP-08) indicating the inmate’s choice of
disposition of personal property.
a.

If disposition is to be made from
the Huntsville Unit, a copy of the
property
forms
shall
be

141
maintained by the Death Row
Unit Property Officer, and the
original property forms shall be
forwarded to the Huntsville Unit
with the inmate’s property.

2.

b.

If disposition is to be made from
the Death Row Unit, a copy of the
property forms shall be placed in
the Execution Packet, and the
original forms shall be maintained on the Death Row Unit
through the completion of the disposition process.

c.

The Mountain View Unit Warden
shall ensure that a female inmate
brings personal hygiene and gender-specific items to the Huntsville Unit as appropriate.

Designated staff shall obtain the inmate’s current trust fund balance and
prepare the Inmate Request for Withdrawal (I-25) for completion by the inmate.
a.

The following statement shall be
written or typed on the reverse
side of the 1-25 form, “In the event
of my execution, please distribute
the balance of my Inmate Trust
Fund account as directed by this
Request for Withdrawal.” The inmate’s name, number, signature,
thumbprint, and the date and
time of the inmate’s signature

142
shall be included below this statement. Two (2) employees’ names
and signatures shall be printed
and signed below the inmate’s signature as witnesses that the inmate authorized the form.
b.

3.

The 1-25 form shall be delivered
to the Commissary and Trust
Fund Department for processing
by 10:00 a.m. Central Time the
next business day following the
completed execution.

The inmate shall be permitted visitation with individuals designated on
the inmate’s approved visitation list
on the morning of the day of the scheduled execution.
a.

Exceptions may be made to schedule as many visits as possible before the inmate is transported to
the Huntsville Unit. These visits
are considered “Special Visits.”

b.

Special visits (spiritual advisor,
attorney(s), and individuals not
on the inmate’s approved visitation list) shall be approved by the
Death Row or Goree Unit Warden
or designee. No changes shall be
made to the inmate’s approved
visitation list.

c.

No media visits shall be allowed
at the Goree Unit.

143
4.

When appropriate, a male inmate
shall be escorted to a holding cell at
the Polunsky Unit. The Execution
Transport Log for Male Inmates
(Form 6) shall be initiated, and the inmate shall be prepared for transport
to the Huntsville Unit. The Execution
Watch Log shall be discontinued when
the Execution Transport Log for Male
Inmates is initiated.

5.

A female inmate may be transported
to the Goree Unit before the day of the
inmate’s scheduled execution. The Execution Transport Log for Female Inmates (Form 7) shall be initiated at
the Mountain View Unit. The Goree
Unit staff will initiate the Execution
Watch Log upon arrival at the Goree
Unit, permit visitation as appropriate,
and transport the female inmate to
the Huntsville Unit. The Execution
Watch Log shall be discontinued, and
the Execution Transport Log for Female Inmates shall resume when the
female inmate departs the Goree
Unit.

6.

Any transportation arrangements for
the inmate between units shall be
known only to the Wardens involved,
the CID Director, as well as those persons they designate as having a need
to know. No public announcement
shall be made concerning the exact
time, method, or route of transfer.

144
7.

Upon arrival at the Huntsville Unit,
the inmate shall be removed from the
transport vehicle and escorted by
Huntsville Unit security staff into the
execution holding area. The CID Director’s Office and the Communications Department shall be notified
immediately after the inmate arrives
at the Huntsville Unit.

8.

The Execution Watch Log shall immediately resume when the inmate enters the pre-execution holding area.

9.

The inmate’s restraints shall be removed, and the inmate shall be fingerprinted and strip-searched.

10.

The inmate shall be placed in a holding cell and issued a clean set of TDCJ
clothing.

11.

The Huntsville Unit Warden shall be
notified after the inmate has been secured in the holding cell. The Huntsville Unit Warden or designee shall
interview the inmate and review the
information in the Execution Packet.

12.

The inmate shall be permitted visitation with a TDCJ Chaplain(s), the inmate’s approved spiritual advisor, and
the inmate’s attorney(s) on the day of
the scheduled execution at the Huntsville Unit. The Huntsville Unit Warden must approve all visits.

145
13.
III.

There shall be no family or media visits allowed at the Huntsville Unit.

Drug Team Qualifications and Training
A. The drug team shall have at least one medically trained individual. Each medically
trained individual shall at least be certified
or licensed as a certified medical assistant,
phlebotomist, emergency medical technician, paramedic, or military corpsman.
Each medically trained individual shall
have one year of professional experience before participating as part of the drug team,
shall retain current licensure, and shall fulfill continuing education requirements commensurate
with
licensure.
Neither
medically trained individuals nor any other
members of the drug team shall be identified.
B.

Each new member of the drug team shall
receive training before participating in an
execution without direct supervision. The
training shall consist of following the drug
team through at least two (2) executions, receiving step-by-step instruction from existing team members. The new team member
will then participate in at least two (2) executions under the direct supervision of existing team members. Thereafter, the new
team member may participate in executions
without the direct supervision of existing
team members.

C.

The Huntsville Unit Warden shall review
annually the training and current

146
licensure, as appropriate, of each drug team
member to ensure compliance with the required qualifications and training.
IV.

Pre-execution Procedures
A.

The Huntsville Unit Warden’s Office shall
serve as the communication command post,
and entry to the office area shall be restricted.

B.

Inventory and Equipment Check

C.

1.

Designated Huntsville Unit staff are
responsible for ensuring the purchase,
storage, and control of all chemicals
used in lethal injection executions for
the State of Texas.

2.

The drug team shall obtain all equipment and supplies necessary to perform the lethal injection from the
designated storage area.

3.

An inventory and equipment check
shall be conducted.

4.

Expiration or beyond use dates of all
applicable items are to be checked on
each individual item. Outdated items
shall be replaced immediately.

Attorney visits shall occur between 3:00
and 4:00 p.m. Central Time, and spiritual
advisor visits shall occur between 3:00 and
5:00 p.m. Central Time. The attorney and
spiritual advisor may not meet with the inmate at the same time. Exceptions may be
granted under unusual circumstances and

147
must be approved by the Huntsville Unit
Warden.
1.

The inmate’s attorney or the inmate’s
approved spiritual advisor must arrive at the Huntsville Unit no later
than 2:30 p.m. Central Time on the
day of the scheduled execution to participate in an attorney or spiritual advisor visit with the inmate.

2.

The inmate’s approved spiritual advisor must arrive at the Huntsville Unit
no later than 5:00 p.m. Central Time
on the day of the scheduled execution
to accompany the inmate in the execution chamber.

3.

The failure of an inmate’s approved
spiritual advisor to arrive at the
Huntsville Unit before 5:00 p.m. Central Time on the day of the scheduled
execution will not prevent the execution from proceeding.

D. The inmate shall be served a last meal at
approximately 5:00 p.m. Central Time.
E. The inmate shall be afforded an opportunity to shower and shall be issued a clean
set of TDCJ clothing at some time before
6:00 p.m. Central Time.
V.

Preparations for the Lethal Injection
A.

One (1) syringe of normal saline shall be
prepared by members of the drug team.

148

VI.

B.

The lethal injection drug shall be mixed and
syringes shall be prepared by members of
the drug team as follows: Pentobarbital –
100 milliliters of solution containing 5
grams of Pentobarbital.

C.

The drug team shall have available a backup set of the normal saline syringe and the
lethal injection drug in case unforeseen
events make their use necessary.

Execution Procedures
A. After 6:00 p.m. Central Time and after confirming with the Office of the Attorney General and the Governor’s Office that no
further stays of execution, if any, will be imposed and that imposition of the court’s order should proceed, the CID Director or
designee shall give the order to escort the
inmate into the execution chamber.
B.

The inmate shall be escorted from the holding cell into the execution chamber and secured to the gurney.

C.

A medically trained individual shall insert
intravenous (IV) catheters into a suitable
vein of the inmate. If a suitable vein cannot
be discovered in an arm, the medically
trained individual shall substitute a suitable vein in another part of the body but
shall not use a “cut-down” procedure to access a suitable vein. The medically trained
individual shall take as much time as is
needed to properly insert the IV lines. The
medically trained individual shall connect

149
an IV administration set and start a normal
saline solution to flow at a slow rate
through one of the lines. The second line is
started as a precaution and is used only if a
potential problem is identified with the primary line. The CID Director or designee, the
Huntsville Unit Warden or designee, and
the medically trained individual shall observe the IV lines to ensure that the rate of
flow is uninterrupted.
D. After the normal saline solution IV has
been started and is running properly, the
following shall occur as instructed by the
Huntsville Unit Warden or designee:
1.

If requested by the inmate and previously approved by the TDCJ, a TDCJ
Chaplain or the inmate’s approved
spiritual advisor will be escorted into
the execution chamber by an agency
representative to observe the inmate’s
execution.

2.

Witnesses to the execution shall be escorted into the appropriate witness
rooms.

NOTE: Any behavior by the spiritual advisor or witnesses deemed by the CID Director or designee to be disruptive to the
execution procedure shall be cause for immediate removal from the Huntsville Unit.
E. The CID Director or designee shall give the
order to commence with the execution.

150
F.

The Huntsville Unit Warden or designee
shall allow the inmate to make a brief, last
statement.

G. The Huntsville Unit Warden or designee
shall instruct the drug team to induce, by
syringe, substances necessary to cause
death.
H. The flow of normal saline solution through
the IV shall be discontinued, and the lethal
dose of Pentobarbital shall be commenced.
I.

When the entire contents of the syringe
have been injected, the line shall be flushed
with an injection of normal saline solution.

J.

The CID Director or designee and the
Huntsville Unit Warden or designee shall
observe the appearance of the inmate during application of the Pentobarbital. If, after
a sufficient time for death to have occurred,
the inmate exhibits visible signs of life, the
CID Director or designee shall instruct the
drug team to administer an additional 5
grams of Pentobarbital followed with a normal saline solution flush.

K. At the completion of the process and after a
sufficient time for death to have occurred,
the Huntsville Unit Warden or designee
shall direct the physician to enter the execution chamber to examine the inmate, pronounce the inmate death, and designate the
official time of death. After the inmate is
pronounced deceased, the spiritual advisor
will be escorted from the execution

151
chamber, and the witnesses shall be escorted from the witness rooms.
L.

VII.

The inmate’s body shall be immediately removed from the execution chamber and
transported by a coordinating funeral
home. Arrangements for the inmate’s body
shall be concluded before the execution.

Stays of Execution
A. Official notification of a stay of execution
shall be delivered to the CID Director, the
Death Row Unit Warden, and the Huntsville Unit Warden. Staff must not accept a
stay of execution from the inmate’s attorney. After the official stay of execution is received, the Death Row Unit Warden’s office
shall notify the unit’s Chief of Classification
and Death Row Supervisor.
B.

Designated staff on the Death Row Unit
shall notify the inmate that a stay of execution has been received.

VIII. Confidentiality of Participants
A. Participants in the execution process shall
not be identified, nor shall their names be
released to the public.
B.

Before participating in a scheduled execution, the inmate’s approved spiritual advisor must sign a nondisclosure agreement
and agree to keep confidential all information, including but not limited to the
identities of TDCJ employees, members of
the drug team, and any other participant in

152
the execution, obtained or learned by the inmate’s approved spiritual advisor when
participating in the inmate’s scheduled execution.
C.

IX.

Violation of the nondisclosure agreement
may subject the inmate’s approved spiritual
advisor to civil or criminal penalties under
state law.

TDCJ Employee Orientation
A. TDCJ employees shall receive an orientation with the Huntsville, Goree, Polunsky,
or Mountain View Unit Wardens, who shall
inform the employees of TDCJ Executive
Directive 06.63, “Crisis Response Intervention Support Program,” (CRISP).
B.

TDCJ employees shall be encouraged to
contact the Regional CRISP Team Leader
following their initial participation in the
execution process.

153
EXHIBIT 2
From:
To:
Subject:
Date:

Kristen Worman
Eric Allen
RE: Spiritual advisor request for Inmate
Ramirez 999544
Thursday, June 17, 2021 11:20:10 AM

Mr. Allen,
At this time the Texas Department of Criminal Justice
(TDCJ) does not allow the spiritual advisor to touch
the inmate once inside the execution chamber. Therefore, TDCJ will not honor your client’s request.
Best regards,
Kristen Worman
TDCJ General Counsel
(512) 475-4852
From: Eric Allen <eric@eallenlaw.com>
Sent: Tuesday, June 8, 2021 2:48 PM
To: Kristen Worman <Kristen.Worman@tdcj.texas.gov>
Subject: Spiritual advisor request for Inmate Ramirez
999544
CAUTION: This email was received from an EXTERNAL source, use caution when clicking links or opening attachments.
If you believe this to be a malicious and/or phishing
email, please contact the Information Security Office
(ISO).

154
Ms. Worman,
Mr. Ramirez would like to have his spiritual advisor to
be able to touch him during the execution. This laying
on of hands during the final moments of a person’s life
has a long history in his faith. Will you allow his request?
Thank you
Eric Allen
The Law Office of Eric J. Allen, LTD
4200 Regent Street, Suite 200
Columbus, Ohio 43219
Ph: 614-443-4840 (office)
614-309-0924 (cell)
Fax: 614-473-2924
Email: eric@eallenlaw.com

155
EXHIBIT 3

156

157
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
JOHN HENRY RAMIREZ,
Plaintiff,
v.
BRYAN COLLIER, et al.,
Defendants.

§
§
§
§
§
§

CIVIL ACTION 4:21cv-2609
* DEATH PENALTY
CASE *

DEFENDANTS’ SURREPLY ON PLAINTIFF’S
MOTION FOR A STAY OF EXECUTION
(Filed Aug. 30, 2021)
Plaintiff John Henry Ramirez is a Texas death row
inmate who is currently scheduled to be executed after
6:00 p.m. (CDT) on September 8, 2021. Ramirez filed a
motion for stay of execution pending disposition of his
§ 1983 complaint. DE 11. Without obtaining leave of
the Court, Ramirez filed a second amended § 1983
complaint, raising new and unexhausted claims. DE
12. Defendants filed a response in opposition to Plaintiff ’s motion for stay of execution, DE 13, to which
Plaintiff replied. DE 14. To address arguments Plaintiff raised for the first time in his reply, Defendants file
the instant surreply.

158
I.

TDCJ’s Current Protocol Allows Ramirez
to Spend Up to Six Hours with His Pastor
on Execution Day.

Lost in Eastern religion and Fyodor Dostoevsky’s
philosophies on crime and repentance, see DE 14 at 3,
6, Ramirez overlooks the more relevant considerations,
such as the ways in which TDCJ is accommodating his
religious needs. TDCJ’s current policy allows Ramirez
to visit with his pastor (or his family members) from
8:00 a.m. to 12:00 p.m. at the Polunsky Unit on the
morning of his execution, and then again at the Huntsville Unit from 3:00 to 5:00 p.m. prior to his execution.
DE 13-1 at 7–8; DE 14 at 11. During those six hours,
Ramirez’s pastor may read scriptures and pray aloud
with him. See DE 14 at 11.
II.

Ramirez’s Pastor Will Be in His Immediate
Presence in the Execution Chamber.

The Supreme Court’s decision to grant of a stay in
Gutierrez v. Saenz, 141 S. Ct. 127 (2021), and refusal to
vacate a stay in and Dunn v. Smith, 141 S. Ct. 725
(2021), turned upon prison policies that excluded an
inmate’s spiritual advisor from the execution chamber.
Ramirez bolds, italicizes, and underlines the Court’s
(insignificant) language in Gutierrez and Justice Kagan’s figure of speech in Smith to suggest that they
turned—not on the walls between the inmate and his
advisor—but on the number of inches that separated
them. See DE 14 at 13.

159
From there, Ramirez asserts—in quotations—that
TDCJ insists upon “substantial physical distance” between him and his pastor in the execution chamber. DE
14 at 13. But if the quotes Ramirez places around “substantial physical distance” signify anything, it is his
own hyperbole, as TDCJ has not used the term in its
policy or anywhere. And the size of the execution chamber exposes Ramirez’s hyperbole for what it is, as the
chamber leaves no room for “substantial physical distance” between any of its occupants. As can be seen
from the photographs of the chamber, Ramirez will be
on a gurney in the middle of the chamber,1 while his
pastor stands in his “immediate physical presence” in
the corner of the room. See Def. Exhibit 1; DE 14 at 12
(citing Gutierrez v. Saenz, 141 S. Ct. 127, 128 (2021)).
III. Both the BOP and TDCJ Impose NoContact and No-Speaking Restrictions to
Mitigate the Risk of Allowing an Outside
Spiritual Advisor into the Execution
Chamber.
While repeatedly calling TDCJ’s security concerns
illusory, DE 5 at 11; DE 12 at 13, Ramirez also attests
1

These photographs were taken in 2019 and filed by Defendants as exhibits in Murphy’s and Gutierrez’s § 1983 civil-rights
proceedings. Due to the last-minute nature of Ramirez’s complaint, Defendants were unable to provide a new photograph of
the chamber in time to include with the instant surreply. Since
the picture was taken, the gurney has been rotated 180 degrees,
such that the head is against the wall. Because the size of the
chamber remains the same, Defendants believe this photograph
is adequate for the limited purpose they present it for.

160
to his pastor’s willingness to submit to further screening measures to address those concerns. DE 12 at 9–
10, 13. Now, in his reply brief, Ramirez reveals that his
pastor has already breached the only promise that he
has had the opportunity to breach: Pastor Moore
signed a non-disclosure agreement on August 26, 2021,
in which he represented he would “not disclose any information, including but not limited to the identities of
[TDCJ] employees” learned “through [his] participation as a spiritual advisor in [Ramirez’s] execution.”
DE 14 at 8. And yet, upon signing the agreement, Pastor Moore sent a photograph of it to counsel, complete
with the printed name and signature of a TDCJ employee he learned of during his participation at the orientation (that counsel was not allowed to attend).2 See
DE 14 at 7. While Ramirez is sure to claim that TDCJ
has no interest in protecting the anonymity of its employees who play a role in the process, it is not up to
him or his pastor to violate protocol if they perceive
the risk to be benign. Pastor Moore signed a nondisclosure agreement and then did precisely what its
terms forbid. His violation of the agreement raises
questions about his trustworthiness in complying with
TDCJ’s prohibitions against physical contact and audible prayer in the execution chamber—which are also

2

Apparently eager to disclose the name of a second “witness,” Ramirez explains that he cannot because the name is illegible “in its cursive signature.” DE 14 at 7. The nondisclosure
agreement reflects, however, that there was only one witness who
signed his name and then printed it, as such documents typically
call for. See DE 14 at 8

161
driven by security interests Ramirez does not respect.
See, e.g., DE 5 at 11; DE 12 at 13.
Whether Ramirez believes it or not, prisons have
a strong interest in “controlling access to” their execution chambers and in ensuring “that the execution occurs without any complications, distractions, or
disruptions.” Murphy v. Collier, 139 S. Ct. 1475, 147576 (202 1) (Kavanaugh, J., concurring); see also Order
on Security Concerns Associated with Outside Spiritual Advisor’s Presence in Chamber at 19, 24, Gutierrez v. Saenz, No. 1:19-cv-185, DE 124. Indeed, all five of
the Justices who have written or signed an opinion on
the issue have acknowledged that allowing an outsider
into the execution chamber poses a security risk. See
Murphy, 139 S. Ct. at 1475–76 (Kavanaugh, J., concurring); Smith, 141 S. Ct. at 725–26 (Kagan, J., concurring, joined by Breyer, J., Sotomayor, J., and Barrett, J.)
and (Kavanaugh, J., dissenting); accord Gutierrez, at
19 (recognizing that “precaution requires precisely
crafted policy” for executions). To mitigate the risk, the
Justices have offered potential solutions, sanctioning
the BOP’s execution policy as one of them. Id.
Following the Justices’ advice, TDCJ implemented
its current policy, which tracks the BOP’s risk-mitigation protocol for executions involving outside spiritual
advisors in the chamber. Where the BOP prohibits outside advisors from making physical contact with an
inmate prior to and during his execution, so too does
TDCJ. Compare Order on Security Concerns Associated with Outside Spiritual Advisor’s Presence in
Chamber at 13, Gutierrez v. Saenz, No. 1:19-cv-185, DE

162
124 (citing BOP memorandum indicating spiritual advisor will not be allowed to touch inmate upon entering
execution chamber and is subject to removal for any
disruptive physical contact), with DE 13-2 (declining
Ramirez’s request for his pastor to touch him “during
[his] execution”). Where the BOP prohibits outside advisors from verbally disrupting the execution, Ramirez
calls TDCJ’s similar prohibition an “unholy trinity of
constitutional violations.” Compare Order on Security
Concerns Associated with Outside Spiritual Advisor’s
Presence in Chamber at 13, Gutierrez, No. 1:19-cv-185,
DE 124, with DE 14 at 11.3 And where the BOP warns
that a spiritual advisor’s violation of either of these
rules will result in his removal from the execution
chamber, Ramirez claims TDCJ’s warning on same
evinces its intent to “hide” its unconstitutional policy.”
DE 14 at 9. Finally, where Justice Kagan suggested
that states might mitigate risks by requiring outside
advisors to take a penalty-backed pledge before entering the chamber,4 Ramirez asserts that TDCJ cannot
“get away with” requiring his pastor do so. According
to Ramirez, a penalty-backed pledge is really a “religious gag order” that “violat[es] the First Amendment’s

3

The Director notes that the claims Ramirez raises in his
second amended complaint must be dismissed, as he has not exhausted administrative remedies therefor. See DE 12; 42 U.S.C.
§ 1997e(a). Booth v. Churner, 532 U.S. 731, 739, 740–40 n.6
(2001); see Gonzalez v. Seal, 702 F.3d 785, 788 (5th Cir. 2012) (citing Woodford v. Ngo, 548 U.S. 81 (2006)); Jones v. Bock, 549 U.S.
199 (2007)).
4
Dunn v. Smith, 141 S. Ct. at 726 (Kagan, J., concurring).

163
religious protections by violating its free speech protections.” DE 14 at 9–10.
To substantiate his allegations of a constitutional
violation, Ramirez needs more than biblical analogies
and hyperbole. He needs a policy less restrictive than
the one he complains of. DE 14 at 11.5 Because he offers
none, the Court is left again with TDCJ’s and the
BOP’s policies. Both mitigate the risk of an outsider’s
presence in the chamber by imposing physical contact
and verbal restrictions that preclude the accommodations Ramirez seeks. Ramirez fails to acknowledge the
BOP’s policy at all, much less that it is, in all relevant
parts, the same as the one he complains of. If TDCJ is
imposing an “unholy trinity of constitutional violations” as he alleges, then the BOP must also be. The
Justices’ recent discussion of the BOP’s policy, however,
leaves a different impression, as they cite it as the “less
restrictive” model policy that effectively mitigates the
risk of an outsider’s presence in the chamber (through
its restrictions). If the Justices knew of a policy less restrictive than the BOP’s, none mentioned it. See Smith,
141 S. Ct. at 725–26. And because Ramirez does not either, he fails to establish a single—much less triple—
constitutional violation based on TDCJ’s policy imposing the same restrictions.

5

He also needs to and fails to show that TDCJ’s policy substantially burdens his religious exercise. See DE 13 at 10.

164
CONCLUSION
For these reasons, Plaintiff ’s request for a stay
should be denied.
Respectfully submitted,
KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant
Attorney General
JOSH RENO
Deputy Attorney General
For Criminal Justice
EDWARD L. MARSHALL
Chief, Criminal
Appeals Division
s/ Jennifer Wren Morris
JENNIFER WREN MORRIS
Assistant Attorney General
State Bar No. 24088680
Southern District No. 2237541
P.O. Box 12548, Capitol Station
Austin, Texas 78711
Tel.: (512) 936-1400
Fax: (512) 320-8132
email: jennifer.wren@
oag.texas.gov
Counsel for Defendants

165
AFFIDAVIT FOR PROVE-UP OF PHOTOGRAPHS
EXHIBIT 1
AFFIDAVIT FOR PROVE-UP OF PHOTOGRAPHS
THE STATE OF TEXAS §
COUNTY OF WALKER §
BEFORE ME, the undersigned authority, on this day
personally appeared Jeremy Desel, who, being by me
duly sworn, deposed as follows:
My name is Jeremy Desel and I am an employee of the
Texas Department of Criminal Justice (TDCJ), a governmental agency. I am over 21 years of age, of sound
mind, capable of making this affidavit, and personally
acquainted with the facts herein stated.
I have personally observed the TDCJ Executive Chamber at the Huntsville Unit on many occasions and am
familiar with the layout and proportions. The attached
photographs hare true and accurate representation of
the TDCJ Execution Chamber as it exists today. The
photographs depict the gurney in the chamber, the
plexiglass windows separating the execution chamber
from the two adjacent viewing rooms, and photographs
taken from inside the offender witness viewing room
looking into the execution chamber. The photograph
taken from inside the offender witness viewing room
looking into the execution chamber depicts the gurney
and the back wall of the execution chamber.
I declare under penalty of perjury that the foregoing is
true and correct.

166
“Further Affiant sayeth not.”
/s/ Jeremy Desel
Jeremy Desel
Director
Communications, EAS
Texas Department of
Criminal Justice
SWORN TO AND SUBSCRIBED BEFORE ME, the
undersigned notary public, on the 10th day of July,
2019.
/s/ Ashley Dixon
NOTARY PUBLIC,
ASHLEY DIXON
STATE OF TEXAS
Notary PublicAshley Dixon
State of Texas
Notary’s Printed Name
[SEAL]
Notary ID
#12592190-2
My Commission Expires:
Commission Exp.
10/12/2020
OCT. 12, 2020

167

Gutierrez Defs’ Exh. F

002

Murphy 1733

168

Gutierrez Defs’ Exh. F

003

Murphy 1734

169

Gutierrez Defs’ Exh. F

004

Murphy 1736

170
AFFIDAVIT FOR PROVE-UP OF PHOTOGRAPHS
(Filed Aug. 31, 2021)
THE STATE OF TEXAS
COUNTY OF WALKER

§
§
§

BEFORE ME, the undersigned authority, on this day
personally appeared Jeremy Desel, who, being by me
duly sworn, deposed as follows:
“My name is Jeremy Desel and I am an employee of the
Texas Department of Criminal Justice (TDCJ), a governmental agency. I am over 21 years of age, of sound
mind, capable of making this affidavit, and personally
acquainted with the facts herein stated.
I have personally observed the TDCJ Execution Chamber at the Huntsville Unit on many occasions, and I am
familiar with the layout and proportions. The attached
photographs are true and accurate representations of
the TDCJ Execution Chamber as it exists today. The
photographs depict the gurney in the chamber and the
plexiglass windows separating the execution chamber
from the two adjacent viewing rooms. These photographs were taken from inside the execution chamber.
I declare under penalty of perjury that the foregoing is
true and correct.
Further Affiant sayeth not.”

171
/s/ Jeremy Desel
Jeremy Desel
Director
Communications, EAS
Texas Department of
Criminal Justice
SWORN TO AND SUBSCRIBED BEFORE ME, the
undersigned notary public, on the 31st day of August,
2021.
KARA ELAINE
COFFEY
Notary PublicState of Texas
[SEAL]
Notary ID
#12877829-6
Commission Exp.
OCT. 19, 2023
Notary without Bond

/s/ Kara Elaine Coffey
NOTARY PUBLIC,
STATE OF TEXAS
Kara Elaine Coffey
Notary’s Printed Name
My Commission Expires:
10/19/2023

172

173

174

175
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN HENRY RAMIREZ,
Plaintiff,
v.
BRYAN COLLIER, et al.,
Defendants.

§
§
§
§
§
§

CIVIL ACTION NO.
H-21-2609

ORDER DENYING STAY OF EXECUTION
(Filed Sep. 2, 2021)
In 2008, a Texas jury convicted John Ramirez of
capital murder for killing Pablo Castro. As part of a
robbery spree to get money for drugs, Ramirez confronted Castro outside a convenience store in Corpus
Christi, stabbed him 29 times, and then robbed him of
$1.25. See Ramirez v. Stephens, 641 F. App’x 312, 314
(5th Cir. 2016). For over a decade, Ramirez has challenged his conviction and sentence in state and federal
court. The State of Texas has set an execution date of
September 8, 2021. No litigation remains pending that
challenges the state court judgment against Ramirez.
Ramirez has filed a lawsuit under 42 U.S.C. § 1983
alleging that Texas will execute him in a manner that
will violate his religious rights. (Docket Entry No. 1).
TDCJ previously had a policy of excluding all spiritual
advisors from the execution chamber itself. In response
to litigation, TDCJ implemented its current policy of
allowing an outside spiritual advisor in the execution

176
chamber, but requiring that the advisor not touch the
prisoner or pray out loud.
The instant case is one of first impression as to the
specific question of whether a person set to be executed
has the right, under the Religious Land Use and Institutionalized Persons Act, 42 U.S.C. § 2000cc, et seq.
(“RLUIPA”) and the Free Exercise Clause of the First
Amendment, to have an approved spiritual advisor lay
hands upon the person’s body and vocalize prayers
during the execution. Specifically, Ramirez has filed
suit because he would like his chosen spiritual advisor—Pastor Dana Moore, an ordained Christian minister at Second Baptist Church in Corpus Christi,
Texas—to lay his hands on Ramirez and pray with him
during the execution.
Ramirez has moved to stay his execution. (Docket
Entry No. 11). The Defendants oppose Ramirez’s motion. (Docket Entry Nos. 13, 18). For the reasons discussed below, the Court will DENY Ramirez’s motion.
I.

Stay of Execution Standard

Given the short time remaining, this case can only
proceed if this Court intervenes in the State’s execution of its otherwise-valid judgment against Ramirez.
A prisoner condemned to death, however imminent
that death may be, has no automatic entitlement to a
stay of execution. See McFarland v. Scott, 512 U.S. 849,
858 (1994). “A stay of execution is an equitable remedy that is not available as a matter of right.” Wood
v. Collier, 836 F.3d 534, 538 (5th Cir. 2016). A court

177
considering a motion to stay an execution must consider the four factors outlined in Nken v. Holder, 556
U.S. 418 (2009): “(1) whether the movant has made a
showing of likelihood of success on the merits, (2)
whether the movant has made a showing of irreparable injury if the stay is not granted, (3) whether the
granting of the stay would substantially harm the
other parties, and (4) whether the granting of the stay
would serve the public interest.” In re Campbell, 750
F.3d 523, 534 (5th Cir. 2014) (quotation omitted).
II.

The Law

Ramirez claims he will be executed under conditions that violate RLUTPA and the First Amendment.
RLUTPA provides in part: “No government shall impose a substantial burden on the religious exercise of
a person residing in or confined to an institution,” unless the burden furthers “a compelling governmental
interest,” and does so by “the least restrictive means.”
RLUTPA “alleviates exceptional government-created burdens on private religious exercise.” Cutter v. Wilkinson,
544 U.S. 709, 720 (2005). Specifically, RLUTPA states:
No government shall impose a substantial
burden on the religious exercise of a person
residing in or confined to an institution, as defined in section 1997 of this title, even if the
burden results from a rule of general applicability, unless the government demonstrates
that imposition of the burden on that person(1) is in furtherance of a compelling governmental interest; and

178
(2) is the least restrictive means of furthering that compelling governmental interest.
42 U.S.C. § 2000cc-1(a). RLUIPA “alleviates exceptional government-created burdens on private religious exercise,” without “elevat[ing] accommodation of
religious observances over an institution’s need to
maintain order and safety.” Cutter, 544 U.S. at 720.
Ramirez also claims that the prison policy violates
his rights under the Free Exercise Clause of the First
Amendment. Courts in this circuit look to the reasonableness test from Turner v. Salley, 482 U.S. 78 (1987)
to decide such claims. See Gutierrez v. Saenz, 818 F.
App’x 309, 313 (5th Cir. 2020); Brown v. Collier, 929
F.3d 218, 243 (5th Cir. 2019). Under Turner, a court
considers:
(1) whether a “valid, rational connection [exists] between the prison regulation and the legitimate governmental interest put forward
to justify it,” (2) whether there exist “alternative means of exercising the fundamental
right that remain open to prison inmates,” (3)
what “impact accommodation of the asserted
constitutional right will have on guards and
other inmates, and on the allocation of prison
resources generally,” and (4) whether there is
an “absence of ready alternatives” to the regulation in question.
Adkins v. Kaspar, 393 F.3d 559, 564 (5th Cir. 2004)
(quoting Turner, 482 U.S. at 89-90).

179
III. Analysis
Ramirez has not shown that a stay of execution is
appropriate in this case. Of the stay-of-execution factors, the likelihood of success is often “the most critical.” Nken, 556 U.S. at 434. Courts describe the movant’s
burden as requiring a “strong” or “substantial” likelihood of success. See In re Garcia, 756 F. App’x 391, 396
(5th Cir. 2018); Sells v. Livingston, 561 F. App’x 342,
343 (5th Cir. 2014); Sepulvado v. Jindal, 729 F.3d 413,
417 (5th Cir. 2013). Ramirez has not met that burden.
The parties focus much of their briefing on
Ramirez’s RLUIPA claim. RLUIPA provides in part
that: “No government shall impose a substantial burden on the religious exercise of a person residing in or
confined to an institution,” unless the burden furthers
“a compelling governmental interest,” and does so by
the “least restrictive means.” Cutter, 544 U.S. at 720
(quoting 42 U.S.C. § 2000cc-1(a)(1)-(2)). Ramirez’s pleadings do not give any reason to doubt his sincerely held
religious beliefs. The parties debate whether TDCJ’s
limitations on Ramirez’s spiritual advisor substantially burden his religious observance. In particular,
the Defendants argue that Ramirez has not shown
that TDCJ policy “creates a ‘substantial burden’ on a
religious exercise [that] truly pressures [him] to significantly modify his religious behavior and significantly
violate his religious beliefs.” Adkins, 393 F.3d at 567.
The recent changes in TDCJ policy accommodate
Ramirez’s religious needs. Ramirez may visit with his
spiritual advisor for several hours on the day of his

180
execution. During that time, Ramirez may pray aloud
with his pastor. TDCJ’s policy allows his pastor to
stand in his presence while the execution team carries
out Ramirez’s sentence. Ramirez has not identified any
case requiring more or specifically finding a right to
vocal prayer and holding the condemned man’s hand
during an execution.
The Defendants argue that the current TDCJ policy serves a “a compelling governmental interest”—
minimizing risk and maintaining order during the execution procedure—and that it “is the least restrictive
means of furthering that compelling governmental interest.” TDCJ has a compelling interest in maintaining
an orderly, safe, and effective process when carrying
out an irrevocable, and emotionally charged, procedure. Prison administrators understandably create intricate and exacting execution protocols to minimize
the unknowns and reduce risk. Issues of prison administration are “peculiarly within the province and professional expertise of corrections officials, and, in the
absence of substantial evidence . . . that the officials
have exaggerated their response to these considerations, courts should ordinarily defer to their expert
judgment in such matters.” Pell v. Procunier, 417 U.S.
817, 827 (1974); see also O’Lone v. Estate of Shabazz,
482 U.S. 342, 349 (1987) (“[W]e have often said that
evaluation of penological objectives is committed to the
considered judgment of prison administrators. . . .”).
Prison officials have a strong interest in “controlling access to” their execution chambers and
in ensuring “that the execution occurs without any

181
complications, distractions, or disruptions.” Murphy v.
Collier, 139 S. Ct. 1475, 1475-76 (2021) (Kavanaugh, J.,
concurring). TDCJ will accommodate Ramirez’s religious beliefs by giving Ramirez access to his pastor on
the day of execution and allowing him to stand nearby
during the execution. As argued by the Defendants,
further calling into question the prison officials’ decisions about the execution process would entangle
courts “in the minutia of a highly sensitive and secure
process that requires elevated control and precision by
prison administrators.” (Docket Entry No. 13 at 15).
Concerns about maintaining precise order in the
execution chamber are not hypothetical. The course
of this lawsuit has already raised serious questions
about whether Ramirez’s spiritual advisor will abide
by TDCJ’s physical contact and verbal restrictions.
TDCJ policy requires an inmate’s chosen spiritual advisor to sign an agreement to “not disclose any information, including but not limited to the identities of
[TDCJ] employees” learned “through [his] participation as a spiritual advisor in [Ramirez’s] execution.”
(Docket Entry No. 14 at 8). Pastor Moore, however, took
a photograph of the agreement—which contained the
name of a TDCJ employee—and sent it to Ramirez’s
attorney, Seth H. Kretzer. Mr. Kretzer then intentionally included that photograph in a public court filing.
(Docket Entry No. 14 at 7).1 The Defendants now
properly argue: “His violation of the agreement raises
1

At the Defendants’ request, and over Kretzer’s objection,
the Court sealed the document due to such unauthorized disclosure.

182
questions about his trustworthiness in complying with
TDCJ’s prohibitions against physical contact and audible prayer in the execution chamber—which was also
driven by security interests Ramirez does not respect.”
(Docket Entry No. 15 at 4).
Even if Ramirez could demonstrate that TDCJ’s
current protocol imposes a substantial burden on his
religious exercise, he has not made a strong showing
that it is not the “least restrictive means” of furthering
its compelling interests. Cutter, 544 U.S. at 720. The
Court finds that Ramirez has not made a strong or substantial showing of success on his RLUIPA claim.
For the same reasons discussed above, Ramirez
has not met the first Nken factor regarding his First
Amendment claim. TDCJ’s protocol is rationally related to its legitimate penological interest in security
and in an orderly execution process. The Court finds
that Ramirez has not made a strong showing of a potential First Amendment violation. In sum, the Court
finds that Ramirez has not met the first Nken factor.
The remaining Nken factors do not tip the scales
in his favor. By not making a strong showing that his
claims have merit, Ramirez has likewise not shown a
possibility of irreparable injury. Granting of a stay
would harm the Defendants by disallowing the execution of an otherwise-valid judgment against Ramirez
in a timely manner. Finally, while the “[p]ublic interest
is never served by a state’s depriving an individual of
a constitutional right,” Kite v. Marshall, 454 F. Supp.
1347, 1351 (S.D. Tex. 1978), the public has an “in timely

183
enforcement of the death sentence.” United States v.
Vialva, 976 F.3d 458, 462 (5th Cir. 2020). The Court,
therefore, finds that Ramirez has not shown entitlement to a stay of his execution.
IV. Conclusion
For the reasons discussed above, the Court DENIES Ramirez’s motion to stay his execution. (Docket
Entry No. 11).
SIGNED at Houston, Texas, on this the 2 day of
September, 2021.
/s/ David Hittner
DAVID HITTNER
United States District Judge

184
United States Court of Appeals
for the Fifth Circuit
-----------------------------------------------------------------------

No. 21-70004
-----------------------------------------------------------------------

JOHN H. RAMIREZ,
Plaintiff—Appellant,
versus
BRYAN COLLIER, EXECUTIVE DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE; BOBBY LUMPKIN,
DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION; DENNIS
CROWLEY, WARDEN, TDCJ, HUNTSVILLE, TX,
Defendants—Appellees.
-------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:21-CV-2609
-------------------------------------------------------------------------------------------------------------

(Filed Sep. 6, 2021)
Before OWEN, Chief Judge, HIGGINBOTHAM and DENNIS,
Circuit Judges.
PER CURIAM:
John Henry Ramirez was convicted in a Texas
state court of capital murder and was sentenced to
death. He exhausted his state-court appeals, then
sought and was denied habeas corpus relief in the state
and federal courts. The State of Texas set an execution

185
date of September 8, 2021. Ramirez has filed suit under 42 U.S.C. § 1983, contending that the manner in
which Texas plans to execute him will violate the Free
Exercise Clause of the First Amendment and the Religious Land Use and Institutionalized Persons Act of
2000 (“RLUIPA”).1 Ramirez sought a stay of his execution, and the district court denied that motion.
Ramirez has appealed.
We DENY the motion for a stay of execution.

PRISCILLA R. OWEN, Chief Judge, concurring:
I concur in the denial of the motion to stay the execution.
With regard to Ramirez’s claims that his rights
under the Free Exercise Clause of the First Amendment will be violated, I agree with the analysis in
JUDGE DENNIS’s opinion and in the district court’s
Order Denying Stay of Execution. The district court
did not abuse its discretion in concluding that Ramirez
failed to establish a likelihood of success on the merits
of his First Amendment claims.2
I part company with JUDGE DENNIS’s opinion as
to Ramirez’s claims under the Religious Land Use and
Institutionalized Persons Act of 2000 (“RLUIPA”).3 As
1
2
3

42 U.S.C. §§ 2000cc et seq.
Slip Op. at 8.
42 U.S.C. §§ 2000cc et seq.

186
JUDGE HIGGINBOTHAM’s opinion explains, the administration of the drugs to cause demise is far from
simple.
I note additionally that the State has asserted in
its briefing that the Federal Bureau of Prisons (“BOP”)
does not permit spiritual advisors to have physical
contact with a person condemned to death while the
advisor is present in an execution chamber during an
execution, and the BOP places restrictions on verbal
communications by spiritual advisors while in the execution chamber. Given the time constraints under
which our court is operating, I have not been able to
locate documentation of the State’s assertions. But
Ramirez has had the opportunity to challenge those
assertions in the district court and in this court and
has not done so. Ramirez has not pointed to any jurisdiction in which spiritual advisors are permitted to
have physical contact with a person while he or she
is executed, or any jurisdiction that permits a spiritual adviser, while in the death chamber during the
actual execution process, to talk to the prisoner or
otherwise vocalize. Courts, including the Supreme
Court, often consider practices and policies implemented in state and federal prisons in conducting a
least-restrictive-means analysis.4 The State met its
4

See, e.g., Dunn v. Smith, 141 S.Ct. 725, 726 (2021) (KAGAN, J., concurring in the denial of an application to vacate an
injunction) (“In the last year, the Federal Government has conducted more than 10 executions attended by the prisoner’s clergy
of choice—exactly what Smith requests.”); id. at 726-27 (KAVANAUGH, J., dissenting from the denial of an application to vacate an injunction) (“[I]t seems apparent that States that want to

187
burden of establishing that its current policy regarding
spiritual advisers is the least restrictive means of furthering its compelling government interest “in maintaining an orderly, safe, and effective process when
carrying out an irrevocable, and emotionally charged,
procedure.”5
I also note that in Ramirez’s prior 42 U.S.C. § 1983
suit, he asserted that “Pastor Moore need not touch
[Ramirez] at any time in the execution chamber.”
Ramirez’s present demand that Pastor Moore be permitted to lay hands on him throughout the execution
process and until death has occurred, raises the concern that Ramirez’s change in position has been asserted to delay his execution. Though I do not doubt
the sincerity of Ramirez’s religious beliefs or those of
his pastor, the shifting of Ramirez’s litigation posture
indicates that the change in position is strategic and
that delay is the goal. I do not doubt that Ramirez desires his spiritual adviser to touch him and to pray
with and over him until Ramirez’s life is ended. But to
raise this desire as a constitutional or statutory violation after previously disavowing the need for physical
contact during the execution process means that the
district court’s exercise of discretion was not an abuse
of that discretion.

avoid months or years of litigation delays because of this RLUIPA
issue should figure out a way to allow spiritual advisors into the
execution room, as other States and the Federal Government
have done.”).
5
Slip. Op. at 6.

188
HIGGINBOTHAM, J. concurring in the denial of the motion for a stay of execution.
John Henry Ramirez claims that denial of his request to allow his spiritual advisor to lay his hands on
him during his execution by lethal injection violates
his rights under the Religious Land Use and Institutionalized Persons Act of 2000 (“RLUIPA”).6 Such denials are reviewed under a standard of strict scrutiny
requiring the state to employ the least restrictive
means to further a compelling governmental interest.
TDCJ revised its Execution Procedure on April 21,
2021 to allow spiritual advisors to be present in the
execution chamber but does not allow them to physically touch prisoners in the execution chamber.7 Looking at the execution procedure implemented by Texas
along with the procedures of the Federal Bureau of
Prisons (“BOP”) and other states with death by lethal injection, we find a nigh universal reluctance to
allow individuals access to the execution chamber beyond the medical team—persons immediately required
for medical and security purposes.8 Mindful that the
6

42 U.S.C. § 2000cc et seq.
Texas Department of Criminal Justice, Correctional Institutions Division, Execution Procedure (Apr. 21, 2021).
8
See 28 C.F.R. § 26.4 (2020); Nevada Department of Corrections, Execution Manual (Jun. 9, 2021); Idaho Department of Correction, Execution Procedure (Mar. 30, 2021); North Carolina
Department of Public Safety, Execution Procedure Manual for
Single Drug Protocol (Oct. 24, 2013); State of Louisiana Department of Public Safety and Corrections, Field Operations Adult Institutions Death Penalty (Mar. 12, 2014).
7

189
execution chamber is the last step. A prisoner is prepared for the execution chamber in an adjacent room.
There he is undressed (shorts and sox) and placed on a
gurney. Here spiritual advisors are allowed but not in
the execution chamber. This is the general statutory
response: prisoners have access to spiritual advisors.
Texas went further in not only allowing the prisoner to
be with a spiritual advisor for the two hours leading up
to the execution in the first chamber but also allowing
the spiritual advisor to be present in the execution
chamber itself albeit only hands of the medical team
touch the prisoner.
While lethal injection may seem straightforward,
the actual administration of the drugs and pronouncement of death is both delicate and fraught with difficulties as evidenced by the responses of regulatory
bodies and the experience of this Court with mishaps
in execution by lethal injection The Texas Execution
Procedure demonstrates the logistical complexities involved, setting forth a detailed schedule for the weeks
and days leading up to an execution and requirements
for the medical personnel present with precise detail
of each step of the medical team. In short, the complexities attending the administration of drugs in the execution procedure and its failures expose the risks of
non-medical hands on the body of a person undergoing the procedure. This is plainly a humane effort
with constitutional footing with steps long side those
of spiritual needs. But of course the state must also
demonstrate that there is not an alternative means of

190
serving its compelling interest. No hands means no
hands.
I concur in the order denying the stay of execution.

JAMES L. DENNIS, Circuit Judge, dissenting:
Texas inmate John Henry Ramirez is scheduled
to be executed on September 8, 2021. Currently,
Ramirez has pending in district court a § 1983 lawsuit challenging the Texas Department of Criminal
Justice’s (“TDCJ”) current execution policy (“the policy”). Ramirez asserts that, pursuant to the policy, he
will be executed in a manner that violates his religious
rights. Under the policy, Ramirez’s spiritual advisor,
Pastor Dana Moore, will be permitted to be present in
the execution chamber during Ramirez’s execution.
However, Pastor Moore will not be permitted to (1) audibly pray, or (2) physically touch Ramirez to confer
ministrations and a spiritual blessing upon him.
Ramirez contends that audible prayer and physical
touch are components of his religious faith and that
the policy prohibiting him from exercising these practices violates his rights under the First Amendment’s
Free Exercise Clause and the Religious Land Use and
Institutionalized Persons Act (RLUIPA). On August
18, 2021, Ramirez filed a motion for a stay of execution
in the district court. On September 2, 2021, the district
court denied Ramirez’s motion.

191
Today, the majority affirms that decision and denies Ramirez a stay. In doing so, the majority fails to
follow the most recent Supreme Court guidance in this
evolving area. Ramirez’s § 1983 suit implicates vitally
important interests, and, at this stage of the litigation,
he has made a strong showing that he is likely to succeed on the merits. I would grant a stay of execution
and remand the case for further proceedings. Therefore, I dissent from the court’s denial of Ramirez’s motion for a stay of execution.
I.
In 2008, Ramirez was convicted by a Texas jury of
capital murder and sentenced to death. See generally
Ramirez v. Stephens, 641 F. App’x 312, 314 (5th Cir.
2016). Relevant to this appeal, on February 5, 2021, the
execution date of September 8, 2021 was set. On April
21, 2021, TDCJ adopted the policy. On August 10, 2021,
Ramirez filed the instant lawsuit under 42 U.S.C.
§ 1983 challenging the policy.
II.
An inmate’s filing of a § 1983 action does not result
in a stay of execution as a matter of course. Hill v.
McDonough, 547 U.S. 573, 583–84 (2006). “[A] stay of
execution is an equitable remedy.” Id. at 584. “The
party requesting a stay bears the burden of showing
that the circumstances justify an exercise of [judicial]
discretion.” Nken v. Holder, 556 U.S. 418, 433–34 (2009).
“In deciding whether to grant a stay of execution, the

192
district court was required to consider four factors:
‘(1) whether the stay applicant has made a strong
showing that he is likely to succeed on the merits;
(2) whether the applicant will be irreparably injured
absent a stay; (3) whether issuance of the stay will substantially injure the other parties interested in the
proceeding; and (4) where the public interest lies.’ ”
Green v. Thaler, 699 F.3d 404, 411 (5th Cir. 2012) (quoting Nken, 556 U.S. at 434). The first two factors are the
most significant. Nken, 566 U.S. at 434.
III.
The district court determined that Ramirez was
not entitled to a stay either as to his Free Exercise
Clause claim or his RLUIPA claim. While I agree that
Ramirez is not entitled to a stay on his Free Exercise
Clause claim under the deferential standard established by the Supreme court in Turner v. Safley, 482
U.S. 78 (1987), I strongly disagree that Ramirez has
not shown his entitlement to a stay as to his RLUIPA
claim. Therefore, unlike the majority, I would grant a
stay of execution and remand for the district court to
consider the merits of Ramirez’s challenge.
RLUIPA grants “expansive protection for religious
liberty,” affording an inmate with “greater protection”
than the Supreme Court’s relevant First Amendment
precedents. Holt v. Hobbs, 574 U.S. 352, 358, 361
(2015). RLUIPA provides that the government shall
not “impose a substantial burden” on an inmate’s “religious exercise” unless the government shows that

193
imposing such a burden can withstand strict scrutiny,
meaning the policy “(1) is in furtherance of a compelling governmental interest; and (2) is the least restrictive means of furthering that compelling governmental
interest.” 42 U.S.C. § 2000cc-1(a). Importantly, RLUIPA
utilizes a burden-shifting framework. Holt, 574 U.S. at
360–62. First, the inmate, Ramirez, bears the initial
burden of showing that a government policy substantially burdens his religious exercise. Id. at 360–61. If
he does so, then the burden shifts to the State to show
that its policy can withstand RLUIPA’s strict scrutiny
standard. Id. at 362. The Supreme Court has characterized this standard as “exceptionally demanding.” Id.
at 364. “[I]f a less restrictive means is available for the
Government to achieve its goals, the Government must
use it.” Id. at 365 (alteration in original).
A.
Under RLUIPA, “religious exercise” is defined
broadly to include “any exercise of religion, whether or
not compelled by, or central to, a system of religious
belief.” 42 U.S.C. § 2000cc-5(7)(A). “[A] prisoner’s request for an accommodation must be sincerely based
on a religious belief and not some other motivation.”
Holt, 574 U.S. at 360–61. Ramirez’s receipt of audible
prayer and physical touching by a pastor to convey a
spiritual blessing when death is imminent are clearly
“exercise[s] of religion,” and, like the district court, I
see no reason to question the sincerity of Ramirez’s religious beliefs.

194
The next question is whether the TDCJ policy results in a substantial burden on that religious exercise.
Recently, the Supreme Court has considered a number
of cases regarding spiritual advisors and executions.
See Dunn v. Ray, 139 S. Ct. 661 (2019); Murphy v. Collier, 139 S. Ct. 1475 (2019); Gutierrez v. Saenz, 141
S. Ct. 127 (2020); Dunn v. Smith, 141 S. Ct. 725 (2021).
The two most recent cases—Gutierrez v. Saenz and Dunn
v. Smith—address spiritual advisor claims brought
pursuant to RLUIPA and are especially relevant to
this case. In both cases, the Supreme Court addressed
policies—one in Texas and one in Alabama—that prohibited the presence of any spiritual advisor in the execution chamber. Of course, Ramirez’s challenge to the
current TDCJ policy is related, though not identical, to
Gutierrez’s or Smith’s; after the Gutierrez case, Texas
changed its policy to allow the presence of a spiritual
advisor in the execution chamber. Regardless, because
the material facts in all three cases are substantially
similar, both Gutierrez and Smith support the conclusion that Ramirez has made a strong showing that the
current policy imposes a substantial burden on his religious exercise.
In Gutierrez, a panel of our court vacated the district court’s grant of a stay of execution. The panel determined that, while a policy prohibiting the presence
of a spiritual advisor in the execution chamber may
have “denied the final measure of spiritual comfort
that might be available,” such a policy “does not rise to
the level of a substantial burden on religious exercise
if it merely prevents the adherent from enjoying some

195
benefit that is not otherwise generally available.”
Gutierrez v. Saenz, 818 F. App’x 309, 314–15 (citing Adkins v. Kaspar, 393 F.3d 559, 571 (5th Cir. 2004), vacated, 141 S. Ct. 1260 (2021). Days later, the Supreme
Court granted Gutierrez a stay and directed the district court in that case to make factual findings regarding “whether serious security problems would result if
a prisoner facing execution is permitted to choose the
spiritual adviser the prisoner wishes to have in his immediate presence during the execution.” Gutierrez, 141
S. Ct. at 127.
The Court did not provide reasons. However, the
grant of a stay and the scope of the Court’s directive to
the district court strongly suggests that the Court determined that Gutierrez had satisfied his initial burden of showing a substantial burden on his religious
exercise. After the district court made findings that no
security problem would result, the Supreme Court
granted certiorari, vacated our court’s panel decision,
and remanded the case for consideration on the merits.
Gutierrez, 141 S. Ct. 1260, 1261 (2021). Again, had the
Court thought that the policy did not impose a substantial burden on religious exercise, there would have
been no reason for vacatur or remand. The Supreme
Court’s rulings in Gutierrez are thus necessarily a rejection of the panel’s reasoning in that case.
In Smith, the Court denied Alabama’s motion to
vacate an injunction prohibiting the execution of Willie
Smith without his minister present in the execution
chamber. 141 S. Ct. at 725. While the Court did not provide reasons, Justice Kagan did so in a concurrence

196
joined by Justices Breyer, Sotomayor, and Barrett. The
concurrence stated that, by barring the presence of his
minister in the execution chamber, “Alabama’s policy
substantially burden[ed] Smith’s exercise of religion”
because Smith understood his minister’s presence in
the execution chamber as integral to his faith and part
of his spiritual search for redemption, and because
“[t]he sincerity of those religious beliefs is not in
doubt.” Id. at 725 (Kagan, J., concurring). The concurrence concluded with the broad statement that
“[t]he law guarantees Smith the right to practice his
faith free from unnecessary interference, including at
the moment the State puts him to death.” Id. at 726.
Similar to Smith, in this case Ramirez alleged, inter alia, that the laying on of hands by Pastor Moore is
“in accordance with” his “faith tradition,” is “necessary
to bless [him] at the moment of his death,” and that the
practice of audible prayer combined with physical
touch is based in “Christian scripture.” First Amended
Complaint at 5-6, ¶17-19. Additionally, Ramirez submitted an affidavit from Pastor Moore stating that the
practice of touch has “significance and power,” that
when he “pray[s] with others in a crisis situation, [he]
holds their hand or put[s] [his] hand on their shoulder,”
and that this is “a significant part of our faith tradition.” First Amended Complaint, Exh 2. Similar to
Smith, the district court in this case did not question
the sincerity of Ramirez’s religious beliefs, and neither
do I. Thus, following Gutierrez and Smith, because the
current policy prohibits Ramirez from engaging in

197
sincerely-held religious practices, it also imposes a
substantial burden on his religious exercise.
In light of Gutierrez and Smith, it was an abuse of
discretion for the district court to determine that
Ramirez had not made a strong showing that the TDCJ
policy imposes a substantial burden on his religious
exercise.9 For the same reasons, both Gutierrez and
Smith support Ramirez’s argument that he has made
a strong showing of likely success on the merits and is
therefore entitled to a stay. Crucially, once Ramirez
makes his initial showing under RLUIPA, the burden
shifts to the State to prove that the policy satisfies the
statute’s strict scrutiny test. See Holt, 547 U.S. at 362.

9

The district court also abused its discretion by improperly
relying on the fact that Ramirez would be able to meet and pray
with Pastor Moore for several hours on the day of his execution
and the fact that Pastor Moore would be present in the execution
chamber in determining that the current policy preventing audible prayer and physical touch during the execution imposed no
substantial burden. The Supreme Court made clear in Holt that
this type of analysis—considering the availability of alternative
means of practicing religion—is not relevant in the RLUIPA context. 574 U.S. at 361–62. This “alternative means” analysis derives from the Court’s precedents concerning prisoners’ First
Amendment rights, but RLUIPA provides prisoners with “greater
protection” than the First Amendment, and RLUIPA’s substantial burden inquiry asks whether the government has burdened a
specific religious exercise, not whether the prisoner is able to engage in other forms of religious exercise. Id. As explained above,
utilizing the proper analysis, Ramirez has made a strong showing
that the TDCJ policy imposes a substantial burden on his religious exercise.

198
B.
As explained in the preceding section, Ramirez
has made a strong showing that the policy imposes a
substantial burden on his religious exercise. Further,
he has proffered that Pastor Moore is willing to submit
to additional security measures. See Complaint at 6,
¶20. After a claimant makes an initial showing of a
substantial burden, the burden then shifts to the government to prove that its policy satisfies RLUIPA’s
strict scrutiny standard. See Holt, 574 U.S. at 362. In
this phase of the litigation, the State has not met its
burden.
The district court stated that, even if Ramirez
could show that the policy imposed a substantial burden, he had not made a strong showing that it is not
the “least restrictive means.” This was legal error, and
therefore an abuse of discretion, because the district
court placed the burden on the wrong party. According to relevant Supreme Court precedents, it is not
Ramirez’s burden—even at this early stage of litigation—to disprove that the State is utilizing the least
restrictive means; rather, it is the State’s burden to
show that its policy utilizes the least restrictive
means and therefore satisfies RLUIPA’s strict scrutiny standard. See Gonzales v. O’Centro Espirita Beneficente Uniao do Vegetal, 546 U.S. 418, 429 (2006)
(holding that, in the analogous context of a preliminary
injunction under the Religious Freedom Restoration
Act, “the burdens at the preliminary injunction stage
track the burdens at trial” such that it was the government’s burden to satisfy RFRA’s strict scrutiny

199
standard and not the plaintiff ’s burden to disprove it)
(citing Ashcroft v. ACLU, 542 U.S. 656, 666 (2004)).
As for the State’s burden, there is no doubt that
security of an execution is a “compelling governmental
interest.” See, e.g. Smith, 141 S. Ct. at 725 (Kagan, J.,
concurring) (“[P]rison security is, of course, a compelling state interest.”). But to satisfy RLUIPA, the State
must also meet the “exceptionally demanding” standard of showing that the policy is truly the “least restrictive means” available, which “requires the government
to ‘sho[w] that it lacks other means of achieving its desired goal without imposing a substantial burden on
the exercise of religion by the objecting part[y].’ ” Holt,
574 U.S. at 364-65 (quoting Burwell v. Hobby Lobby,
573 U.S. 682, 728 (2014)) (alterations in original). In
other words, the burden is on the State to specifically
show that its “ ‘application of the challenged law to the
person—the particular claimant whose sincere exercise of religions is being substantially burdened’ ” can
satisfy RLUIPA’s strict scrutiny standard. Id. at 363
(quoting Hobby Lobby, 573 U.S. at 726).
At least at this early stage in the litigation, the
State has not met that demanding and specific burden.
The State has not shown why its policy of prohibiting
even a brief audible prayer and any physical touching
is the least restrictive means of achieving its compelling interest in this specific case. Rather, the State has
largely offered general concerns about security. I do not
doubt that these concerns are legitimate and important. But that is not enough to satisfy RLUIPA’s
“exceptionally demanding” standard. Holt, 574 U.S. at

200
364. In my view, the concurring opinions of CHIEF
JUDGE OWEN and JUDGE HIGGINBOTHAM, like the district court, do not hold the State to the burden that
Congress mandated in RLUIPA. It is not enough, as
CHIEF JUDGE OWEN and JUDGE HIGGINBOTHAM suggest,
for the State to argue that its policy is consistent with
the Federal Bureau of Prisons’ policy. Under RLUIPA
and pertinent Supreme Court precedent, the State
needs to show why its policy disallowing Pastor Moore
from uttering any audible prayer or engaging in any
touching, as applied specifically to Ramirez, is the least
restrictive means of achieving its compelling interest.
See Holt, 574 U.S. at 363-65. The religious utility and
importance of Ramirez having his pastor with him in
the execution room will be diminished by the State’s
policy, and the State has not shown why having a spiritual advisor in the room, but requiring that advisor to
remain mute and refrain from showing signs of comfort or religious concern, is essential and the least restrictive means available for the State to carry out the
execution.
Thus, at this point in the litigation, I conclude that
Ramirez has made a strong showing that he is likely
to succeed on the merits of his RLUIPA claim because
he has carried his burden of showing that the policy
imposes a substantial burden on his religious exercise,
while the State has not carried its burden of showing
that the policy utilizes the least restrictive means
available to achieve its compelling governmental interest in a secure execution. In light of this conclusion, I
further conclude that the other stay factors weigh in

201
Ramirez’s favor, such that a stay of execution is warranted so that the district court can consider these important issues.
*

*

*

What purpose is there for allowing a spiritual advisor, like a pastor, to be present in the execution chamber if that pastor is prohibited from attending to the
spiritual needs of the condemned during the final moments of his life, through audible prayer, physical
touch, or otherwise? At the end of life, what does a pastor do but minister to and comfort his parishioner?
Ramirez is raising these pressing questions, which
were arguably implicit in the Supreme Court’s recent
decisions in Gutierrez and Smith, even if they were not
squarely presented. If a stay were granted, Ramirez
may or may not ultimately prevail on the merits of his
RLUIPA claim. On the merits, the State may or may
not be able to prove that the policy satisfies RLUIPA’s
demanding standards. In denying a stay of execution,
the majority fails to heed the Supreme Court’s recent
guidance, with the troubling result that Ramirez may
very well suffer the irreparable injury of being executed in a manner that violates his religious rights
before a court is able to adjudicate his claims on the
merits. Therefore, respectfully, I dissent from the
court’s denial of Ramirez’s motion for a stay of execution.

202
(ORDER LIST: 594 U.S.)
WEDNESDAY, SEPTEMBER 8, 2021
CERTIORARI GRANTED
21-5592 RAMIREZ, JOHN H. V. COLLIER, BRYAN,
(21A33) ET AL.
The application for stay of execution of sentence of
death presented to Justice Alito and by him referred to
the Court is granted. The motion for leave to proceed
in forma pauperis and the petition for a writ of certiorari are granted. The Clerk is directed to establish a
briefing schedule that will allow the case to be argued
in October or November 2021.

